<html>
<title> - NOMINATION OF HON. LINDA THOMAS- GREENFIELD TO BE UNITED STATES. REPRESENTATIVE TO THE UNITED NATIONS</title>
<body><pre>[Senate Hearing 117-45]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 117-45

                     NOMINATION OF HON. LINDA THOMAS-
                     GREENFIELD TO BE UNITED STATES
                  REPRESENTATIVE TO THE UNITED NATIONS

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________
                               

                            JANUARY 27, 2021

                               __________


       Printed for the use of the Committee on Foreign Relations

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                   Available via the World Wide Web:
                         http://www.govinfo.gov

                               __________
					    
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
45-209 PDF                 WASHINGTON : 2020                     
          
-----------------------------------------------------------------------------------


                COMMITTEE ON FOREIGN RELATIONS          
                One Hundred Sixteenth Congress          

                JAMES E. RISCH, Idaho, Chairman        
MARCO RUBIO, Florida		ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin		BENJAMIN L. CARDIN, Maryland
CORY GARDNER, Colorado		JEANNE SHAHEEN, New Hampshire
MITT ROMNEY, Utah		CHRISTOPHER A. COONS, Delaware
LINDSEY GRAHAM, South Carolina	TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia \1\	CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming		TIM KAINE, Virginia
ROB PORTMAN, Ohio		EDWARD J. MARKEY, Massachusetts
RAND PAUL, Kentucky		JEFF MERKLEY, Oregon
TODD YOUNG, Indiana		CORY A. BOOKER, New Jersey
TED CRUZ, Texas
DAVID PERDUE, Georgia \2\

              Christopher M. Socha, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        


                One Hundred Seventeenth Congress        

            ROBERT MENENDEZ, New Jersey, Chairman          
BENJAMIN L. CARDIN, Maryland           JAMES E. RISCH, Idaho
JEANNE SHAHEEN, New Hampshire          MARCO RUBIO, Florida
CHRISTOPHER A. COONS, Delaware         RON JOHNSON, Wisconsin
CHRISTOPHER MURPHY, Connecticut        MITT ROMNEY, Utah
TIM KAINE, Virginia                    ROB PORTMAN, Ohio
EDWARD J. MARKEY, Massachusetts        RAND PAUL, Kentucky
JEFF MERKLEY, Oregon                   TODD YOUNG, Indiana
CORY A. BOOKER, New Jersey             JOHN BARRASSO, Wyoming
BRIAN SCHATZ, Hawaii                   TED CRUZ, Texas
CHRIS VAN HOLLEN, Maryland             MIKE ROUNDS, South Dakota
                                       BILL HAGERTY, Tennessee
                Jessica Lewis, Staff Director          
       Christopher M. Socha, Republican Staff Director          
                   John Dutton, Chief Clerk          



------------
    \1\ Senator Isakson retired from the Senate on December 31, 2019 
for health reasons.

    \2\ Senator Perdue became a member of the committee on February 26, 
2020.

                              (ii)        

  
                            C O N T E N T S

                              ----------                              
                                                                   Page
Risch, Hon. James E., U.S. Senator from Idaho....................     1


Cassidy, Hon. Bill, U.S. Senator from Louisiana..................     2


Coons, Hon. Christopher A., U.S. Senator from Delaware...........     2


Menendez, Hon. Robert, U.S. Senator from New Jersey..............     5


Thomas-Greenfield, Hon. Linda, of Louisiana, nominated to be 
  United States representative to the United Nations.............     7

    Prepared statement...........................................     9

              Additional Material Submitted for the Record

Responses to additional questions submitted for the record by 
  members of the committee

    Questions from Senator Risch.................................    38

    Questions from Senator Menendez..............................    70

    Questions from Senator Rubio.................................    77

    Questions from Senator Cardin................................    85

    Questions from Senator Barrasso..............................    87

    Questions from Senator Shaheen...............................    91

    Questions from Senator Cruz..................................    92

    Questions from Senator Coons.................................    95

    Questions from Senator Kaine.................................    95

    Questions from Senator Markey................................    95

    Questions from Senator Merkley...............................    97

    Questions from Senator Booker................................    98


                                 (iii)

 
                    NOMINATION OF HON. LINDA THOMAS-
                     GREENFIELD TO BE UNITED STATES.
                         REPRESENTATIVE TO THE
                             UNITED NATIONS

                              ----------                              


                      WEDNESDAY, JANUARY 27, 2021

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:05 a.m., in 
Room SD-G50, Dirksen Senate Office Building, and 
Videoconference, Hon. James E. Risch, chairman of the 
committee, presiding.
    Present: Senators Risch [presiding], Rubio, Johnson, 
Romney, Portman, Young, Cruz, Menendez, Cardin, Shaheen, Coons, 
Murphy, Kaine, Markey, Merkley, and Booker.
    Also present: Senator Cassidy.

           OPENING STATEMENT OF HON. JAMES E. RISCH,
                    U.S. SENATOR FROM IDAHO

    The Chairman.  The Foreign Relations Committee of the 
United States Senate will come to order. We had a little bit of 
trouble with the chairs here. The chairman has promised me he 
will get the--incoming chairman has promised me things will get 
better when he becomes chairman. We will hold you to that, 
Senator Menendez. Thank you.
    And good morning, everyone, and we are here for a very 
important nomination hearing, and that is the nomination of the 
Honorable Linda Thomas-Greenfield to be the U.S. ambassador to 
the United Nations, and we welcome you. I am assuming that is 
you down there. That is a long ways down. At least I have got a 
chair where I can see over the dais. We welcome you and thank 
you for your willingness to serve and, of course, your family 
also since they obviously will share in the sacrifices for the 
job. So thank you for that.
    We have two very distinguished members of the United States 
Senate here to introduce Ambassador Thomas-Greenfield, and one 
of them is one of our own committee members, Senator Coons. I 
am going to postpone my opening statement and ask Senator 
Menendez to do the same until after Senator Coons and Senator 
Cassidy give their remarks. And so with that, I would welcome 
Senator Cassidy, if you, as our guest, would take the floor, 
please.

                STATEMENT OF HON. BILL CASSIDY,
                  U.S. SENATOR FROM LOUISIANA

    Senator Cassidy. Thank you, Chairman Risch, and soon-to-be 
chairman Menendez, and members of the committee. It is a great 
honor to introduce somebody from my State and my home parish as 
President Biden's nominee to be the United States 
representative to the United Nations and the representative of 
the United States in the Security Council, Ambassador Linda 
Thomas-Greenfield.
    Ambassador Thomas-Greenfield is currently serving on the 
Biden transition team and was previously the head of the Africa 
practice for the Albright Stonebridge Group. The ambassador's 
career has been one of distinguishment as a member of the 
Diplomatic Corps of the United States. She has held high-level 
positions in the State Department and has served abroad as 
well. The last position held was the assistant secretary of 
state for African affairs. She has vast experience as a Foreign 
Service officer with numerous publications and is a 
distinguished fellow in African studies at the Georgetown 
University. I am proud to say she is a graduate of Louisiana 
State University, my alma mater, and the University of 
Wisconsin, which might be Ron Johnson's alma mater.
    Ambassador Thomas-Greenfield has dedicated her career to 
serve our Nation. In addition to her accomplishments as U.S. 
representative abroad, Ambassador Thomas-Greenfield holds 
numerous honors and awards, and, in 2016, even had a school 
named after her, the Linda Thomas-Greenfield Preparatory 
School, and her career would be an inspiration to any child 
thinking that her or his trajectory could be unlimited. Her 
years of service in the United States and abroad, in addition 
to her accomplishments, shows that she has a willingness to 
work with all parties towards common goals, which seems to be a 
prerequisite for the position to which she is as nominated.
    And in addition to her impressive career, Ambassador 
Thomas-Greenfield is married to Lafayette Masteen-Greenfield 
and is the loving mother--I presume loving--to Lindsay and 
Lafayette II. She enjoys cooking and I'm told is an expert on 
Louisiana cuisine.
    To represent the United States before the United Nations 
and the National Security Council, you need a willingness to 
advance your goals--our goals as a Nation and promote democracy 
across the globe. Reviewing her passport, it is clear that 
Ambassador Thomas-Greenfield is eminently qualified to this 
position. I look forward to the committee and the Senate 
approving her nomination. Thank you. I yield.
    The Chairman.  Thank you, Senator Cassidy. We appreciate 
that. Senator Coons?

            STATEMENT OF HON. CHRISTOPHER A. COONS,
                   U.S. SENATOR FROM DELAWARE

    Senator Coons.  Thank you, Mr. Chairman, ranking member. It 
is my honor to join Senator Cassidy in introducing to this 
committee Ambassador Linda Thomas-Greenfield, President Biden's 
nominee to represent our Nation at the United Nations in New 
York.
    Our country faces an unprecedented series of crises and 
challenges both at home and abroad: a global pandemic and 
economic recession, a reckoning around inequality and 
injustice, unprecedented levels of displacement and violence 
around the world, and the existential threat of climate change. 
And in this moment, I believe our leadership credibility and 
values are at task and are at test around the world, and our 
relationships are strained. We need to ask ourselves who we 
want to be and what example we hope to set for the rest of the 
world. And as our face at the United Nations, the United States 
needs a leader who can advance not just our interests, but our 
values, restore our alliances, rebuild bridges, and develop 
relationships that will allow U.S. to manage disagreements, 
unpack complex challenges, and inspire a next generation of 
leaders. That is why I am so excited to have the honor of 
joining with Senator Cassidy in introducing Ambassador Thomas-
Greenfield. She is no stranger to this committee, the 
Diplomatic Corps, or the U.S. national security community.
    Over the course of her 35 years of service to our Nation 
under administrations both Republican and Democrat, she has 
earned this committee's respect and admiration, so much so, she 
is famously known in places around the world by just three 
letters, ``LTG.'' She is joined today and has long been 
supported by her loving family, her husband, Lafayette, her 
daughter, Lindsay, and her son, Lafayette II, known as 
``Deuce,'' and we are grateful for their support for her career 
and her service.
    Ambassador Thomas-Greenfield represents both the promise 
and progress of America. Raised in the segregated Deep South, 
graduated from a segregated high school, one of just a few 
African-American women to attend and graduate from Louisiana 
State University, she would in 1982 join the Foreign Service 
after teaching political science at Bucknell to become one of 
far too few black professional female diplomats in our Foreign 
Service. Ambassador Thomas-Greenfield has lived the ideals of 
our Nation, even at a time when it was falling short of our 
founder--founding ideals, and has spent her career blazing 
trails. She understands that true patriotism is constituted in 
pushing your country to be the best version of itself and 
striving for that more perfect union.
    She is the right person at the right time, not just because 
of her qualifications, her deep global experience of serving 
U.S. in more than six countries around the world, and as the DG 
of the State Department, but because of her personal style of 
diplomacy--called ``Gumbo Diplomacy'' by her, inspired by her 
native Louisiana--as a way to reach out and connect with 
others, and break down barriers to connect with people and 
solve problems.
    I saw firsthand in Liberia when we first met why she has 
been called the people's ambassador. She has never met someone 
she cannot turn into a friend. She is also battle tested and 
tough as nails, having overseen our responses in nations to 
some of the most complex and grinding crises in the world. She 
brings a deep experience, a diverse perspective, and a unique 
and warm personality to the challenges of U.S. foreign policy 
at a time when we need new thinking. So Ambassador Thomas-
Greenfield represents, in my view, the very best of our Nation, 
and I urge my colleagues to support her nomination and swift 
confirmation through the United States Senate. Thank you, Mr. 
Chairman.
    The Chairman.  Thank you, Senator Coons. We appreciate 
that. And, again, we welcome you, Ambassador Thomas-Greenfield. 
I have just a few remarks, and then I am going to yield to 
Senator Menendez.
    This is a really important position that you have been 
appointed to. More than an institution, the United Nations is 
supposed to support the ideals that build upon--that are built 
upon American core values: the pursuit of peace and prosperity, 
a commitment to the rule of law, the protection of human 
rights, and the advancement of fundamental freedoms. 
Unfortunately, not all member states share our values, and more 
and more it seems like pursuing these values is becoming more 
difficult for the United Nations. Increasingly through the 
malign influence and actions of these members, the U.N. is 
becoming less of an ideal and more of a challenge.
    Despite the fact that the United States is by far the 
largest donor to the United Nations, the Chinese Communist 
Party is attempting to reshape the U.N. to serve the needs of 
the party, and it has had some successes in that regard. Over 
the last few years, we have seen the Chinese Communist Party 
ramp up its influence efforts by using the U.N. and its leaders 
to promote its One Belt One Road Initiative, adding the CCP-
specific language into U.N. resolutions and other documents, 
and by rigging elections in favor to replace--to replace 
Chinese--or to place Chinese nationals at the head of U.N.-
specialized agencies. The result is a U.N. that can be used by 
the CCP to silence Chinese political dissent, advance its 
foreign policy aims, promote its own authoritarian values, and 
even set technical standards and norms that will define the 
technologies of the future.
    The CCP's malign influence across multilateral institutions 
has become perhaps most visible at the World Health 
Organization. As the Biden Administration seeks to re-engage 
with the WHO, it must keep in mind the CCP manipulation of the 
organization. The CCP continues to hide the origins of COVID-19 
by hindering WHO fact-finding missions, promoting the fake 
theory that COVID-19 originated somewhere other than in Wuhan 
Province, China, and promoting its unreliable vaccines through 
COVAX. The United States, alongside its democratic allies and 
partners, must work to counter the Chinese Government's malign 
influence at the WHO and across the U.N. systems, and protect 
the integrity of the world's multilateral institutions. I look 
forward to hearing how you plan to address this challenge.
    On the humanitarian front, we have seen China and Russia 
work together to hinder global efforts to seek peace and 
protect human security, including efforts to close lifesaving 
border crossings into Syria. If confirmed, one of your most 
important roles will be representing the United States at the 
Security Council. Unfortunately, the Security Council has 
failed to make significant progress on some of the most 
pressing international crises, including the threat posed by 
Iran's nuclear weapons program and support for terrorism. 
Failure of the JCPOA and the United Nations Concurrent 
Resolution 2231 to contain Iran are clear: neither have 
accomplished their stated goals. We all--everybody in this room 
knows that President Biden has indicated he wants to get back 
into the JCPOA. We all have strong feelings on that. I 
sincerely hope that as we proceed forward, we can, on a 
bipartisan basis, do better than we did with the initial JCPOA.
    We are right up against many of the sunsets imposed under 
U.N. Concurrent Resolution 2231. The Conventional Arms Embargo 
has already passed, and we face the expiration of the 
Ballistics Missile Embargo in 2023. Most concerning, we face 
the termination of U.N. involvement in Iran's nuclear program 
in 4 years, in 2025. The arms embargo needs to be re-imposed, 
and these other nearsighted sunsets must be extended for the 
security of the United States and for the rest of the world, 
and, again, I hope we can work together. I know there is 
diverse feeling on this committee, but I think this committee 
has some very important things that can help the Biden 
Administration as it moves forward to re-engage in Iran, 
assuming that is the goal that it has.
    Let me turn to the elephant in the room, Ms. Greenfield. 
First of all, thank you for meeting with me yesterday. I 
thought it was a very productive meeting that we had. I am 
sorry that you had not read my China report. I suspect that has 
changed by now. But in any event, you gave a speech on October 
20th, I believe, of 2019, which has become quite the buzz in 
these hallways in recent days, as I explained to you. We are 
going to give you every opportunity to speak to that today. I 
think there were some editorials even written overnight that 
were not very complimentary of that. I can tell you that there 
is not a person sitting in this room that has not given a 
speech that they do not wish they had back. I personally I am 
not going to hold one speech against somebody, but you are 
going to have to speak to that, and I suspect that you are 
ready to, so we want to give you every opportunity to do that. 
We want to hear what you have to say, and I look forward to 
hearing from you, how you will be supporting U.S. leadership in 
the U.N., and particularly at the Security Council.
    So with that, again, thank you for your willingness to 
serve. Senator Menendez?

               STATEMENT OF HON. ROBERT MENENDEZ,
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez.  Well, thank you, Mr. Chairman, and thank 
you for expediting this hearing of Ambassador Thomas-
Greenfield, so I appreciate your continued work in this regard.
    Ambassador Thomas-Greenfield, congratulations on your 
nomination. Welcome to your fourth Senate confirmation hearing. 
It is deeply reassuring that President Biden nominated you, a 
diplomat of immense expertise and skill, to be the next U.S. 
permanent representative to the United Nations. I believe you 
are superbly qualified to advance U.S. interests at the U.N., 
and we are deeply grateful for your willingness, and that of 
your family, to return to serve our country at this critical 
time. We are at a pivotal time, an opportunity to repair and 
restore our place in the world, but we have to be honest about 
the challenges we face, including at the United Nations, in 
light of the Trump Administration's abandonment of U.S. 
leadership.
    Over the last 4 years, the U.S. has accrued more than $1 
billion in peacekeeping arrears, tried to pull out of the World 
Health Organization in the middle of a pandemic, undermined 
international protections for women and girls and LGBTI 
individuals, defunded or cut funding to key agencies, like the 
U.N. Population Fund and the Office of the High Commissioner 
for Human Rights, pulled out of the Paris Climate Agreement. 
Meanwhile, China and other authoritarian countries have filled 
the vacuum left by our absence. So Ambassador, I hope you will 
agree that we cannot simply return to business as usual at the 
U.N. We must actively work to repair and strengthen that which 
has been undermined, including strong support for human rights 
and democracy, and, in the wake of the devastating COVID-19 
pandemic, restoring U.S. leadership at the World Health 
Organization and other international health organizations.
    As someone who believes in a tough, concerted approach to 
Iran, it was disheartening to watch the Trump administration 
alienate our allies with unilateral statements and actions. 
This self--this isolating self-defeating strategy culminated in 
a disastrous attempt to extend the U.N. arms embargo on Iran 
where the U.S. could muster only one--one--other Security 
Council vote and a failed effort to involve the snap back of 
sanctions under the JCPOA. So I am very interested to hear how 
the Biden administration intends to re-engage our allies and 
hold Iran accountable, both for its nuclear program and its 
regional aggression.
    Among your most difficult tasks will be to regain U.S. 
leverage and influence in the Security Council, where Russia 
and China have used their veto powers and ability to bully non-
permanent members to stymie the Council's work. They have 
shielded abusive regimes, like the Government of Burma, which 
committed genocide against the Rohingya, and the criminal 
dictatorship of Nicolas Maduro, who has unleashed a campaign of 
crimes against humanity, resulting in the flight of more than 
5.4 million Venezuelans from their country. Russia and China 
have not been content to simply protect Bashar al-Assad from 
accountability for his crimes against the Syrian people. Russia 
has threatened a veto on U.N. Syrian assistance to reduce the 
border crossings to which assistance can reach rebel-held Syria 
to only one. This has made it even harder to obtain 
desperately-needed food, shelter, and medical assistance for 
innocent civilians. I strongly urge you to do everything 
possible to keep this vital lifeline open upon your 
confirmation.
    I am also concerned by the way China has sought to increase 
its role at the United Nations and in other international 
organizations, not because China does not deserve an 
appropriate role commensurate with its presence on the world 
stage, but because of its attempts to pervert and distort the 
core values that make the U.N.'s work so important. China's 
efforts to insert Xi Jinping's thoughts into U.N. resolutions 
has undermined the U.N.'s commitment to human rights. This is 
the same leader responsible for what the State Department has 
determined to be acts of genocide committed against 1.8 million 
Uyghur men, women, and children in internment facilities.
    When China has asserted leadership and taken on leadership 
roles in U.N. bodies, these organizations have ceased to uphold 
the values and interests of the broader international 
community. Bit by bit, step by step, they are instead made to 
reflect China's unilateral priorities, often at the expense of 
human rights. And for all the bluster and tough-guy rhetoric, 
the record of the Trump administration to counter Beijing's 
efforts has been one of abject failure. Meanwhile, the net 
effect of the Trump administration's policies towards North 
Korea has been to gut the U.N. sanctions regime painstakingly 
put in place to counter North Korean provocations and its 
nuclear missile programs. Today, thanks to former Secretary 
Pompeo and President Trump, the sanctions regime is on life 
support. Last year, North Korea conducted ballistic missile 
tests, a clear violation of U.N. Security Council resolutions, 
and the administration did nothing. I look forward to hearing 
your thoughts on how to address this pressing concern.
    As you have witnessed firsthand, the United Nations plays a 
crucial role in the maintenance of peace and security across 
Africa. It supports six U.N. peacekeeping missions already, but 
there are other ongoing conflicts that also demand the urgent 
involvement of the U.N. I am thinking in particular of 
Cameroon, Ethiopia, and Mozambique where a failure to properly 
address crises have already generated large refugee flows and, 
in some cases, drawn neighboring countries into active 
conflict. And finally, one area I hope that you and the Biden 
administration will remain closely engaged on is preventing the 
United Nations and other affiliated organizations from being 
used for bias attacks on Israel. Such actions make a negotiated 
two-state solution more difficult to achieve.
    After four tumultuous, exhausting years, the United States 
needs renewal and engagement with key alliances and 
institutions. If confirmed, the world will be closely watching 
how we achieve this at the United Nations, and I look forward 
to hearing your views how you would achieve that. Thank you 
very much.
    The Chairman.  Thank you, Senator Menendez. And, Ambassador 
Greenfield, we will turn to you. I think people's concern about 
what--we have read not just your speech of October 19th, but 
the other ones that you have made, which were substantially 
better in many regards. I think probably the biggest problem 
with the October 19th speech was the--was the lack of 
acknowledgement of the malign activities of China. So you are 
going to have your opportunity today to the back fill that 
hole, and with that, the floor is yours.

STATEMENT OF THE HON. LINDA THOMAS-GREENFIELD OF LOUISIANA, TO 
 BE THE REPRESENTATIVE OF THE UNITED STATES OF AMERICA TO THE 
                         UNITED NATIONS

    Ambassador Thomas-Greenfield. I think I am on. Thank you, 
Chairman Risch, and Ranking Member Menendez, and distinguished 
members of this committee. I would like to offer special 
gratitude to Senator Cassidy, who has left us, from my home 
State of Louisiana, and Senator Coons for their generous 
introductions.
    I am deeply honored to appear before you all as President 
Biden's nominee to serve as U.S. ambassador to the United 
Nations, and I am so grateful to the President for placing his 
trust in me. My husband, Lafayette Greenfield, a retired 
Foreign Service specialist, is here with me today, along with 
my son Lafayette, who you have heard we call ``Deuce.'' Our 
daughter, Lindsay, is serving our country currently in La Paz, 
Bolivia. I am so proud of them all and so grateful for their 
love and their support and sacrifice as I take on this 
important position. I would also like to thank my extended 
family, and that includes all of the members of the Department 
of State who have been sending me so many kind messages of 
support.
    When I joined the Foreign Service in 1982, I was not the 
norm. Many of my colleagues had gone to Ivy League schools, and 
I had gone to segregated high schools, as you have already 
heard, and to LSU as a consequence of a lawsuit, not to mention 
I was joining an organization facing two class action lawsuits 
that applied to me, one led by black officers in the Foreign 
Service and the other by women. And yet I had an extraordinary 
35-year career that culminated as the assistant secretary of 
state for African affairs. To me, that represents the progress 
and the promise of America.
    Still, I never expected that I would have the chance to 
step into the shoes of so many luminaries, leaders like Jeane 
Kirkpatrick, who was the permanent representative when I first 
joined the Service; or my own mentor, Ambassador Ed Perkins, 
the first African-American ambassador to South Africa, a U.N. 
ambassador, and a giant among diplomats; or the iconic 
Secretary of State, Madeleine Albright, followed most recently 
by four other women: Ambassador Susan Rice, Samantha Powers, 
Nikki Haley, and Kelly Craft, my most recent predecessor.
    Like my mentors, role models, and predecessors, I strongly 
believe diplomacy is an irreplaceable tool in the work of 
advancing America's interest and building a better world. 
Throughout my career, from Jamaica to Nigeria, Pakistan to 
Switzerland, and as ambassador to Liberia, I have learned that 
effective diplomacy means more than shaking hands and staging 
photo ops. It means developing real robust relationships. It 
means finding common ground and managing points of 
differentiation. It means doing genuine, old-fashioned people-
to-people diplomacy. President Biden epitomizes that approach. 
He believes in considering every diplomatic tool in the 
toolkit, including bringing stronger language and tougher 
tactics to the table when needed. You can be assured that will 
be my approach, too, if I am fortunate enough to be confirmed.
    Of all of our diplomatic tools, perhaps our most powerful 
instrument is the United Nations itself. The U.N. is uniquely 
poised to take on our shared global challenges from countering 
terrorism, to promoting the rights of women and girls, to 
feeding tens of millions living on the brink of famine. As 
Ralph Bunche put it in his Nobel Peace Prize acceptance speech, 
``The United Nations is the greatest peace organization ever 
dedicated to the salvation of mankind's future on Earth,'' but 
that is only true if America is leading the way.
    When America shows up, when we are consistent and 
persistent, when we exert our influence in accordance to our 
values, the United Nations can be an indispensable institution 
for advancing peace, security, and our collective well-being. 
If instead we walk away from the table and allow others to fill 
the void, the global community suffers, and so do American 
interests. In particular, we know China is working across the 
U.N. system to drive an authoritarian agenda that stands in 
opposition to the founding values of the institution, American 
values. Their success depends on our continued withdrawal. That 
will not happen on my watch. From climate change to COVID-19, 
nonproliferation to mass migration, technological disruptions 
to human rights violations, today's problems are urgent, they 
are complex, and they are global. Meeting these challenges 
means meeting with our fellow nations, especially in the 
world's most important diplomatic forum.
    To that end, before I answer your questions, let me outline 
three key priorities that will guide my work as U.S. ambassador 
to the United Nations, if confirmed first, our leadership must 
be rooted in our core values: support for democracy, respect 
for universal human rights, and the promotion of peace and 
security. Second, we must have the courage to insist on reforms 
that make the U.N. efficient and effective. And third, as U.S. 
ambassador to the United Nations, if confirmed, I would seek to 
develop a strong partnership with this committee, which I have 
had the great pleasure of working with often throughout my 
career in the Foreign Service. I want the conversation and the 
collaboration we begin today to continue throughout my service, 
and I look forward to answering your questions.
    [The prepared statement of Ambassador Thomas-Greenfield 
follows:]


           Prepared Statement of Hon. Linda Thomas-Greenfield

    Thank you, Chairman Risch and Ranking Member Menendez, and 
distinguished members of this committee. I'd like to offer special 
gratitude to Senator Cassidy, from my home state of Louisiana, and 
Senator Coons, a long-time friend, for their generous introductions.
    I am deeply honored to appear before you as President Biden's 
nominee to serve as U.S. Ambassador to the United Nations, and grateful 
to the President for placing his trust in me.
    My husband, Lafayette Greenfield, is here with me today, along with 
our son Lafayette, whom we all call Deuce. Our daughter, Lindsay, is 
currently serving in La Paz, Bolivia. I am so proud of them all, and so 
grateful for their love, support, and sacrifice as I take on this 
important position. I would also like to thank my extended family. That 
includes my relatives in Louisiana and all of the members of the 
foreign service, who have been sending me so many kind messages of 
support.
    When I joined the Foreign Service in 1982, I was not the norm. My 
colleagues had gone to Ivy League schools--I had gone to a segregated 
high school, and LSU as a consequence of a lawsuit. Not to mention, I 
was joining an organization facing two class action lawsuits that 
applied to me: one led by Black people in the foreign service, the 
other by women.
    And yet, I had an extraordinary 35-year career, that culminated as 
the Assistant Secretary for African Affairs. To me, that represents the 
progress, and promise, of America.
    Still, I never expected I would have the chance to step into the 
shoes of so many great luminaries: Leaders like Jeane Kirkpatrick, who 
was the Permanent Representative when I first joined the service . . . 
or my own mentor, Ambassador Ed Perkins, the first African American 
Ambassador to South Africa, a U.N. Ambassador, and a giant among 
diplomats . . . or the iconic Secretary of State Madeleine Albright, 
followed most recently by four other women: Ambassadors Susan Rice, 
Samantha Power, Nikki Haley, and Kelly Craft, my most recent 
predecessor.
    Like my mentors, role models, and predecessors, I strongly believe 
diplomacy is an irreplaceable tool in the work of advancing American 
interests and building a better world.
    Throughout my career, from Jamaica to Nigeria, Pakistan to 
Switzerland, I've learned that effective diplomacy means more than 
shaking hands and staging photo ops.
    It means developing real, robust relationships. It means finding 
common ground and managing points of differentiation. It means doing 
genuine, old-fashioned, people-to-people diplomacy.
    President Biden epitomizes that approach. He believes in 
considering every diplomatic tool in the toolkit--including bringing 
stronger language and tougher tactics to the table when needed. You can 
be assured that will be my approach too, if I am so fortunate enough to 
be confirmed.
    Of all our diplomatic tools, perhaps our most powerful instrument 
is the United Nations itself.
    The U.N. is uniquely poised to take on our shared global 
challenges, from countering terrorism to promoting the rights of women 
and girls to feeding tens of millions living on the brink of famine.
    As Ralph Bunche put it in his Nobel Peace Prize acceptance speech, 
the United Nations is ``the greatest peace organization ever dedicated 
to the salvation of mankind's future on earth.''
    But that's only true if America is leading the way.
    When America shows up--when we are consistent and persistent--when 
we exert our influence in accordance with our values--the United 
Nations can be an indispensable institution for advancing peace, 
security, and our collective well-being.
    If instead we walk away from the table, and allow others to fill 
the void, the global community suffers--and so do American interests.
    In particular: We know China is working across the U.N. system to 
drive an authoritarian agenda that stands in opposition to the founding 
values of the institution--American values. Their success depends on 
our continued withdrawal. That will not happen on my watch.
    From climate change to COVID-19, non-proliferation to mass 
migration, technological disruption to human rights violations, today's 
problems are urgent, complex, and global. Meeting these challenges 
means meeting with our fellow nations, especially in the world's most 
important diplomatic forum.
    To that end, before I answer your questions, let me outline three 
key priorities that will guide my work as U.S. Ambassador to the United 
Nations if confirmed.
    First: Our leadership must be rooted in our core values: support 
for democracy, respect for universal human rights, and the promotion of 
peace and security.
    Second: We must have the courage to insist on reforms that make the 
U.N. efficient and effective, and the persistence to see reforms 
through.
    And third: As U.S. Ambassador to the United Nations, I would seek 
to develop a strong partnership with this committee, which I have had 
the great pleasure of working with often throughout my career in the 
Foreign Service.
    I want the conversation and collaboration we begin today to 
continue throughout my service as Ambassador.
    Thank you--I look forward to your questions.


    The Chairman.  Thank you very much. We are going to do 
questions now, and we are going to do a 5-minute round. And I 
am going to do it--since the President has designated this as a 
Cabinet-level position, I will do what I have always done with 
those, and we will do it on a seniority basis on the committee. 
I am going to reserve my time, and with that, I am going to 
yield to Senator Menendez for questions.
    Senator Menendez.  Well, thank you, Mr. Chairman. Madam 
Ambassador, you gave a speech in 2019 at Savannah State on U.S. 
and China trade and investment in Africa that has been brought 
to my attention as well as too many other members. The chairman 
has referenced it. Now, I know from your history that you are a 
strong believer in democracy, good governance, human rights, 
and anti-corruption efforts, and I know that you fought for 
those values in Africa. So I think you are pretty much aware of 
the concerns that some have raised about the speech you gave. I 
would like to give you an opportunity to speak to the committee 
about the speech, explain why you agreed to deliver it, and 
discuss any aspects of the substance that you would like to 
take a moment to address.
    Ambassador Thomas-Greenfield. Thank you, Senator, for 
giving me this opportunity. First, let me say that I strongly 
support Congress' crackdown on the Confucius Institute and the 
work that many of the committee have done on this issue. And, 
yes, Senator Risch, I did read your report last night, so I do 
have bags under my eyes.
    I have a long track record, as you have heard, Senator 
Menendez, speaking about China's malign influence, about the 
debt traps, tactics that they have used in Africa and 
elsewhere. China is a strategic competitor and poses challenges 
to our security, and to our prosperity, and to our values, and 
China has engaged in gross human rights violations and has 
authoritarian ambitions that go against our democratic values. 
Much of the time that I spent on the continent of Africa was 
spent making the case to African countries about why they 
should partner on economic growth with the United States.
    As for the speech that I gave at Savannah State University, 
which is the oldest historically black college and university 
in Georgia, it has a goal of encouraging young people, 
particularly young black and brown Americans who are 
underrepresented in our Foreign Service, to pursue careers and 
spread American values across the world. So I accepted that 
speech at a request from the university with the idea in mind 
that this would give me another opportunity to engage with 
young people. And part of my visit there was to engage with 
young people there, to encourage them on foreign affairs 
careers.
    Truthfully, I wish I had not accepted the specific 
invitation, and I came away from the experience frankly alarmed 
at the way the Confucius Institute were engaging with the black 
community in Georgia. It reminded me of what I had seen in 
Africa, the Chinese Government going after those in need with 
fewer resources. I gave the speech as a speech on Africa as a 
way of recommending to Africans how they can address their 
challenges with China. And, Senator, if I am confirmed, I 
commit to working with this committee to counter China at the 
U.N., to fight against all efforts by the Chinese Government to 
add harmful language to the U.N. resolutions, and to resist 
China's efforts to overfill key U.N. positions with Chinese 
citizens.
    I also want to note that I have a very strong relationship 
across the African continent that I hope I can use to work 
closely with leaders to push back on China's self-interested 
and parasitic development goals in Africa, and I will urge 
those leaders to support American values at the United Nations.
    Senator Menendez.  Thank you. Thank you. Now, I did my own 
research, and this is not a new view for you. In 2007, over 14 
years ago, you expressed concerns over China's rapidly-
increasing lending to poor nations in Africa. And you cited 
then in 2007, before many were even thinking about that, of the 
subversive concerns that that type of lending was creating in 
African countries. In 2014, you encouraged African Governments 
to understand why it is so important in their dealings with the 
Chinese that issues on human rights and political freedoms and 
press freedoms be considered. Then in 2013, you warned about 
China's increasing trade with African countries, saying that 
the U.S. needed to advocate for American companies and American 
businesses, and to push for level playing field.
    In 2019, while serving as a witness at the House Foreign 
Affairs Committee hearing on Africa, you warned of China's 
influence on the continent and stated that decreasing foreign 
aid would be ceding to China many of our national interests. In 
2020, you entered into a joint op-ed in the Foreign Policy 
Manual in which you argued that the State Department paid too 
little attention to a rapidly-changing international landscape 
in which geopolitical competition with a rising China and of 
resurging Russia was accelerating. This is a long-held view. Am 
I correct in that?
    Ambassador Thomas-Greenfield. You are correct, sir.
    Senator Menendez.  Uh-huh. Thank you.
    The Chairman.  Thank you, Senator Menendez, for that 
history, and with that, let me say I think that your 
observation that you were surprised or shocked, I think is how 
you put it, as to China's influence through these Confucius 
Institutes on the campus where you gave that speech, some good 
may come out of this yet in that, you know, this institution, 
Congress, has prohibited foreign governments from contributing 
to political campaigns. And yet we allow them to contribute 
generously in many instances to our institutions of higher 
learning around the country that are so important to forming 
people's opinions, young people's opinions, so, when they go 
forward. So it may be time for this body to consider whether or 
not it is appropriate to allow foreign governments like this to 
use that kind of influence in our institutions of higher 
learning. I think there would be a robust debate on that 
amongst this body, but certainly the reasons why we do not 
allow it in politics may very well translate to the education 
system. So some good may come out of your speech from October 
19th of--or excuse me--October 20th, 2019 yet. With that, I 
will turn it over to Senator Rubio.
    Senator Rubio.  Ambassador, thank you for being here, and 
thanks for your willingness to serve our country again. You 
know, we are not going to--I hope we are not going to belabor 
the point. Other members may have questions. But I do think it 
is important to explore the speech a little further in October 
of 2019. And I have heard both your statement here today and 
also the statement from a spokesperson of President Biden about 
how you regret accepting the invitation in addition to what you 
witnessed in terms of the predatory behavior when you went down 
to speak. I am, however, and I hope you can address this, a bit 
puzzled. I mean, you had a--prior to accepting the speech, you 
had a 35-year career in the U.S. Foreign Service, so certainly 
the Confucius Institute was not something you were unaware of, 
its existence. Going back to 2014, the Association of 
University Professors had issued a statement expressing deep 
concern about the Confucius Institute as a threat to academic 
freedom, that they advocated a China state agenda that--in 
their recruitment and control of staff, the choice of 
curriculum, the restrictions on debate and so forth.
    In 2018, I believe it was in response to a question from me 
on the global threats hearing, FBI Director Wray announced the 
FBI had concerns about the Confucius Institute and were 
actually looking at--so, I mean, the Confucius Institute and 
what they are doing in the U.S. as an element of soft power 
and/or influence has not only been well documented, but also, I 
would imagine, that in the 35 years of service to our country, 
it is something you had to have been aware of. Were you not 
aware of who the Confucius Institute was and the concerns about 
them when you accepted that speech?
    Ambassador Thomas-Greenfield. Senator, I am not naive about 
China's malign influence, and I know very well the activities 
of the Confucius Institute. I did accept an invitation to speak 
at Savannah. I had spoken there many times before. I spoke at 
their commencement address in 2014. I had done a recruitment 
trip there when I was director general of the Foreign Service. 
So I accepted the invitation as a--as a response to the 
university. What I was surprised about, not what--not the 
Confucius Institute. What I was surprised about when I got 
there is that they had activities that went into our high 
schools, into our elementary schools. That I was not aware of.
    I did read Senator Portman's report on the impact on 
education, and I saw reference to that in the report, but I had 
never seen it in person in the United States. I had seen it in 
Africa for sure. And, as I said, I truly regret having accepted 
that invitation and having had my name associated with the 
Confucius Institute.
    Senator Rubio.  If I could, and you will correct me, is it 
fair to characterize it as follows, and that is you accepted 
the speech as a favor to an institution that you have a long 
history of interacting with as opposed to a direct invitation 
from the Confucius Institute per se?
    Ambassador Thomas-Greenfield. That is exactly the truth, 
and I work very, very committedly to get out the message about 
foreign affairs careers across historical black colleges and 
universities as well as Hispanic universities, because I 
strongly believe that our Foreign Service should be 
representative of America, and Savannah gave me the opportunity 
to do that. And, again, the fact that this was associated with 
the Confucius Institute was truly a huge mistake on my part, 
but it was not done as part of a Confucius Institute program. 
It was done so that I could continue my commitment to engage 
with historical black colleges and university.
    Senator Rubio.  Were you paid to give that----
    Ambassador Thomas-Greenfield. I was paid an honorarium by 
the university. It was an academic honorarium for my 
engagements with students.
    Senator Rubio.  May I ask, do you consider what is 
happening with Uyghur Muslims in Xinjiang the--by the--what the 
Communist Party of China is doing there, do you believe they 
are guilty of genocide?
    Ambassador Thomas-Greenfield. What they are doing there has 
been referred to as genocide, and I know that the State 
Department is reviewing that as we speak. What they are doing 
is horrific, and I look forward to seeing the results of the 
review that is being done. But certainly it----
    Senator Rubio.  Well, the State Department issued a 
designation, I believe, on the President's last day. So is it 
your understanding that it is now being reviewed by the State 
Department to see that is appropriate?
    Ambassador Thomas-Greenfield. I think the State Department 
is reviewing that now because all of the procedures were not 
followed. And I think they are looking to make sure that they 
are followed to ensure that that designation is held.
    Senator Rubio.  [Presiding.] Okay. Thank you. Oh, here it 
is. I apologize. He stepped out and gave me seniority card. I 
want to--okay. Senator Cardin on virtual?
    Senator Cardin.  I am with you, Mr. Chairman.
    Senator Rubio.  All right.
    Senator Cardin.  Thank you very much. Appreciate it very 
much. And let me thank our nominee for her incredible service, 
distinguished service on behalf of our country, and thank you 
for your willingness to continue in public life, and we thank 
your family. In regards to the Confucius Centers, I think that 
has already been covered, but it is interesting that Savannah 
State, along with several other academic centers, have 
terminated their relationships with these centers. So I think 
Chairman Risch's initial points, we see action being taken by 
academic centers recognizing that the Confucius Centers were 
used for propaganda. So we are pleased to see that action, and 
I certainly accept your explanation of accepting an invitation 
from Savannah State.
    I want to go on to some additional issues because I think 
that issue has been pretty well covered, and that is, we know 
of the historic discrimination at the United Nations in regards 
to the State of Israel. When you look at the human rights--
United Nations Human Rights Council, the only nation that is on 
the permanent agenda is Israel, and we know countries like Iran 
and others that have horrendous human rights records are only 
covered under general debate. So just share with me your views 
as to how you will represent the United States in helping one 
of our closest allies in the world, Israel, in its relationship 
at the United Nations, including the Human Rights Council.
    Ambassador Thomas-Greenfield. Thank you, Senator, for that 
question, and I do understand that Savannah State has severed 
its relationship with the Confucius Institute.
    On the issue of Israel, President Biden has been one of 
Israel's strongest supporters over the last 50 years of his 
career. You all know that quite well. And the President 
believes that our ties between--the ties between our two 
countries are rooted in our strategic interests and our shared 
values. So if I am confirmed as the U.S. ambassador to the 
United Nations, I look forward to standing with Israel, 
standing against the unfair targeting of Israel, the relentless 
resolutions that are proposed against Israel unfairly. And I 
hope to work closely and look forward, in fact, to working 
closely with the Israeli embassy, with the Israeli ambassador, 
to work to bolster Israel's security and to expand economic 
opportunities for Israelis and Americans alike, and widen the 
circle of peace. I think it goes without saying that Israel has 
no closer friend than the United States, and I will reflect 
that in my actions at the United Nations.
    Senator Cardin.  Thank you. And the United Nations is 
clearly the most important of the international organizations, 
but we find the international community has done many things at 
different organizations that discriminate against Israel, so 
our activity at the United Nations becomes even more important, 
including supporting Israel having a more visible role at the 
United Nations in a positive way. So I thank you for that 
commitment.
    I want to talk a moment about the sustainable development 
goals. We do not talk enough about that in the Congress or 
among the American people. It has been a great success at the 
United Nations in advancing the end of poverty and gender 
equality and so many different issues. I was particularly 
pleased about the Sustainable Development Goal Number 16 that 
deals with good governance, recognizing that a country's 
efforts to root out corruption very much affect the human 
rights and quality of life of people that live in that country. 
I want to get your view as to what role the United States can 
play in not only supporting the sustainable development goals, 
but making sure that the indexes that are used for success are 
actually utilized, and that we galvanize the international 
community to support the efforts made at the United Nations to 
deal with these humanitarian issues.
    Ambassador Thomas-Greenfield. Good. Thank you, Senator, and 
the U.N. plays a key role in the promotion of the sustainable 
goals. But the United States' role is even more important, and 
particularly as it relates to good governance, which is Goal 
Number 16, as you noted. Our voice is the most important voice, 
and I will tell you that over the past 4 years, the U.S. 
presence, our leadership, and our voice has been missed on 
these key issues of good governance. So this is something that 
I intend to focus a great deal of attention on.
    Among the many priorities at the United Nations is to look 
to how we can make the United Nations more effective in how 
they address the goals, how they report on their achievements, 
but also making sure that they actually accomplish what the 
international community expects as it relates to the 
sustainable goals.
    Senator Cardin.  You have heard already some of our 
colleagues comment in regards to Iran. Iran is an extremely 
dangerous country. We have found a very embarrassing vote in 
the Security Council in regards to the ballistic missile issue. 
What strategy will you use to engage our traditional allies and 
to work with China and Russia in order to isolate Iran to make 
sure that they never become a nuclear weapon state?
    Ambassador Thomas-Greenfield. President Biden has made very 
clear, both during the campaign and you heard it from Secretary 
Blinken here when he testified last week, that we will work and 
make every effort to ensure that the Iranians do not gain 
access to a nuclear weapon. Unfortunately, over the past 4 
years, we have seen a tremendous amount of backtracking since 
we pulled out of the agreement. And we will be working with our 
allies and friends, but we also have to work with other members 
of the Security Council to ensure that we hold Iran 
accountable. As the ambassador to the United Nations, if I am 
confirmed, I will work across all of those areas to ensure that 
we get the support of our allies, but to see where we can find 
common ground with the Russians and the Chinese to put more 
pressure on the Iranians to push them back into strict 
compliance.
    Senator Cardin.  Thank you. And, again, thank you for your 
willingness to serve our country, and thank you for your 
family's understanding. Thank you, Mr. Chairman.
    Senator Rubio.  Thank you. Senator Johnson?
    Senator Johnson.  Thank you, Mr. Chairman. Madam 
Ambassador, welcome. Before I begin, I really do want to point 
out I think your personal history, your 35-year career, I think 
serves as an extraordinary example for every American. I really 
want to commend you on that, and I appreciate that. And I was 
kind of hoping I would not have to ask a question on the 
Confucius Institute speech, but I think I have to. In my 
briefing materials, I heard one of your explanations was that 
the speech was prepared by a staffer and you didn't really 
review it carefully, and it is only an 8-page speech double-
spaced. Is that an accurate----
    Ambassador Thomas-Greenfield. That is not accurate, sir.
    Senator Johnson.  Okay. So----
    Ambassador Thomas-Greenfield. I generally write all of my 
own speeches since I left the State Department. I love the fact 
of having others write my speeches, but after I left the State 
Department, I did not have a speech writer. I did ask the 
support staff to provide me with some research with numbers, 
with statistics, but I write my own speeches. So I do not know 
where that came from.
    Senator Johnson.  Okay. Good. Well, that actually--I 
appreciate that.
    Ambassador Thomas-Greenfield. Mm-hmm.
    Senator Johnson.  Obviously, there are things I do not 
agree with in that speech, but there is an awful lot that I do 
agree with, you know. We have ignored it, and because of our 
vacuum of investment, other people come in. But one phrase in 
here, you say, ``We are not in a new cold war.'' I think all of 
our eyes have been opened up. We hoped China would have taken a 
better path and been a benign force, you know, been a friendly 
competitor as opposed to the malign force they are. What do you 
think the situation is between China and the United States 
right now if we are not in a cold war, because it----
    Ambassador Thomas-Greenfield. Now, this----
    Senator Johnson  [continuing]. Based on their threats in 
Hong Kong, Taiwan, it is looking pretty threatening.
    Ambassador Thomas-Greenfield  [continuing]. China is a 
strategic adversary, and their actions threaten our security. 
They threaten our values and they threaten our way of life, and 
they are threat to their neighbors and they are a threat across 
the globe, so I have no doubts in my mind about that. As I talk 
about that in the speech and referring to the cold war, again, 
I am referring to Africa where Africa was sort of a pawn in the 
Cold War. And I want--my conversation there was to say that 
Africans can no longer allow themselves to be a pawn, that this 
is not a cold war for them. They have to undertake their own--
of their futures. So my intent was not to refer to the U.S. and 
China, but to Africa's relationship with the U.S. and China.
    Senator Johnson.  I do appreciate your quoting the African 
proverb, ``When two elephants fight, it is the grass that 
suffers.'' I agree with that. In your written testimony, you 
were talking about how President Biden believes--considering 
every diplomatic tool in the toolkit, including bringing 
stronger language and tougher tactics to the table. It is easy 
to say. In a very complex world, a little bit more difficult to 
follow that. Can you describe what kind of stronger language 
and tougher tactics we bring the table? Let's start with China.
    Ambassador Thomas-Greenfield. Mm-hmm.
    Senator Johnson.  You know, keeping in mind the fact that 
when we have drawn bright red lines in the past and then done 
nothing when those lines are crossed, it is pretty dangerous. 
So you got ``strong language.'' Can you describe what the 
stronger language and tougher tactics would be toward, for 
example, China?
    Ambassador Thomas-Greenfield. Thank you for that question, 
Senator. The tougher language will be calling the Chinese out 
whenever we see them crossing lines, particularly as it relates 
to their aggressive tactics both here in the United States and 
across the globe, not giving them a pass, but making sure that 
the U.S. voice is heard clearly on this--on any issue where we 
have concerns about the Chinese. It also may mean that we have 
to use other instruments that we have, including the 
possibility of sanctions, including the possibility of flexing 
our muscles. None of us want to encourage or support a 
conflict, and that is not the intent here. The intent here is 
to encourage the Chinese to change their behavior.
    Senator Johnson.  There was an interesting op-ed written in 
Wall Street Journal this morning--I was doing a quick call; I 
do not have it in front of me--talking about what we need to do 
collectively with Taiwan and the U.S. to develop a defensive 
posture to deter China from further aggression or potentially 
invasion of Taiwan. I do not expect you have read that, but 
what is your viewpoint in terms of what our position needs to 
be in terms of defense of Taiwan?
    Ambassador Thomas-Greenfield. Now, Taiwan is one of the 
strongest democracies in the region, and we need to support 
them as a democracy and stand by them as a democracy, and 
provide them the security that they need to push against any 
efforts by the Chinese to compromise their security.
    Senator Johnson.  Does that include weapons sales and a 
more advanced posture in terms of our own defensive 
capabilities?
    Ambassador Thomas-Greenfield. You know, I have to leave 
that to the powers who make those kinds of decisions, but my 
guess is, yes. That would include providing them with the 
wherewithal to also support their own security.
    Senator Johnson.  Okay. Again, thank you for your 
willingness to serve in this capacity.
    Ambassador Thomas-Greenfield. Thank you, sir.
    Senator Rubio.  Senator Shaheen?
    Senator Shaheen.  Thank you, Mister Chairman, and, 
Ambassador, thank you for being here this morning, and, more 
importantly, thank you for your willingness to be considered 
for this critical nomination at this very important time in the 
world.
    You and I had the opportunity to speak a few weeks ago, 
which I very much appreciated, and one of the issues we talked 
about was the importance of empowering women as being a value 
that we should support in our foreign policy. And one of those 
aspects of empowering women has to do with women's health and 
ensuring that women have access to a full range of healthcare. 
If confirmed, you will oversee the seat that the U.S. Mission 
to the U.N. has on the executive board of UNFPA. As you know, 
that organization serves as the world's principal multilateral 
provider of family planning and reproductive health services, 
and the largest global provider of maternal healthcare and 
humanitarian emergencies. But despite this, the previous 
administration used unfounded claims to deny U.S. funding for 
UNFPA. If you are confirmed, will you commit to working with 
the Office of Management and Budget to expeditiously release 
the funding Congress appropriated in December for Fiscal Year 
2021?
    Ambassador Thomas-Greenfield. Absolutely, Senator.
    Senator Shaheen.  Thank you. And as you think about this 
position, will you also commit to working to restore American 
leadership in addressing values around empowering women and 
helping to ensure that women have access to a full range of 
reproductive health services that they need if they are going 
to play a significant role in--to advance their education, 
participate in the economy, support their families and 
communities? All of that is related to women's healthcare.
    Ambassador Thomas-Greenfield. Senator, I can commit to you 
that I will be a leader on this issue in New York. It is an 
issue that is personally a priority for me, and I will look 
forward to working with you to advance our goals in this area.
    Senator Shaheen.  Thank you very much. You talked in your 
opening statement of a resurging Russia, and one of the things 
we are seeing right now is mass demonstrations, some of the 
largest we have seen in recent years. And, of course, Russia 
has jailed Alexei Navalny upon his return to the country. 
Russia, of course, is--any time the United States makes a 
statement about what is happening there with respect to 
demonstrations, and attacking demonstrators, and repressing 
democratic activities, they accuse the United States of being 
behind those activities. As you think about this issue in your 
role at the U.N., how do you counterbalance that? How do you 
build the support that we need there to respond to what Russia 
is doing when they are attacking the U.S. for being behind what 
is going on in the country?
    Ambassador Thomas-Greenfield. That is the diplomacy of the 
United Nations. I heard yesterday on the news as I was 
preparing that President Biden spoke to Vladimir Putin 
yesterday and that it was a very tough conversation. It is 
clear to us that Russian actions against the U.S. have been 
aggressive and they have been adversarial, and we do have to 
respond aggressively to their actions. At the same time, we 
have to find a way to work with them in the Security Council on 
issues where we have common interest. I will look forward to 
working with them on issues to, for example, address the 
situation in Iran, but I will not hesitate in my engagements 
with them to also press them on tough issues, such as their 
interference in our election, such as their cyberattacks 
against the United States, and their own human rights 
violations against their own people, including what happened to 
Navalny.
    Senator Shaheen.  Well, thank you. I also was very pleased 
to hear that that was a tough conversation and that President 
Biden took him on in terms of election interference, the 
disinformation, the cyber hacking of our government agencies, 
the bounties that they have put on our troops in Afghanistan, 
and a whole range of other aggressive activities, and I hope 
that that will be a way that we will continue to move forward. 
As you point out, there are areas where we should work 
together. I think the New START Treaty is one of those. But we 
need to take them on when they act aggressively towards the 
United States, and it is refreshing to have a President who is 
going to do that. Thank you very much.
    Ambassador Thomas-Greenfield. Thank you, Senator.
    Senator Rubio.  Senator Romney. Is he on virtual?
    Senator Romney.  I am here. Can you see me, Mr. Chairman?
    Senator Rubio.  We can hear you.
    Senator Romney.  Well, good. That is the best part anyway.
    Senator Rubio.  There you go.
    Senator Romney.  Let me first--there we go. Let me begin by 
saying thank you to the ambassador for her service to our 
country over many years, and for her willingness and the 
willingness of her family to support her in this new endeavor 
to represent our Nation to the world. I was planning on 
spending some time talking about China and questioning matters 
that have already been discussed in some depth, and I do 
believe that, Ambassador, your comments with regards to your 
perspective on China itself and its intent is very consistent 
with the views of most of the members on this committee, and 
appreciate what you have described.
    Let me ask a derivative question, which is, how has China's 
investment strategy in Africa worked out? How has it worked out 
for the African nations? And I know there are many nations, and 
you will have various experiences from different nations. But 
as you look one by one, has it worked out well, one, for the 
nations themselves, and, number two, for China? Has it--has it 
fulfilled the purpose that they may have intended in making 
those investments?
    Ambassador Thomas-Greenfield. Senator, thank you for that 
question. And the answer to that is that it has not worked for 
Africans, and it has not worked in the same way that the 
Chinese would have expected it to work. I have seen over the 35 
years of my career an increased amount of activity by the 
Chinese. But where they have failed, and we constantly see 
reports that indicate this, is that Africans still prefer, if 
at all possible, to work with the United States. And we need to 
take advantage of that sentiment and be more proactive in our 
engagements on the African continent.
    When they have a choice, they choose us. Right now, 
unfortunately, they don't always have a choice about where they 
go, so they are in deep debt to the Chinese for many of the 
projects that the Chinese have provided. They have to deal with 
their own citizens who are uncomfortable about the presence of 
the Chinese. As I travel to--through Africa, I hear it on a 
regular basis. As Chinese are bringing their own workers, they 
are not engaging with the population, and some of the work that 
they are doing is substandard and they have to deal with that, 
including having the futures of their children in debt.
    So I--if I am confirmed, one of the areas that I intend to 
work very aggressively on is engaging with my colleagues across 
the African continent and trying to address some of the issues 
that they are facing in dealing with the Chinese, but also 
pushing a more proactive engagement by the United States with 
Africa.
    Senator Romney.  Thank you, Ambassador. I would note that I 
asked the question about the experience of Africa in part 
because of your extensive involvement there. But I would note 
that China is making the same effort or a similar effort in 
Latin America, in the Caribbean, particularly in the Pacific. I 
spoke recently with an individual who was on a flight to Tonga, 
and he said that there were three westerners on the flight, and 
the rest of the flight was filled with Chinese who were going 
to various projects in Tonga. So this is an issue which is--
which is worldwide in scope. And, of course, we have a 
challenge in that China is making an investment not to get a 
return on investment financially, but to get a return on 
investment economically, geopolitically, militarily. And they, 
therefore, have a very different calculation than we do on how 
we compete with that, I think it is a question that you and the 
administration are going to want to consider.
    In the brief time I have, I would note that I know there is 
great interest to reverse many of the policies of the Trump 
administration, but I would hope that in looking at Iran, that 
before you jettison the maximum pressure campaign that 
President Trump put in place, that you consider just what the 
circumstances are in Iran today. I do not know what they are, 
but I would hope that we would look very carefully with our 
intelligence agencies to determine what the state of the health 
of the leaders of Iran is, the people of Iran. What do they 
feel about the leadership? How open are they to a change in the 
posture of the nation for nuclearization? What is the level of 
their economic activity? How much are they hurting? Because I 
would hate to give them a lifeline just at a point when they 
might be willing to take a different course, because, 
obviously, if we go back to the structure of the JCPOA, the 
timeline for them becoming nuclear is basically expiring and 
they could become nuclear.
    So I would hope that you and other members of the 
administration take a very careful look before we abandon the 
course that we are on and perhaps as you set a new course. 
Thank you, Ambassador. I know my time is up, and I appreciate 
the chance to have spoken with you again today.
    Ambassador Thomas-Greenfield. Thank you, Senator.
    Senator Rubio.  Senator Coons?
    Senator Coons.  Thank you, Senator Rubio, and thank you to 
the chair and ranking member. Thank you, Ambassador Thomas-
Greenfield, for your willingness to continue your distinguished 
service to our Nation. I am so excited for the opportunity to 
work with you in the years ahead and to continue in the areas 
in which we have been able to partner in the past.
    Let me just ask up front since you will be taking the helm, 
I hope, of our U.S. mission in New York after 4 years of an 
administration that largely rejected multilateralism. Do you 
think our owing the United Nations over $1 billion in arrears 
helps us to establish American leadership, helps us to engage 
in all the different U.N.-related entities or institutions, or 
does that hurt us in some ways in achieving our values and 
securities objectives through the United Nations system?
    Ambassador Thomas-Greenfield. Senator, thank you so much 
for that question. Working to address these issues will be one 
of my highest priorities in New York if I am confirmed. Not 
paying our bills really does diminish our power, and it 
diminishes our leadership. We need to pay our bills to have a 
seat at the table, and our leadership is needed at the table. 
We know that when we cede our leadership, others jump in very 
quickly to fill the void, and we need to make sure that we are 
there to push back on those who would have malign intentions at 
the United Nations so that----
    Senator Coons.  And, Ambassador, if I--if I might--forgive 
me. We have very little time.
    Ambassador Thomas-Greenfield. Yes.
    Senator Coons.  I have got 3 more minutes.
    Ambassador Thomas-Greenfield. Yes.
    Senator Coons.  Ambassador, if I might, I was encouraged to 
hear in your opening statement your commitment to reform and 
transparency. A lot of U.N. funding is dedicated to 
peacekeeping. We have both visited with and seen peacekeeping 
missions from Liberia to Sudan across the continent and around 
the world. Some of them have been incredibly essential and well 
run. Some of them have been profoundly flawed. I look forward, 
as a member of the Appropriations Subcommittee that funds our 
work around the world, to working with you on that reform.
    I am concerned about a spike in violence in Darfur and 
Sudan seeming to head in the wrong direction after UNAMID, the 
peacekeeping mission, was drawn down. Is that also a topic of 
concern to you? Could you briefly speak to the path forward in 
peacekeeping?
    Ambassador Thomas-Greenfield. It is absolutely a concern 
for us. The U.N.'s responsibility is to provide protection, and 
hopefully the new U.N. force presence will help to address the 
issues in Darfur, but it is something that I will be looking 
very closely at.
    Senator Coons.  Senator Romney mentioned, and I couldn't 
agree more, that the United States and China are engaged in a 
significant strategic competition, not just across the 
continent of Africa, but across the entire developing world. 
And as you said, we have both sat with African leaders. My 
first such conversation was, in fact, in Liberia where they 
have expressed a desire to work with the United States, but we 
are not offering the financing, the terms, the engagement that 
China is. I worked hard to get the Development Finance 
Corporation stood up and authorized. It has finished its first 
year of operation. Do you view the DFC as a powerful new tool 
that allows the United States to deliver private sector 
financing with U.S. Government partnership in the developing 
world that can compete with the debt trap diplomacy China is 
offering by offering financing on more transparent terms that 
are more sustainable, and that better respect the decision 
making priorities of our developing nation partners?
    Ambassador Thomas-Greenfield. Senator, the simple answer to 
that question is absolutely, and I thank you profusely for 
pushing forward the DFC. I think it is going to be 
transformative on the continent of Africa and across the globe, 
and we will see the impact in the future.
    Senator Coons.  Today is World Holocaust Remembrance Day. 
One of my pressing concerns at the United Nation has been the 
isolation of Israel and the ways in which Israel has been 
singled out and often, I think, mistreated at the United 
Nations. That has led some to advocate our withdrawal from U.N. 
entities and fora. You have said when we are not at the table, 
others rush in. I think that is correct, and we should re-
engage. Do you think there is a way we can deepen relations 
between Israel and the developing world that will take 
advantage of the opportunity we have for Israel's unique public 
health and development skills to bridge some of those divides 
at the United Nations?
    Ambassador Thomas-Greenfield. I will look forward to 
working with the Israelis and trying to develop a strategy with 
them for engaging with countries that would appreciate having 
Israel's expertise to support their own development efforts. I 
am hopeful that those countries who have recognized Israel 
under the Abraham Accord will also see some opportunities to be 
more cooperative in--at the United Nations and more supportive 
of Israel's presence there.
    Senator Coons.  As you have referenced, China is 
aggressive, not just diplomatically and not just economically, 
but also directly at the United Nations. Chinese nationals now 
lead 4 of the 15 U.N. specialized agencies. They have made a 
strategic investment, a coordinated effort to influence global 
governance. Nowhere is this more important than in intellectual 
property. China missed 3G and 4G. They have no intention of 
missing 5G. The last administration's fights around Huawei and 
ZTE, I thought, were appropriate, and their pressure on China 
for its IP theft and its mercantilism I supported. I disagreed 
with some of their tactics, but the broader strategy I thought 
was important. And the Patent and Trademark Office director, 
Andrew Janco, mobilized our allies to ensure a Chinese national 
did not get chosen to lead the World Intellectual Property 
Organization.
    Our contest with China, which is a strategic adversary, as 
you correctly perceive them to be, includes fights over IP in 
standard setting boards. Do you intend to raise this as an 
issue within the Biden administration to advocate for an 
assertive, a muscular, and an engaged USIP diplomacy as well?
    Ambassador Thomas-Greenfield. Absolutely, and across the 
board for the United Nations. I will be fighting to ensure that 
either Americans or like-minded allies are--hold those 
significant positions.
    Senator Coons.  Well, thank you for your thoughtful and 
candid responses and for your long service to our Nation. I 
hope our committee and the Senate will promptly confirm you and 
look forward to working together.
    Ambassador Thomas-Greenfield. Thank you, sir.
    Senator Coons.  Thank you, Mr. Chairman.
    Senator Rubio.  Senator Barrasso is not online, right? 
Senator Portman, are you on?
    [No response.]
    Senator Rubio.  Senator Young, virtual?
    [No response.]
    Senator Rubio.  All right. Well, then we will move on. 
Senator Murphy is here. Senator Murphy? Go ahead, Senator 
Murphy. Your mic on, yeah?
    Senator Murphy.  All right. Thank you, Mr. Chairman. Thank 
you very much, Ambassador, for your years of service and your 
willingness to step up and serve again in this role.
    I wanted to first talk about the situation today in Yemen. 
Secretary Blinken last week committed to ending U.S. support 
for the military campaign led by Saudi Arabia and Yemen. But in 
2015, the Security Council passed a resolution, which 
essentially at the time endorsed all of the Saudis' demands at 
the onset of their intervention, and it really has constrained 
our ability to negotiate an end to the war. That resolution 
seeks the return of President Hadi. I think everybody who knows 
anything about this conflict understands that there will have 
to be some transition away from President Hadi in order to gain 
a peace deal. It demands that the Houthis withdraw from all the 
areas that they have seized, and it really only recognizes two 
parties to the conflict. In other words, it ignores the role of 
Saudi Arabia, UAE, and Iran.
    These are all pretty outdated and unrealistic demands. And 
so my question is, will you commit to seeking an updated 
Security Council resolution to replace this one, 2216? And what 
steps are you contemplating to try to work through the U.N. to 
bring an end to this conflict as soon as possible?
    Ambassador Thomas-Greenfield. Thank you, sir. And let me 
just start by saying that the situation in Yemen is horrific. 
It is one of the worst humanitarian crisis that we are facing 
right now, and so we need to aggressively move forward to 
address finding a solution, a negotiated solution, to this 
situation. Yemen is being used by both the Saudis and the 
Iranians who have contributed to the war, and so I think it is 
incumbent on us in New York, if I am confirmed there, to 
address this issue at the Security Council.
    Senator Murphy.  And, again, I would specifically request 
that you review the existing resolution.
    Ambassador Thomas-Greenfield. I absolutely----
    Senator Murphy.  It is unworkable, I think, on its present 
terms. I want to stay in the region and ask you a specific 
question with respect to humanitarian access in Syria. In 2020, 
the U.N. Security Council failed to reauthorize U.N. agencies' 
continued usage of three of the four border crossings. The 
final border crossing is essentially up for expiration this 
year. So I just want to ask whether you will work towards the 
immediate reauthorization of the crossings that we lost in 2020 
and work to reassure that we continue to have access to the 
remaining crossing. With this sort of limited ability to get 
relief into Syria, you can imagine the crisis that already 
exists getting substantially horrifically worse.
    Ambassador Thomas-Greenfield. Senator, thank you for 
raising that. And you may not be aware because we talk so much 
about my career in Africa, I spent more than half of my career 
working on humanitarian affairs. And I will commit to ensuring 
that we find a way to open up those avenues so that 
humanitarian assistance can get to the most needy people in 
Syria.
    Senator Murphy.  And lastly, let me turn to the World 
Health Organization. When we talk about the WHO up here, we 
tend to always lead with the same phrase or a version of it--
``The WHO is in need of reform. It has to change, but,''--and 
then we fill in the blanks of all the wonderful things the WHO 
has done. I would suggest that we flip that presumption. The 
WHO is a miracle. It has eliminated smallpox. It has saved 
millions of lives through the vaccination of poor people all 
across the world. It is a forum through which adversaries and 
enemies can come together and talk about shared public health 
challenges. Yes, it is no different than any other 
international organization in that it does not often work as 
effectively as we would like, but there is no way for the 
United States to help rebuild an international anti-pandemic 
infrastructure without the WHO. And while we should certainly 
talk about reform, we should also celebrate the unique 
capabilities that the WHO provides us. And I imagine you share 
at least part of my analysis, and you believe that there is no 
way for U.S. to stop the next pandemic without being an active 
participant in the WHO.
    Ambassador Thomas-Greenfield. I absolutely agree with you. 
I know that you are aware that the President did rejoin WHO, or 
stopped our exit from WHO, because we realize how important a 
role that organization plays around the globe.
    Senator Murphy.  Thank you. Thank you very much, Mr. 
Chairman.
    The Chairman. [Presiding.] Thank you, Senator Murphy. 
Unfortunately, human nature is such that people remember your 
gaffes, no matter how much good that you have done. I have 
talked with the Dr. Tedros and his group at length, and they 
acknowledge things that are--were different with the pandemic 
than, like you say, miraculous things that they have done as 
far as smallpox, polio, and AIDS are concerned. And certainly 
the bill that you and I have introduced to try to do the 
reforms that are needed, I think will be helpful in that 
regard, and we will go back to being--talking about their 
miraculous work. So with that, let us turn--Senator Barrasso, 
are you with us virtually?
    [No response.]
    The Chairman.  Apparently not. We will turn to Senator 
Portman, who I am told is with us virtually. Senator Portman, 
are you there?
    Senator Portman.  I am, Mr. Chairman, thank you, and, 
Ambassador Thomas-Greenfield, I enjoyed our conversation. I 
appreciate your answers to questions today. You and I talked 
quite a bit about your speech at the Confucius Institute. As I 
told you, we have done a lot of work on Confucius Institutes 
here in the Senate, and we have now forwarded to you our 
report, which I hope you will take a look at, at least the 
executive summary, to get a sense of what the Confucius 
Institutes have been up to around the country. And you talked 
in that speech about their work in Africa. I know this is 
something that has been discussed already at the hearing. I 
won't go into great detail. But I think one of the things that 
is important to talk about is not just their increased 
diplomatic presence there, but increased exports of things like 
the mass surveillance and technology exports to the African 
continent that are being used in China to persecute ethnic and 
religious minorities, including the Uyghurs. So I would hope 
that the conversations today would lead you to be an even more 
forceful advocate for our interests in pushing back against 
what China is doing not, just on the Africa continent you know 
well, but other democracies across the world.
    Let me just ask you the question. Do you believe that the 
Chinese investment and engagement in Africa is in the best 
interests of the African nations?
    Ambassador Thomas-Greenfield. Senator, not always, but as I 
have said earlier, the needs are extraordinary in Africa, and 
we need to work with the Africans to ensure that there are 
other avenues, other sources for them to get the things that 
they require.
    Senator Portman.  And you and I talked about including in 
that, improving our diplomatic presence in the region as well 
as other parts of the world, Latin America and parts of--parts 
of Asia where there is a fierce competition right now, not just 
for exports, but for influence that, you know, is ultimately 
the competition between the great power as to what political 
systems work best. We believe in democracy. Do you have 
thoughts on that?
    Ambassador Thomas-Greenfield. I do, and it is not just 
Africa. I apologize that I have a tendency to focus just on 
Africa, but I know that this is a much bigger--much, much 
bigger job. We really need to ramp up, and I spoke about this 
in the article that Bill Burns and I did for Foreign Affairs, 
that we have to ramp up our efforts. We have to improve our own 
diplomatic presence to ensure that we have people on the ground 
who can counter China all over the world. And it's going to 
require working with Secretary Blinken, working with this 
committee, working with funders to ensure that the State 
Department gets the resources that it needs so that it can be 
more aggressive in its response to China's aggressive actions 
across the globe.
    Senator Portman.  You know, in your role at the United 
Nations, should you be confirmed, there will be lots of 
opportunities to take on the issues related to the great 
powers--China, Russia--and, you know, their efforts in the U.N. 
to try to promote their interests. There will also be a lot of 
pressure on you with regard to Israel. And Israel, as the 
strong ally of the United States in the Middle East and sole 
democracy in that region, you know, is something that here in 
the Senate we have strong views on. The Abraham Accords, I 
believe, were a historic achievement and can help transform the 
Middle East into a new era of prosperity and peace. Yet the 
U.N. General Assembly found time in 2020 to condemn Israel 17 
times compared, by the way, with six condemnations for the rest 
of the world in its entirety.
    So I wonder if you could talk a little about your 
commitment to defending Israel from some of these 
condemnations, and also talk about the BDS issues you and I 
discussed, the Boycott Divestment and Sanction issues, where 
there is a double standard being applied often. How would you 
use your position to advance the progress that was made in the 
Abraham Accords and to support and strengthen Israel's 
position?
    Ambassador Thomas-Greenfield. Senator, thank you again. You 
know, I see the Abraham Accords as offering us an opportunity 
to work in a different way with the countries who have 
recognized Israel, and, again, as I mentioned earlier, we need 
to push those countries to change their approach at the United 
Nations. If they are going to recognize Israel and the Abraham 
Accords, they need to recognize Israel's rights at the United 
Nations, and I will use my perch, if I am confirmed as the U.N. 
ambassador, to push them on this effort. I intend to work 
closely with the Israeli ambassador, with my colleagues across 
the globe, because this is not just an issue at--in New York, 
but also pushing our colleagues to address these issues with 
their countries bilaterally so that we can get a better 
recognition of Israel in New York.
    Senator Portman.  Well, thank you. How about BDS in 
particular? What are your views on----
    Ambassador Thomas-Greenfield. On BDS, exactly. We did talk 
a bit about that yesterday. I find the actions and the approach 
that BDS has taken toward Israel unacceptable. It verges on 
anti-Semitism, and it is important that they not be allowed to 
have a voice at the United Nations, and I intend to work very 
strongly against that.
    Senator Portman.  Senator Booker and I have a bill 
regarding normalization of relations with Israel. Basically, it 
would require the State Department to include in their annual 
report not just human rights abuses, but also examples of Arab 
Government efforts to undermine people-to-people engagement 
with Israel. And our notion is to try to spread this Abraham 
Accord dialogue beyond the countries that have signed up into a 
broader normalization of relations. That is something you can 
be very helpful with at the United Nations. Would you be 
supportive of that?
    Ambassador Thomas-Greenfield. I will.
    Senator Portman.  Great.
    The Chairman.  Thank you, Senator Portman.
    Senator Portman.  Good luck to you, and I assume that after 
the hearing today, you will be successful on the floor, and I 
look forward to working with you.
    Ambassador Thomas-Greenfield. Thank you, sir.
    The Chairman.  Thank you, Senator Portman. Senator Kaine?
    Senator Kaine.  Thank you, Mr. Chair. And, Madam 
Ambassador, I am going to say something I have never said to a 
nominee for any position. I tried your recipe this weekend and 
I really liked it. The Ambassador was interviewed about her 
gumbo recipe, which she has used in diplomatic circles, and she 
said, I don't have a recipe, but here is how I do it. That led 
to an article in the food section of the Richmond Times-
Dispatch last Thursday, and my wife and I tried it this 
weekend. And I am so glad it is good because we made such an 
enormous quantity of it, that we are going to be eating it for 
the next month. I have never said that before at a hearing. I 
thought I would start there.
    Ambassador Thomas-Greenfield. It freezes--it freezes well.
    Senator Kaine.  It does freeze very well. Senator Coons 
mentioned today's International Holocaust Remembrance Day, 
which was pursuant to a U.N. resolution in 2007-2008 to educate 
about the Holocaust, to condemn Holocaust denial, and also to, 
hopefully through education, forestall future holocausts. Pope 
Francis gave a--kind of an impromptu talk earlier today saying 
we would fool ourselves if we thought the Holocaust is only a 
rearview mirror issue. There are conditions in the world that 
could lead to it today or in the future. And I wanted to just 
ask about one of your earlier answers.
    Senator Rubio asked you the question about whether you 
viewed the persecution of the Uyghurs as genocide, and you are 
right to be careful about words because you are a diplomat. We 
sometimes on this side of the aisle are not so careful, and you 
said the designation of the Trump administration of the 
genocide is being reviewed by the State Department to determine 
whether it meets the criteria that we use for assigning that 
term. However, I wanted to make sure that the--your reticence 
about that was just we want to go through the process and not a 
reticence about the evidence. I mean, I think the evidence is 
overwhelming that the Chinese Government is undertaking this 
massive campaign of surveillance, imprisoning people in re-
education camps, separating children from their families, 
forced sterilizations. And they are doing that in a way that 
seems intentionally designed, or would reasonably likely, is 
going to have the effect of trying to destroy this Turkic 
cultural identity or Muslim religious identity. So your 
reticence on that answer was not about a disagreement about 
this evidence, correct? It is just about making sure that we 
follow the process to do such a designation. Am I right about 
that?
    Ambassador Thomas-Greenfield. Absolutely, sir. What is 
happening with the Uyghurs is horrendous, and we have to 
recognize it for what it is. I lived through an experience and 
witnessed a genocide in Rwanda, so I know what it looks like 
and I know what it feels like, and this feels like that. We 
just have to call it for what it is.
    Senator Kaine.  Thank you very much for that answer. I 
appreciate it. The issue of the U.S. participation in the 
various U.N. organizations is something that I am interested 
in. Obviously, the Trump administration withdrew from the World 
Health Organization, the U.N. Human Rights Council, cut funding 
to the U.N. Population Fund, U.N. Relief and Works Agency for 
Palestinian refugees, and withdrew from the Global Compact for 
Migration and also UNESCO. I tend to believe that these 
institutions, though painfully annoying, often they work better 
for the U.S. and for the world if the U.S. is there rather than 
if we are not.
    And I had a conversation with the U.N. High Commissioner on 
Human Rights in Geneva in March 2019, and she pointed out to me 
the Commission itself is often completely vexing and especially 
on this anti-Israel bias that they have. But she says the 
effect of the U.S. pulling away is it gets worse, and other 
issues that the U.S. puts on the radar screen, like LGBT 
equality, which would not have been on the human rights radar 
screen in the U.N. but for the U.S., they then become sort of 
non-issues when we are not around. So how do we kind of address 
the reality of these institutions that are often annoying and 
we do not like what they do, but they get worse if the U.S. 
isn't there? And how do you, you know, balance that as you--
should you be confirmed as U.N. ambassador?
    Ambassador Thomas-Greenfield. First and foremost, we need 
to be there. President Biden has indicated that we will run to 
rejoin the Human Rights Council in Geneva because we know, 
again, when we are at the table, there are fewer resolutions 
against Israel. We can push back on human rights violators who 
want to be legitimized by sitting at the table. We can 
encourage our allies who are like-minded to join the Human 
Rights Commission, and we can support their elections, and we 
can work from inside to make the organization better. If we are 
on the outside, we have no voice, and that goes across the 
board, whether it is UNESCO, whether it's funding to UNRRA, 
whether it is how we deal with the WHO. We need to be at the 
table to ensure that the reforms that are important that 
support our values are addressed, and we push back on those who 
might not support our values.
    Senator Kaine.  Great. Thank you. Thank you, Mr. Chair.
    The Chairman.  Thank you. We are going to go a little out 
of order because some of the members have other things going 
on. So, Senator Cruz, if you would be kind enough to take this 
time.
    Senator Cruz.  Thank you, Mr. Chairman. Ms. Thomas-
Greenfield, congratulations. Welcome. I for a long time have 
believed that the single greatest geopolitical threat facing 
the United States is China, and the communist government in 
China is a profoundly malign influence. I am also growing 
increasingly concerned over the last 2 weeks by a pattern among 
Biden administration nominees of consistently moving towards 
and embracing the Chinese Communist Party. That pattern became 
even worse this morning in an article that broke in the 
Washington Post that described a speech you gave just a little 
over a year ago, in October of 2019, to a Confucius Institute.
    Confucius Institutes are paid for by the Chinese communist 
government. We have had repeated problems of espionage and 
propaganda. That is why the Chinese communist government funds 
Confucius Institutes. Congress has passed bipartisan 
legislation cracking down on Confucius Institutes, legislation 
I authored that passed Congress with overwhelming bipartisan 
support. At the same time that the United States Congress and 
the United States Government is acting to combat the spying, 
the espionage, the propaganda coming from Confucius Institutes 
run and controlled by the Chinese communist government, 
according to the Washington Post, you were apparently going to 
a Confucius Institute giving a paid speech and praising China. 
How do you reconcile those two?
    Ambassador Thomas-Greenfield. Senator, thank you for asking 
that question again, and I have addressed some of these issues 
earlier on in this hearing. I went to Savannah State University 
at the request of Savannah State, a historically black college 
that I have had a long-term relationship with, to give a speech 
on Africa, and the U.S. and China policy toward Africa. I got a 
$1,500 honorarium from the university for spending several days 
engaging with their students, talking to their students about 
careers in the Foreign Service, talking about issues related to 
Africa.
    I expressed to this committee early on my strong and, 
frankly, it was unacceptable, what I saw in terms of what the 
Confucius Institute was doing in Georgia. I saw them engaging 
in poor black communities with the poorest of people. It is the 
same thing that I have seen in Africa, and I was appalled by 
it. And I have expressed my strong regret for having given that 
particular speech at Savannah University, and if I had it to do 
all over again, I would not have accepted.
    I have spoken about China for 35 years of my career working 
across the continent. In 2005, I raised the concern about the 
Chinese sending back North Korean defectors to certain death. I 
have raised concerns about how the Chinese engage in Africa and 
how their malign influences and their efforts have undermined 
the prosperity of the--of the African people. And I see what 
they are doing at the United Nations as undermining our values, 
undermining what we believe in. They are undermining our 
security, they are undermining our people, and we need to work 
against that.
    So I appreciate you raising that for me again, and I want 
to say in no uncertain terms that I look forward to working 
with this body to address these issues. You have taken some 
incredible steps, such as--and seeing some of the reports that 
this body has taken related to China, and I support all of 
those steps. And I will be working aggressively against Chinese 
malign efforts in New York.
    Senator Cruz.  So you have said you were horrified by 
seeing firsthand what the Confucius Institute was doing. Did 
you keep the money?
    Ambassador Thomas-Greenfield. I can tell you what I did 
with the money. I give a tremendous amount of my very meager 
resources to humanitarian efforts, and----
    Senator Cruz.  So you did keep the money, though.
    Ambassador Thomas-Greenfield. I did. I did.
    Senator Cruz.  You did not give it back.
    Ambassador Thomas-Greenfield.  I did not give it back. It 
was not from the Confucius Institute. It was from Savannah 
State University.
    Senator Cruz.  You also described--you said you have spoken 
out against China's abusive practices. Perhaps you have 
elsewhere, but I can tell you I am holding the speech you gave 
at the Confucius Institute, and I cannot find a single word of 
criticism in this speech. This speech is cheerleading for the 
Chinese Communist Party. You praised the Belt and Road 
Initiative. You praised their entrapping developing countries 
in debt bondage, and you say the United States should follow 
China's model. Is it the role of America's U.N. ambassador to 
be cheering on the Chinese Communist Party at the expense of 
the developing world and at the expense of America?
    Ambassador Thomas-Greenfield. Senator, it was not my 
intention, nor do I think that I cheered on the Chinese 
Communist Party. What I recommended in that speech is that 
Africans need to open their eyes on how they deal with the 
Chinese, and I would like to see the United States Government 
do more in Africa to compete with----
    Senator Cruz.  My final question. Did you have even a word 
of criticism about the Chinese Communist Party about its 
murders, about its tortures, about its concentration camps, 
about its genocide? Did you have even a word of criticism in 
the speech you gave at the Confucius Institute?
    Ambassador Thomas-Greenfield. I spoke about human rights 
there. That is the speech, but you don't see my other 
engagements with students who ask questions that I answered, 
frankly. And I do not ignore human rights. I talked about the 
fact that Africans like our values.
    Senator Cruz.  But in the speech, did you address human 
rights?
    Ambassador Thomas-Greenfield. I did say human rights is 
referred to as something that we promote in the United States--
--
    Senator Cruz.  What did you say about human rights?
    Ambassador Thomas-Greenfield [continuing]. Are things that 
are our values.
    Senator Cruz.  What did you say?
    Ambassador Thomas-Greenfield. I mean, in my discussions 
with Africans.
    Senator Cruz.  But the speech did not have it----
    Ambassador Thomas-Greenfield. But I appreciate what you are 
saying. I am not denying this. As I said, I regret this. You 
know, this is one speech in my 35-year career, and I do regret 
that speech. But if you had looked at what I have done prior to 
that, there is no question that I understand. I am not at all 
naive about what the Chinese are doing, and I have called them 
out on a regular basis, including today.
    Senator Cruz.  Thank you.
    The Chairman.  Thank you, Senator Cruz. Next, I have 
Senator Markey on my list. Is Senator Markey with us?
    Senator Markey.  Yeah, I am right here, Mr. Chairman. Yes, 
thank you. Thank you, Mr. Chairman. My question--my first 
question goes to the Trump administration's attitudes about 
climate change and how China and other countries, as a result, 
were able to lower their own gaze in terms of the constellation 
of possibilities to be able to deal with the climate crisis and 
the consequent refugee crisis. So in order to really lead here, 
the United States has to step up. The United States is going to 
have to be dealing with this climate crisis and with the 
partnership ultimately we need with China and other countries, 
but China and the United States, of course, are going to have 
to be leading because of the refugee crisis that has been 
created and will only intensify in the years ahead. Could you 
speak to that issue of the refugee crisis and the role you 
believe the United States ambassador to the United Nations 
should be playing and highlighting and leading on that issue?
    Ambassador Thomas-Greenfield. Senator, I mentioned earlier 
before you came on that I spent more than half of my career 
working on refugee and humanitarian issues. And I do intend for 
that to be one of my many priorities at the United Nations, 
raising concerns about how we respond, and how we support, and 
how we provide protection and solution for refugees. And 
sometimes we tend to think of refugees as having been produced 
by war and conflict, but there are many refugees who are being 
produced as a consequence of climatic changes in their 
countries. We are seeing the Sahara Desert move rapidly 
southward. [Audio malfunction], and I intend, if I am confirmed 
as the ambassador, to work very, very closely with other 
members of the Security Council and at the General Assembly to 
raise this issue and how we might find solutions.
    Senator Markey.  Yeah, and General Gordon Sullivan, the 
Army Joint Chiefs of Staff, general, testified before me in 
2007, and he was in charge at the time of the incidents in 
Somalia. He testified that it was a drought that led to a 
famine that then led to battles between different groups over 
more scarce resources, and he saw obviously what was happening. 
And it led to Black Hawk Down to--that he felt responsible for, 
but he could see more clearly in retrospect that it was 
definitely climate related and a national security issue. So I 
thank you for that.
    In terms of--in terms of the COVID-19 vaccine, America's 
health is global health, and global health is the health of the 
United States. We are all interrelated on this issue. What role 
do you believe the United States should be playing in ensuring 
that there is an equitable distribution of the COVID-19 
vaccines to countries regardless of wealth?
    Ambassador Thomas-Greenfield. Thank you again, Senator. I 
mean, we are dealing with a pandemic. This means that it is a 
global situation, and so it has to be addressed in a global 
way. And I know that President Biden has made the decision that 
we will join the COVAX group and support efforts to provide the 
vaccine across the globe. We cannot close ourselves off from 
the world, and so if the world is still dealing with this 
pandemic, we have to support them.
    Senator Markey.  Okay. Thank you. And under President 
Trump's watch, North Korea's nuclear weapons and ballistic 
missile programs grew. Can you give us your view in terms of 
how you would re-engage with our U.S. allies, how you would 
ensure that there is more pressure put on China and Russia so 
that we ensure that North Korea returns to its nuclear non-
proliferation obligations?
    Ambassador Thomas-Greenfield. We certainly have to re-
engage with our allies. Again, this is not something we can do 
alone, and this is, I think, one of the biggest failings of the 
Trump administration is that they did try to go it alone, and 
our allies were left kind of holding the bag. So re-engaging 
with South Korea and with Japan, as well as with China and 
Russia particularly to push for their respect of the sanctions 
regime in--against North Korea, is going to be really 
important. And the locus for those discussions will be in New 
York at the United Nations, in addition at more high-level 
engagements by the President and the Secretary of State.
    Senator Markey.  Thank you. And I would like to just turn 
quickly, if I can, to Ethiopia and this battle that has now 
broken out between the Government and the Liberation Front. It 
is causing widespread displacement of people inside of Ethiopia 
and thousands of refugees pouring into neighboring Sudan. The 
U.N. High Commissioner on Human Rights has raised concerns 
about reports of mass atrocities on the ground. Can you speak 
to that issue on what role you believe that the United States 
and the U.N. should be playing in order to resolve this 
conflict peacefully?
    Ambassador Thomas-Greenfield. The situation in Ethiopia, 
Senator, has me very concerned. Three years ago, we were 
celebrating this country. We were celebrating their new 
president. We were celebrating the possibilities of their being 
able to move forward and build prosperity for their people, and 
now they are in the middle of a war against their own people. 
It is important that the United Nations take this situation on 
and look at how we can be responsive. The humanitarian 
situation is really worrisome, so we need to open up 
possibilities for humanitarian workers and organizations to get 
in to see what is happening in the Tigray region, and then we 
need to have, I think, a very frank and an open discussion with 
the president about what is happening--with the prime minister 
of Ethiopia about what is happening there, and insist that they 
take every measure to stop what they are doing, to stop the 
fighting, and bring the situation to a close. It is having a 
broad impact across the region.
    The Chairman.  Thank you.
    Senator Markey.  I think your background makes you the 
perfect person to make sure that the U.S. plays a role in 
making sure this does not spread further into the Horn of 
Africa. I think you will be a great representative for our 
country. Thank you.
    The Chairman.  Thank you, Senator Markey. We will turn to 
Senator Young.
    Senator Young.  Well, thank you, Mr. Chairman. Madam 
Ambassador, welcome to the committee. Chinese leadership of 
specialized agencies, its influence peddling to secure 
leadership positions, and its failure to abide by the basic 
codes of decency are all problems facing the United States now, 
today, within the United Nations system. If confirmed, how will 
you use the power of America's vote and voice on the Security 
Council to hold China accountable for its behavior within the 
United Nations and beyond?
    Ambassador Thomas-Greenfield. Senator, thank you for that 
question. And I see that as my highest priority, if I am 
confirmed, at the United Nations, and that is to push against 
Chinese influence in the Security Council. And it will mean 
working with our allies, and bringing them on board, and 
getting their support to push back against the Chinese, and, as 
I said earlier, calling them out every opportunity that we have 
on their efforts to have greater influence on the United 
Nations, and to bring a set of values to the United Nations 
that does not fit the organization that we all support.
    Senator Young.  So, let us tease that out. I am going to 
unpack that a little bit. So you will work with partners and 
allies to apply greater leverage. That makes some sense to me. 
How will you approach this differently than the previous 
administration? And you will note that the most recent 
ambassador to the United Nations was sanctioned by the Chinese 
Communist party because she was too forceful on these issues. 
So what will you do differently in this capacity than has been 
done by the previous administration?
    Ambassador Thomas-Greenfield. I commend Ambassador Craft 
for her extraordinary work in New York, and I have engaged with 
her, and look forward to continuing to engage with her, on what 
she was able to achieve effectively and follow through on her 
achievements. But I think one of the failings of the 
administration, and I do not think it was any fault of hers, 
was that we did not engage our partners. We did not bring our 
allies in with us. We did not have discussions with them. So we 
need to--if we are going to succeed, we have to do it hand in 
hand with like-minded countries. And I intend to aggressively 
and relentlessly pursue working with those who are like minded, 
ensure that they understand we are not ignoring them. We want 
them as partners, and we know that we can only succeed if we 
have their support.
    Senator Young.  So, Madam Ambassador, I would note that in 
the Obama administration, which preceded, of course, the Trump 
administration, we had the People's Republic of China ripping 
off our intellectual property, forcing technology transfer, 
engaging in human rights abuses, really the same litany of 
challenges we are still dealing with it. Did they, too, fail to 
make a--deepening and broadening our alliance system and 
leveraging that alliance system to bring China into a position 
of good behavior? Did they fail to make that a high priority?
    Ambassador Thomas-Greenfield. I know having served in the 
administration that fighting against China was a high priority 
of the Obama administration. The pivot to Asia was about 
addressing the situation with China, but how China is behaving 
now is very, very different than that period, and they have 
become more aggressive. And so we have to change our approach, 
and we have to make our approach more strategic, and that is--
that is our intention.
    Senator Young.  I think there was some conversation earlier 
in response to questions by my colleagues pertaining to the 
United Nations' budget and our dues. The United States remains 
the largest funder of the United Nations, correct?
    Ambassador Thomas-Greenfield. That is correct.
    Senator Young.  Okay. So we are going to maintain a lot of 
leverage just on account of that fact presumably. Would you 
agree with that?
    Ambassador Thomas-Greenfield. I do agree with that, but we 
also have to pay our dues if our influence is going to 
continue.
    Senator Young.  So you do not--you do not think that dues 
can also be one of these instruments that would give U.S. 
greater leverage within the institution?
    Ambassador Thomas-Greenfield. I do. I do believe that dues 
are important, and I believe that we need to pay our dues so 
that we can continue to exert our influence.
    Senator Young.  Okay. But should those dues be tied to 
results or behavior of, you know, those within the U.N. system 
at all? I am just trying to get clarity on your position.
    Ambassador Thomas-Greenfield. Yeah, we really do have to 
demand reforms in the U.N. system. We have to work within that 
system to ensure that those reforms are on the table and that 
we are pushing those reforms forward. We have to encourage the 
U.N. to be more efficient and more effective. We have to push 
for whistleblower protections for those who will provide the 
needed----
    Senator Young.  I think I am out of time, respectfully, 
Madam Ambassador. I regret I am out of time. It sounds to me 
like there is some strategic ambiguity, which I think is smart. 
So it sounds like you may be willing to use dues as a tool to 
bring some members of the U.N., the U.N. system, into a 
position of better behavior and fulfilling their mission, which 
is kind of what the previous administration attempted to do. 
Thank you.
    The Chairman.  Thank you, Senator Young.
    Ambassador Thomas-Greenfield. Thank you.
    The Chairman.  Senator Merkley, are you with us virtually?
    Senator Merkley.  I am indeed.
    The Chairman.  The floor is yours.
    Senator Merkley.  Greetings, Madam Ambassador, and thank 
you for your testimony today. I wanted to start by asking about 
the Security Council itself. At the same time that China and 
Russia often stymie action in the Security Council, the 
Security Council is increasingly representative of the 
geopolitical landscape with key powers like India, Germany, and 
Japan, not included as permanent members. How do you approach 
the question of the Security Council? How do you consider that 
perhaps it needs to be reformed? How do you believe it can be 
made more effective and functional?
    Ambassador Thomas-Greenfield. You know, I think there is 
general agreement across the board that reforms are needed on 
the Security Council. What those reforms will be and how they 
will be implemented, I think, remains to be decided, but, you 
know, changing the number of members that happened. We moved 
from 11 to 15 some years ago, and there are efforts to push for 
more permanent members, and those discussions are ongoing.
    Senator Merkley.  Do you think India, Germany, and Japan 
should be members?
    Ambassador Thomas-Greenfield. You know, I think there has 
been some discussions about them being members of the Security 
Council, and there are some strong arguments for that. But I 
also know that there are others who disagree within their 
regions that they should be representative of their--of their 
region. That, too, is an ongoing discussion.
    Senator Merkley.  Ambassador, President Biden has said that 
he is going to hold a summit for democracy, which I love that 
he plans to do this, and I think he is planning to hold it 
after COVID is in--under control in a way that enables key 
leaders around the world to come to the United States. Is this 
something you will be deeply involved in helping to plan, and 
what do you see as the ways that that summit can really 
highlight the power of democratic republics working together 
around the world to address issues?
    Ambassador Thomas-Greenfield. Senator, thank you. That is 
something I truly support. What we have seen happen over the 
past few years is some decrease and diminishment in democracies 
around the world, and we need to boost those democracies up. 
They need to see the United States as a strong democracy that 
they have all wanted to emulate. And I think this summit that 
the President is planning to host will be an opportunity for us 
to highlight our successes, highlight and talk about some of 
our failings, and how we have addressed those to ensure that 
our country continues to thrive.
    Senator Merkley.  Do you think there are any particular 
issues that should be major themes at that gathering? Should it 
be consideration of the challenges of forced labor refugees, 
LGBT rights, and genocide? What would be your priorities for 
that discussion?
    Ambassador Thomas-Greenfield. I have not had a discussion 
with the President on exactly the areas that he wants to focus 
on. I do think that we need to focus on transparent elections 
and fair elections across the world. We need to talk about how 
to engage opposition, and we do need to talk about human 
rights, press freedoms, and all of those values that are 
important to a democracy.
    Senator Merkley.  Ambassador, perhaps the most important 
issue facing the world is to prevent our planet from being 
destroyed by climate chaos, and the United Nations is a place 
where a lot of discussions can take place and a lot of planning 
to tackle that. Do you see that as a major role for the United 
Nations and for your leadership representing America there?
    Ambassador Thomas-Greenfield. I do, sir, and I look forward 
to working with Secretary Kerry, who is the President's special 
envoy for climate. That says how--what a high-priority this is 
for the administration, and my work in the U.N., if I am 
confirmed, will be to support his efforts.
    Senator Merkley.  Well, thank you because I was going to 
ask you how you saw that kind of relative responsibility. I 
picture the two of you working very closely together to help 
tackle this. I appreciated the President's pledge to aim at a 
100-percent clean energy economy, net zero emissions by 2050. I 
think that is the right goal for humanity if we are going to 
stop the steady advance of calamities that are stemming from 
the warming planet. Certainly I see those in my home State, but 
we see them on an international scale, and including the impact 
on the availability of food, the disasters involving seashore, 
greater storms, more powerful storms, forest fires, et cetera.
    So are any of those particular issues, like the impact on 
refugees, ones that are sort of highest on the list for the 
U.N. to address, or can the U.N. actually take on issues like 
ending the subsidies for fossil fuel development around the 
world?
    Ambassador Thomas-Greenfield. The U.N. has focused very 
steadily on issues related to the environment and climate. As 
you know, the Secretary General has determined that this is one 
of his goals. In the month of February, the U.K. Government is 
chairing the Security Council, and climate is one of the issues 
that they have on their agenda. And I will tell you that the 
President and Secretary Kerry intend to host the--a climate 
conference, probably as soon as--as soon as April. So this will 
be something that we will focus on at the United Nations, but 
it is also something we will focus around the globe on.
    The Chairman.  Thank you, Senator Merkley.
    Senator Merkley.  Are we out of time?
    The Chairman.  We are.
    Senator Merkley.  Thank you very much, Ambassador.
    Ambassador Thomas-Greenfield. Thank you.
    The Chairman.  Thank you, Senator Merkley. Senator Booker, 
thank you for your usual patience. The floor is yours.
    Senator Booker.  I appreciate that, Chairman, and so good 
to see you here today.
    Ambassador Thomas-Greenfield. Thank you.
    Senator Booker.  I watched the whole hearing on my 
television in my office and was really appreciative of the 
generous spirit on both sides of the aisle and the substance of 
the questions. I did hear one colleague, though, refer to the 
Biden administration's nominees as embracing China, I think was 
that--that was the exact wording, and I found that just 
patently unfair and untrue. And then I heard one speech being 
taken in a way that was patently offensive to me at a moment 
that we just had a siege on the Capitol. And I would actually 
say that of all the members here, of this committee, there is 
not one that does not have something in a speech in their past 
that they regret doing, as this person has said, especially at 
a time that we see people whipped up to storm our Capitol and 
the perpetuation of baseless lies that an election that was won 
by 7 million votes was a fraud.
    And so I am particularly galled that, in the spirit of 
bipartisanship, which we usually have, that you were treated 
like you were recently about one speech that you had already 
thoroughly explained to numerous members, and the generosity of 
some of my friends on the other aisle was pointed to very 
clearly. You were invited to give a speech by an HBCU. Some of 
my colleagues might not know this. I have buckets of 
invitations for speeches where I get speech invitations that I 
prioritize. If you are a New Jersey university, you got me. If 
you are one of my alma maters, you got me. But when I get a 
call from an HBCU, as I would imagine for the nominee, you know 
the sacred importance of HBCUs. You know that they are the 
number one producer in America of black generals, number one 
producer in America of black doctors, number one producer in 
America of black professors, Ph.D.s, and so forth. In fact, if 
there is a hope for this country ever to reach equality in all 
the ranks of all the professions, would you agree with me that 
the HBCUs are still that hope?
    Ambassador Thomas-Greenfield. Without a doubt, Senator. 
Thank you very much.
    Senator Booker.  Yes, and as a person who is the--has two 
generations before me going to HBCUs, the fact that you 
accepted an invitation from a black college to give a speech, 
to me, shows that you have the right priority list, because I 
will tell you this: our State Department ranks are woefully 
lacking in African Americans. When I travel the globe and visit 
embassies, they are woefully lacking. We are now at a period 
where we have a black Vice President, first woman as well, 
first woman Treasurer. You are one of the generations of women 
that are breaking down barriers and showing the way for women 
and African Americans. I imagine your commitment to continue to 
do that is the same, yes?
    Ambassador Thomas-Greenfield. Absolutely.
    Senator Booker.  Now, the other thing that just galled me a 
little bit was the fact that Senator Menendez, my senior 
senator, who is a friend and mentor to me, read a whole list 
through your research, Senator Menendez, of examples for, I 
think, 10 to 20 years of you being a canary in the coal mine 
making warnings about China, China's activities in Africa. And 
so to Senator Menendez, who I rarely ever tell him what to do, 
so I will ask him, could you introduce that litany into the 
record in a formal way so that it is there forever?
    Senator Menendez.  I would be happy to.
    Senator Booker.  Thank you very much.


    [The information referred to is located at the end of this 
hearing transcript.]


    Senator Booker.  So I just want you to know I am 
celebrating that you are sitting before me right now because I 
know the challenges we still have in this country. And I 
watched after George Floyd was savagely murdered, how it was 
not just all 50 states of America that came out and protested, 
but we saw other nations, right, at least a dozen other 
countries because they know that the United States of America, 
if we can make our values true here, there is hope for the 
world. Would you agree with that?
    Ambassador Thomas-Greenfield. Yes, sir.
    Senator Booker.  So I have 30 seconds left, and I apologize 
for using all my time, but I just want you to know for my 
ancestors and for communities of color all around the world who 
wonder if this Nation will ever achieve itself, will ever get 
to a point where we can be a country where we celebrate the 
richness of our diversity, not just in words, but in positions 
of leadership where we achieve our potential as past 
generations saw when they brought hidden figures out of the 
shadows and sat them together with NASA astronauts and 
literally defied gravity, you today, sitting in that seat, are 
a reason to rejoice, and your record is unapproachable in your 
patriotism to this country under Democratic and Republican 
administrations. I thank you, I celebrate you, and I will 
submit my questions for the record in hopes that you will give 
me that response. I yield to you, Mr. Chairman.
    The Chairman.  Thank you. Thank you, Senator Booker.
    Ambassador Thomas-Greenfield. Thank you, Senator.
    The Chairman.  Senator Menendez?
    Senator Menendez.  Well, thank you, Mr. Chairman. I am 
always loathe to go after my junior Senator because his oratory 
flies high and has great substance to it, and I echo everything 
he had to say. I just want to very briefly, Ambassador. You 
know after 45, 46 years of public service, I have seen how 
people can read into whatever they want to read into. But I 
look at that same speech that has been questioned by our 
colleague, particularly Senator Cruz, in a way that suggests 
that it is nefarious. It seems to me what you were saying in 
that speech about a win-win situation, you were playing a 
little jiu-jitsu, challenging China to promote values, such as 
good governance, gender equity, and the rule of law. Am I 
confused?
    Ambassador Thomas-Greenfield. No, sir. That is exactly my--
that was exactly my intention.
    Senator Menendez.  And it seemed to me a challenge to them 
when you say, well, why can't China share in those values? That 
is a challenge to China. And when you criticized Chinese 
predatory lending, which you have for years, but you also rang 
the alarm bell if we do not show up, as predatory as their 
lending may be and you are in dire need, guess what will 
happen? And so it is a wake-up call. You have been--you have 
been sounding the alarm for--on this particular element for 
over a decade, saying, hey, if we do not show up, the rest of 
the world does not show up, China shows up, guess what is going 
to happen? Is that a fair statement?
    Ambassador Thomas-Greenfield. That is, sir.
    Senator Menendez.  And so finally, when you were the 
director general, I was the chairman at the time, did I not 
press you very hard for diversity in the State Department?
    Ambassador Thomas-Greenfield. I still have bruises, sir.
    [Laughter.]
    Ambassador Thomas-Greenfield. You did press me hard, and I 
took you seriously, and it is still a commitment that I have, 
even though I left the director general's job.
    Senator Menendez.  And I--and I would hope you would show 
that diversity at the U.N. upon confirmation, but that was the 
main reason you went to Savannah State University for which you 
had a relationship, right?
    Ambassador Thomas-Greenfield. Yes.
    Senator Menendez.  And it was to Savannah State University 
that invited you to speak. Is it not the case?
    Ambassador Thomas-Greenfield. Yes.
    Senator Menendez.  And as a matter of fact, it was Savannah 
State University that provided you the small honorarium. Is it 
not the case?
    Ambassador Thomas-Greenfield. Yes, sir.
    Senator Menendez.  And is it not true that Savannah State 
University closed its Confucius Institute last year?
    Ambassador Thomas-Greenfield. It did.
    Senator Menendez.  I think that is a great record. Let me 
ask, Mr. Chairman, I ask unanimous consent to enter enormous 
numbers of letters of support for the nominee into the hearing 
record, and due to COVID precautions, we will email the letters 
to the committee's clerk.
    The Chairman.  They will be entered.


    [The information referred to is located at the end of this 
hearing transcript.]


    Senator Menendez.  Thank you, Mr. Chairman.
    The Chairman.  Thank you, Senator Menendez. Well, thank you 
so much for your patience being with us today. Certainly been 
an interesting hearing, and I look forward to working with you 
over the years to come. And, again, thank you for your 
willingness to serve and your family's willingness to sacrifice 
with you.
    Before closing, I would like to ask unanimous consent that 
all responses to my pre-hearing questions be added to the 
record.


    [The information referred to is located at the end of this 
hearing transcript.]


    The Chairman.  For the information of the members, the 
record will remain open until the close of business tomorrow, 
Thursday, January 28th, at 5:00 p.m., including for members to 
submit questions for the record. We would strongly urge you to 
respond to those as rapidly as you can, Madam Ambassador.
    The Chairman.  And with that, the committee is adjourned.

    [Whereupon, at 12:12 p.m. the hearing was adjourned.]


                              ----------                              



              Additional Material Submitted for the Record


       Responses to Additional Questions for the Record Submitted
       to Hon. Linda Thomas-Greenfield by Senator James E. Risch

    Question. What is your view of the relationship between the United 
States and the United Nations (U.N.)?

    Answer. The United States has and should continue to build a strong 
and deep relationship with the United Nations, the foundational 
institution of the multilateral system. We are members of many of the 
U.N.'s most important bodies, including the U.N. Security Council, the 
U.N. General Assembly, the Economic and Social Council, and have 
historically also been a member of the Human Rights Council. We are the 
largest contributor of assessed funds, and we provide hundreds of 
millions of dollars in voluntary contributions. We are a founding 
member. Since the U.N.'s inception, we have been both one of its 
strongest champions and strongest critics. If confirmed, I hope to 
position the United States as a close partner to the U.N. who is 
committed to reform, so the U.N. can most effectively and efficiently 
address the range of 21st century challenges.

    Question. U.S.-assessed and voluntary contributions to the U.N., as 
appropriated under the Contributions to International Organizations 
(CIO), Contributions for International Peacekeeping Operations (CIPA), 
and International Organizations and Program (IO&P) accounts, represent 
only a small fraction of total U.S. contributions to the U.N. system. 
If confirmed, will you assist in compiling and sharing with Congress a 
comprehensive report on total U.S. contributions, from all sources, to 
the U.N. and its specialized agencies and programs?

    Answer. If confirmed, I will support the efforts of the State 
Department's Bureau of International Organization Affairs to meet its 
statutory responsibility to publish annual reports to Congress on all 
U.S. Government contributions to international organizations.

    Question. Will you ensure that other donors remain apprised of the 
full depth and breadth of U.S. contributions from all sources?

    Answer. Yes, if confirmed, I will work to ensure that other donors 
remain apprised of the full depth and breadth of U.S. Government 
contributions from all sources.

    Question. Whereas assessed contributions are determined on a scale 
and provide no discretion to nations, voluntary contributions are 
provided to advance specific U.S. goals and objectives. Moreover, 
voluntarily funded agencies, including the World Food Programme (WFP) 
and the U.N. Children's Fund (UNICEF), must compete for resources and 
are subject to rigorous transparency and accountability measures. If 
confirmed, will you seek to ensure that the Secretary General adopts a 
rigorous performance matrix, transparency requirements, and 
accountability measures that apply across the U.N. system, including to 
agencies and programs funded through assessed contributions?

    Answer. If confirmed, I will work to achieve a coordinated, 
government-wide effort to assess the performance of, and promote 
transparency and accountability at, international organizations in the 
U.N. system, including those funded through assessed contributions.

    Question. Last Congress, I introduced the Multilateral Aid Review 
Act to assess the value of U.S. taxpayer investments in multilateral 
entities, including the U.N. and its affiliated agencies. If confirmed, 
would you support a comprehensive review of U.S. investments in 
multilateral organizations?

    Answer. If confirmed, I look forward to reviewing this issue 
closely and working with Congress to ensure effective oversight of the 
U.N. and its affiliated agencies. I am committed to ensuring prudent 
management of U.S. taxpayer investments in multilateral entities.

    Question. There have been efforts to have the United States rejoin 
the World Tourism Organization. If confirmed, would you support the re-
entry of the United States to the World Tourism Organization? What 
benefits would the United States receive by re-joining this 
organization?

    Answer. If confirmed, I will ensure careful consultation, 
consideration, and review before any efforts are made to rejoin the 
World Tourism Organization.

    Question. How will you address accusations that the U.N. and 
western donor countries compel developing countries, particularly in 
Africa, to liberalize their abortion laws as a condition of receiving 
aid and ensure that the United States does not exert such pressure?

    Answer. I believe these accusations are not based on credible facts 
and ignore well-established legal frameworks, both international and 
domestic, which affirm national sovereignty. These false narratives 
divert our attention and resources from achieving our shared goals on 
sexual and reproductive health and rights, which include addressing the 
unmet need for family planning, improving outcomes for safe childbirth 
and delivery, preventing maternal mortality, and supporting survivors 
of rape.

    Question. Members of the U.N. Security Council have consistently 
failed to enforce Security Council resolutions, including serial 
violations of the sanctions regimes on Iran and North Korea. If 
confirmed, how will you ensure the Security Council upholds its own 
standards?

    Answer. North Korea's nuclear, ballistic missile, and other 
proliferation-related activities constitute a serious threat to 
international peace and security and undermine the global 
nonproliferation regime. President Biden is committed to working with 
our allies and partners to counter Iran's destabilizing activities in 
the region, including its provision of weapons to armed groups and 
other violent proxies. Security Council Members are obliged--as are all 
member states--to implement fully the sanctions measures adopted by the 
Council. The United States has consistently upheld this position in the 
Council and will continue to work closely with partners to address 
implementation gaps and call out member states failing to uphold their 
obligations.

    Question. What are your views on the need for management reform at 
the U.N.?

   How will you work to address barriers to advancing U.N. management 
        reforms, especially those created by the different priorities 
        among member states?

   How will you measure success in implementing management reforms at 
        the U.N.?

   What policies does the U.N. need to implement to maintain fiscal 
        responsibility and accountability within the U.N. system?

    Answer. If confirmed, I will work to harness allies and likeminded 
member states who strongly support U.N. management reform to overcome 
any barriers that stand in the way of advancing reforms. It must be in 
the interests of all members to make implementation of this robust 
agenda and of these essential reforms a single priority in order to 
make the United Nations the effective, efficient, and responsive 
organization it needs to be in the 21st century.
    If confirmed, I will work to ensure that international 
organizations within the U.N. system are accountable and responsible 
for the U.S. taxpayer resources they receive. This includes continuing 
the longstanding U.S. policy of promoting budget discipline, as well as 
continuing efforts to ensure that other countries pay their fair share. 
I will also work to ensure international organizations in the U.N. 
system adhere to best management and oversight practices in the areas 
of protecting whistleblowers, addressing sexual exploitation and abuse, 
promoting zero tolerance for corruption, and ensuring financial and 
managerial transparency.

    Question. While the U.N. has taken steps to improve its efficiency, 
operational effectiveness, and accountability, the continuing need for 
reform is obvious to most observers, including strong supporters of the 
institution. The U.N. Secretary-General has committed to an agenda of 
reform. The push for reform by the United States is one of the main 
drivers behind the reform movement's progress to date. In your opinion, 
what are the top three reforms that the U.N. could undertake over the 
next two years that will have the greatest impact?

    Answer. If confirmed, I will work to advance reforms that will 
ensure the U.N. is more efficient and effective, including in its 
achievement of the goals U.N. member states have set for it. Across its 
75-year history, the U.N. has negotiated ends to wars, provided life-
saving humanitarian assistance, and established a global human rights 
regime. It has also, however, failed to live up to its founding ideals 
in the past, minimizing abuses committed by peacekeepers, tolerating 
instances of corruption, or silencing whistleblowers. The Biden-Harris 
administration will continue to hold the U.N. accountable to its 
mission and its member states. This means doing all we can to ensure 
the U.N. is using resources efficiently and effectively--eliminating 
waste, demanding zero tolerance for any corruption, strengthening 
whistleblower protections and transparency and accountability, and 
ensuring other countries pay their fair share. We will share 
information on a regular basis about where we see the U.N. making 
satisfactory progress in these areas and where additional efforts are 
needed. If confirmed, I will push for reforms that make the U.N. more 
efficient, effective, accountable, and fit for purpose, so that the 
institution remains the preeminent body committed to the maintenance of 
international peace and security.

    Question. The United States is the largest donor to the World Food 
Programme, the U.N. High Commissioner for Refugees, and other U.N. 
agencies. Will you continue this pattern of voluntary donations to 
address some of the world's most pressing issues?

    Answer. The U.S. role as the world's largest humanitarian donor has 
always been an important marker of our leadership and a reflection of 
the strong bipartisan commitment to our generosity and to leading with 
our values. If confirmed, I am committed to ensuring the United States 
continues to play this role and to work with Congress to ensure robust 
funding for the key international humanitarian organizations, including 
U.N. agencies.

    Question. The United States is not a party to the Rome Statute of 
the International Criminal Court (ICC), yet the Court has unfairly 
targeted the United States. The Trump administration took a harder line 
on U.S. involvement in the ICC after the Prosecutor opened an 
investigation into U.S. service members.

   Do you support the United States becoming a party to the Rome 
        Statue of the ICC?

   Under what circumstances should the United States cooperate with 
        the ICC?

    Answer. The United States shares the goals of the ICC in promoting 
accountability for atrocities. At the same time, the United States has 
always objected to any attempt by the ICC to investigate U.S. 
personnel. I understand that the ICC has recently undergone an 
independent review and that member states may be considering various 
reforms to help the court better achieve its core mission of punishing 
and deterring atrocity crimes. I think this is a worthwhile effort. If 
confirmed, my priority will be to protect U.S. personnel with respect 
to the ICC. There may be exceptional cases where we consider 
cooperating with the court as we sometimes have in the past. We will 
weigh the interests at stake on a case-by-case basis.

    Question. Do you believe that the ICC should be investigating 
alleged actions of U.S. service members and officials in Afghanistan? 
If yes, please explain.

    Answer. The United States shares the goals of the ICC in promoting 
accountability for atrocities. At the same time, the United States has 
always objected to any attempt by the ICC to investigate U.S. 
personnel. We are following the court's work on Afghanistan closely and 
will vigorously protect U.S. personnel.

    Question. Do you believe that the ICC has jurisdiction to 
investigate or bring to trial U.S. service members, officials, or other 
U.S. citizens? If yes, please explain.

    Answer. The United States shares the goals of the ICC in promoting 
accountability for atrocities. At the same time, the United States has 
always objected to any attempt by the ICC to investigate U.S. 
personnel. We are following the court's work on Afghanistan closely and 
will vigorously protect U.S. personnel.

    Question. Do you believe that the ICC should be investigating a 
case involving alleged Israeli actions in the Palestinian territories? 
If yes, please explain.

    Answer. We are following closely the court's work on the 
Palestinian situation. We will continue to uphold President Biden's 
strong commitment to Israel and its security, including opposing 
actions that seek to target Israel unfairly. The U.S. has always taken 
the position that the court's jurisdiction should be reserved for 
countries that consent to it, or that are referred by the U.N. Security 
Council. U.S. lawyers have often worked with Israeli lawyers to share 
expertise on the court and I anticipate that this will continue.

    Question. Do you believe that the ICC has jurisdiction to 
investigate or bring to trial Israeli service members, officials, or 
other Israeli citizens? If yes, please explain.

    Answer. The administration is following closely the court's work on 
the Palestinian situation. The U.S. has always taken the position that 
the court's jurisdiction should be reserved for countries that consent 
to it, or that are referred by the U.N. Security Council. We will 
continue to uphold President Biden's strong commitment to Israel and 
its security, including opposing actions that seek to target Israel 
unfairly.

    Question. Do you believe the ICC's reputation has been diminished 
by recent attempts to prosecute U.S. and Israeli nationals? If no, 
please explain.

    Answer. The United States shares the goals of the ICC in promoting 
accountability for atrocities. That said, the United States has always 
objected to any attempt by the ICC to investigate U.S. personnel. The 
administration is following the court's work on Afghanistan closely and 
will vigorously protect U.S. personnel from the ICC. We are also 
following the court's work on the Israeli/Palestinian situation. We 
understand that the ICC has recently undergone an independent review 
that truly underscored the need for change and that member states may 
be considering various reforms to help the court better achieve its 
core mission of punishing and deterring atrocity crimes. Our priority, 
though, will be to protect U.S. personnel.

    Question. Do you believe that an ICC prosecution of U.S. service 
members and public servants would deny those U.S. citizens fundamental 
due process protections to which all Americans are guaranteed under the 
U.S. Constitution, such as a right to trial by jury? If no, please 
explain.

    Answer. The United States shares the goals of the ICC in promoting 
accountability for atrocities. At the same time, the United States has 
always objected to any attempt by the ICC to investigate U.S. 
personnel. The administration is following the court's work on 
Afghanistan closely and will vigorously protect U.S. personnel.

    Question. Do you believe the United States has an obligation to 
protect U.S. citizens who have served or are currently serving in 
Afghanistan against criminal prosecution by the ICC? If yes, as 
Ambassador to the U.N., what specific actions would you take to ensure 
that U.S. service members, officials, and citizens are not subject to 
ICC prosecutions? If no, please explain.

    Answer. The United States shares the goals of the ICC in promoting 
accountability for atrocities. At the same time, the United States has 
always objected to any attempt by the ICC to investigate U.S. 
personnel. The administration is following the court's work on 
Afghanistan closely and if confirmed, I will work to vigorously protect 
U.S. personnel.

    Question. Beyond the ICC, what international accountability 
mechanisms do you support? Please provide examples of special courts or 
tribunals which have worked well as well as examples of special court 
or tribunals which did not work well.

    Answer. Since World War II, the United States has played a leading 
role in promoting accountability for atrocities. We have supported 
international, hybrid, and domestic criminal tribunals in the former 
Yugoslavia, Rwanda, Cambodia, the Central African Republic, Lebanon, 
Guatemala, Kosovo, and elsewhere. We have provided political and 
financial support for investigative mechanisms. And we have spoken 
clearly and forcefully, along with our allies, to hold abuses to 
account. If confirmed, I will ensure that we continue to promote the 
full range of appropriate, available, and effective accountability 
mechanism.

    Question. Do you support the United States reinstating its 
financial support for the U.N. Relief Works and Agency (UNRWA)? If so, 
what reforms would you recommend UNRWA undertake in order to regain 
support from the United States? If confirmed, will you commit to 
condition the resumption of U.S. assistance upon education reform 
within UNRWA, such as ensuring that textbooks have appropriate 
material, including but not limited to ending the practicing of 
labeling Israel as the ``enemy''?

    Answer. President Biden has pledged to restore U.S. economic and 
humanitarian aid to the Palestinians. UNRWA's Commissioner General has 
committed to notifying its Advisory Council immediately when violations 
of the zero-tolerance policy occur and to collaborating with Council 
members on a range of issues related to education. If confirmed, I will 
examine his commitments as part of larger discussions around potential 
resumption of U.S. funding.

    Question. As of submission of these questions, there are 
approximately 26 million refugees globally, including 5 million 
refugees under the responsibility of UNWRA. Additionally, the United 
Nations Office of the High Commissioner for Refugees (UNHCR) employed 
17,324 staff across 135 countries in 2020, and UNWRA employed 27,841.

   Why does UNWRA need 10,000 more staff than UNHCR to accomplish the 
        same goal?

    Answer. UNRWA's mandate is set by the U.N. General Assembly and is 
to provide essential services directly to Palestinian refugees in the 
five regions it covers. Unlike UNHCR, which delivers most services to 
refugees through sub-partners, UNRWA employees include schoolteachers 
and health care workers who provide the services directly to 
beneficiaries.

    Question. Do you believe that UNWRA should be absorbed by UNHCR, 
given UNHCR's efficiency and infrastructure?

    Answer. The U.N. General Assembly sets UNRWA's mandate, which is to 
provide essential services directly to Palestinian refugees in the five 
regions it covers. Unlike UNHCR, which works to deliver most services 
to refugees through sub-partners, UNRWA's employees include school 
teachers and health care workers who provide services directly to 
beneficiaries. UNHCR's mandate focuses on seeking durable solutions 
(such as resettlement, repatriation, and local integration) for 
Palestinian refugees, which cannot be adequately applied in the 
Palestinian context as these matters are final status issues to be 
negotiated directly between Israel and the Palestinians.

    Question. If confirmed, do you commit to work with the appropriate 
Congressional committees on any consultations for resumption of funds 
to UNRWA?

    Answer. I know Secretary Blinken is committed to working with and 
consulting Congress, including prior to the possible resumption of 
funding to UNRWA, a commitment which I share. If confirmed, I will 
ensure a close focus on management and other reform issues at UNRWA.

    Question. How do you plan to monitor the activities of the U.N. 
Population Fund (UNFPA) and ensure that it is not complicit in China's 
campaign of coercive abortion and sterilization of Uyghur women?

    Answer. If confirmed, I will continue the U.S. Government's due 
diligence as a member of UNFPA's executive board, including through the 
board's country program document review mechanism. The U.N. Population 
Fund (UNFPA) does not condone China's coercive population policies, nor 
does it operate in Xinjiang.

    Question. In 2018, the United States left the U.N. Human Rights 
Council.

   What is the position of the Biden administration regarding the U.N. 
        Human Rights Council?

    Answer. As Secretary Blinken stated in his Senate confirmation 
testimony, the Biden administration is committed to re-engaging with 
the Human Rights Council (HRC) and seeking reforms to the HRC, 
particularly with respect to the Council's membership selection process 
and its disproportionate focus on Israel. If confirmed, I will work 
with the administration to ensure the United States prioritizes needed 
reforms as part of our re-engagement with the HRC.

    Question. Will the Biden administration commit to pushing for 
reforms before rejoining the U.N. Human Rights Council? If so, please 
describe the reforms.

    Answer. If confirmed, I will ensure the United States prioritizes 
needed reforms as part of our re-engagement with the HRC. When we have 
had a seat at the table, we have been able to advocate on Israel's 
behalf, and we have seen changes like a reduction in the number of 
resolutions targeting Israel. We have also seen that when the United 
States plays an active and constructive role on the Council, we have 
been able to engage with our allies and friends to keep off some of the 
countries with the worst human rights records and to encourage 
countries with better records to run for seats. U.S. engagement at the 
Council can be a force for positive change and for calling countries 
with the worst human rights records to account.

    Question. Does the Biden administration believe the Council spends 
a disproportionate amount of attention on criticizing Israel?

    Answer. Yes. If confirmed, I will continue to uphold President 
Biden's strong commitment to Israel and oppose efforts to unfairly 
single out or delegitimize Israel through one-sided resolutions, 
reports, and other actions across the United Nations, including in the 
Human Rights Council.

    Question. Understanding that the Human Rights Council is ``broken'' 
because it allows human rights abusers to obtain seats on the council, 
do you believe that conditioning U.S. participation on reform is 
beneficial?

    Answer. States that persistently violate human rights do not belong 
on the U.N. Human Rights Council. I believe the best way for us to 
raise the quality of engagement with and membership on the Council is 
to engage in a principled fashion ourselves. The United States is most 
effective at the Human Rights Council and in other U.N. bodies when we 
are at the table, in the room, in good financial standing, and use the 
full weight of our diplomatic might to lead and to pursue appropriate 
and needed reforms. If confirmed, I will ensure the United States 
prioritizes needed reforms as part of our re-engagement with the HRC.

    Question. There have been credible allegations that the U.N. Office 
of the High Commissioner for Human Rights shared the names of Chinese 
dissidents who were attending U.N. Human Rights Council sessions with 
the Chinese Government.

   If confirmed, how will you investigate these allegations?

    Answer. President Biden has said he would defend the right of 
activists, political dissidents, and journalists around the world to 
speak their minds freely without fear of persecution and violence. If 
confirmed, I will ask relevant Department officials for a detailed 
understanding of this issue and will ensure U.S. Government personnel 
prioritize this matter in engagements with the Office of the High 
Commissioner for Human Rights.

    Question. What reforms will you seek to ensure that this practice 
is never again used?

    Answer. If confirmed, I will ask relevant Department officials for 
a detailed understanding of this issue and will ensure U.S. Government 
personnel prioritize this matter in engagements with the Office of the 
High Commissioner for Human Rights.

    Question. The United States is the single largest financial 
contributor to U.N. peacekeeping activities. Congress authorizes and 
appropriates U.S. contributions, and it has an ongoing interest in 
ensuring such funding is used as efficiently and effectively as 
possible.

   Do you believe that any nation, including the United States, should 
        pay more than 25 percent of the U.N. peacekeeping budget?

    Answer. The next negotiations among member states on U.N. 
assessment rates will take place later in 2021, and the Biden 
administration is already looking at strategies for engagement on this 
issue. If confirmed, my team and I will do everything we can to make 
sure that other countries pay their fair share.

    Question. What is your position on U.S. repayment of U.N. 
peacekeeping arrears? As memorialized in the 1999 Helms-Biden 
agreement, the Late Ambassador Holbrooke, then-President Clinton, then-
Secretary General Kofi Anan, and then-Senator Biden all believed that 
the United States has no obligation to pay, and thus should not pay, 
the roughly $500 million in ``contested arrears'' that were explicitly 
excluded from the $1.6 billion Helms-Biden agreement. However, since 
then, the U.N. has insisted upon keeping on its books, and the Obama 
administration sought to pay over Congressional objections. Do you 
commit not to pay these ``contested arrears'' per Congressional intent 
as outlined in the Helms-Biden agreement?

    Answer. If confirmed, I would welcome the opportunity to work with 
Congress to allow the United States to meet our financial obligations, 
including addressing the substantial level of arrears that have 
accumulated over the past four years and the 25-percent cap on 
peacekeeping funding.

    Question. Are there any specific steps you believe the U.N. should 
take to reduce the overall size of the U.N. peacekeeping budget? If so, 
what are they?

    Answer. If confirmed, I am committed to reviewing and assessing all 
existing peacekeeping missions to ensure they are still necessary for 
the promotion of international peace and security. For missions that 
remain necessary, I will work to ensure they are as effective and 
efficient as possible, while also ensuring they have the necessary 
resources to fully implement their mandates, including well-trained and 
well-equipped troops and police.

    Question. Are there any specific U.N. peacekeeping missions you 
would support reducing or terminating in order to reduce U.N. 
peacekeeping costs? If so, what active and ongoing missions do you 
believe should be reduced or terminated?

    Answer. U.N. peacekeeping operations are among the most effective 
mechanisms of burden sharing to address the global challenges to 
international peace and security, but reform is needed to make 
peacekeeping operations more effective at promoting sustainable 
political solutions to conflict. If confirmed, I will continue to 
evaluate missions with a view to making them as efficient and effective 
as possible, while providing them with the resources necessary to fully 
implement their mandates.

    Question. There have been numerous proposals to expand U.N. support 
for regional peacekeeping operations-particularly those deployed under 
the auspices of the African Union-ranging from providing limited 
logistical support to fully financing training, equipment, deployment, 
and sustainment costs through the use of assessed U.N. peacekeeping 
contributions. Whether regional missions would initially be subject to 
approval by the U.N. Security Council (like the AMISOM mission in 
Somalia was) is a topic of debate. However, using the U.N. as a 
financing mechanism for peacekeeping operations that do not fall under 
the command and control of the UN; lack adequate accountability 
measures; and place long-term political and financial obligations upon 
Member states absent Security Council oversight is a matter of serious 
concern. If confirmed, will you pledge to ensure that any peacekeeping 
mission funded by U.N. peacekeeping dollars is mandated and overseen by 
the Security Council?

    Answer. If confirmed, I will continue to communicate U.S. support 
for strengthening strategic AU-UN partnerships to better address 
collective peace and security threats on the continent; to confirm 
peace operations are compliant with applicable international human 
rights law and U.N. conduct and discipline standards; and to encourage 
regular AU reporting on the scope and resource implications of proposed 
peace support operations.

    Question. The United Nations maintains several particular bodies 
and departments that focus on the Palestinians. These include the 
Division on Palestinian Rights (DPR), the Committee on the Exercise of 
the Inalienable Rights of the Palestinian People (CEIRPP), and the 
United Nations Information System on the Question of Palestine 
(UNISPAL). Will you work to challenge the existence and funding of 
these departments?

    Answer. If confirmed, I will publicly and privately call on member 
states to oppose the perpetuation of these bodies. More generally, I 
will continue to uphold President Biden's strong commitment to Israel 
and its security, including at the U.N. This includes opposing efforts 
to unfairly single out or delegitimize Israel through one-sided 
resolutions, reports, and other actions across the United Nations.

    Question. The United States lacks a veto over membership decisions 
in U.N.-specialized agencies that the Palestinians could target for 
membership. When the Palestinians obtain membership, the United States 
must cut funding to that organization as required under two laws 
enacted by a Democratic-led Congress in the early 1990's. U.S. Code 
Title 22, Section 287e note, states:

        No funds authorized to be appropriated by this Act or any other 
        Act shall be available for the United Nations or any 
        specialized agency thereof which accords the Palestine 
        Liberation Organization the same standing as member states. 
        (Adopted as Public Law 101-246 in 1990.)
          The United States shall not make any voluntary or assessed 
        contribution: (1) to any affiliated organization of the United 
        Nations which grants full membership as a state to any 
        organization or group that does not have the internationally 
        recognized attributes of statehood, or (2) to the United 
        Nations, if the United Nations grants full membership as a 
        state in the United Nations to any organization or group that 
        does not have the internationally recognized attributes of 
        statehood, during any period in which such membership is 
        effective. (Adopted as Public Law 103-236 in 1994.)

    The language in these provisions is clear and provides no 
discretion or waiver authority. Will you support their enforcement as 
U.S. Ambassador to the United Nations?

    Answer. If confirmed, I will support implementing these provisions.

    Question. Over the past several years, the Palestinian Authority 
has received votes in various U.N. bodies to upgrade its status. Such 
attempts undermine the long-held belief that peace between Israel and 
the Palestinian Authority can only come about as a direct result of 
direct negotiations.

   What is your plan to stop initiatives like this from even coming 
        before U.N. entities, or the General Assembly, for a vote?

    Answer. As a matter of principle, there are no shortcuts to 
Palestinian statehood outside of direct negotiations between the 
parties. This includes counterproductive unilateral steps to gain 
membership in U.N. entities. If confirmed, I am committed to ensuring 
the United States works to avoid such actions.

    Question. How will you address future attempts by the Palestinian 
Authority to achieve statehood through the United Nations?

    Answer. As a matter of principle, there are no shortcuts to 
Palestinian statehood outside of direct negotiations between the 
parties. This includes counterproductive unilateral steps to gain 
membership in U.N. entities. If confirmed, I am committed to ensuring 
the United States works to avoid such actions.

    Question. The United States has long maintained a policy of 
opposing many one-sided Security Council resolutions that, more often 
than not, criticize Israel but fail to address other issues such as 
Palestinian terrorism.

   Do you support the use of an American veto to block one-sided anti-
        Israel resolutions in the Security Council?

    Answer. If confirmed, I will continue to uphold President Biden's 
strong commitment to Israel and its security. This includes opposing 
efforts to unfairly single out or delegitimize Israel through one-sided 
resolutions, reports, and other actions across the United Nations.

    Question. What do you believe should be the standard employed in 
deciding whether to veto or not?

    Answer. I believe each decision to employ a veto in the U.N. 
Security Council should be considered on the basis of U.S. policy 
interests and how they relate to the issue under consideration.

    Question. Do you believe that there is a disproportionate focus on 
Israel at the U.N.? How would you counter this at the U.N.?

    Answer. The U.N. must take steps to address its credibility deficit 
with regard to the unfair treatment and targeting of Israel. If 
confirmed, I will oppose efforts to unfairly single out or delegitimize 
Israel through one-sided resolutions, reports, and other actions across 
the United Nations. If confirmed, I also look forward to working with 
our Israeli diplomatic colleagues to promote the election of Israel to 
U.N. leadership posts, its inclusion in U.N. working groups, and the 
selection of qualified Israeli candidates for U.N. positions.

    Question. I introduced the STRATEGIC Act to advance a comprehensive 
U.S. policy for competition with China. The legislation authorizes the 
Office of United Nations Integrity, which the Trump administration 
established within the State Department's Bureau of International 
Organizations. If confirmed, would you support the sustainment of this 
office?

    Answer. The United States is in a position of strength when we are 
engaged and leading in international institutions, not pulling back and 
ceding the terrain to China to write the rules and norms that animate 
international institutions. If confirmed, I will use our re-engagement 
in the U.N. system to push back against the influence of China and 
others by promoting U.S. values and interests alongside our allies and 
partners. I understand the Department of State is currently reviewing 
policy and resources to ensure we are postured to meet these 
challenges. Once this review is completed, if confirmed, I look forward 
to working with Congress to ensure the implementation of an effective 
plan.

    Question. China has focused intensely on securing leadership roles 
in various U.N. agencies, particularly those overseeing technical 
standards that will shape the future. In many cases, these leaders have 
overtly advanced Chinese Communist Party goals instead of acting 
independently to advance the global good. The United States has had 
mixed success with elections for heads of international organizations 
in the past and is taking more robust and coordinated steps to advocate 
for qualified and independent candidates in U.N. bodies.

    Answer. If confirmed, what will be your strategy for engaging with 
diplomatic partners to support qualified and independent candidates to 
lead U.N. entities?

    Answer. The Biden-Harris administration believes in the 
independence and integrity of the U.N. and other international 
organizations, including highly specialized agencies, and agrees with 
the importance of electing qualified and independent candidates to lead 
such bodies. If confirmed, I will prioritize robust strategies to work 
with our allies and partners to secure the election of qualified, 
independent candidates that share our democratic values.

    Question. If confirmed, will you commit to continue to work with 
Congress on elections and election strategy within the Bureau of 
International Organizations?

    Answer. If confirmed, I commit to continue to work with Congress on 
a strategy regarding elections within the U.N. system, including 
elections for heads of independent international organizations.

    Question. The United States will assume the presidency of the 
Security Council in March 2021. If confirmed, what will be your biggest 
priority during the U.S. presidency?

    Answer. The UNSC remains the most important diplomatic and 
multilateral forum to advance U.S. objectives in maintaining 
international peace and security. Working in close concert with our 
partners, the United States leverages the convening power of the 
Security Council to address international crises and prevent conflict. 
I understand the Department has been in close touch with the UK 
regarding its February presidency with a view to aligning priorities 
for the U.S. presidency in March. If confirmed, I will immediately turn 
to planning for the UNSC presidency and the opportunity to highlight 
some of the Biden administration's top national security priorities, 
including but not limited to addressing the COVID-19 pandemic.

    Question. The World Health Organization (WHO), as the guardian of 
the International Health Regulations and as the clearinghouse of global 
health data and best practices, plays a key role in advancing global 
health security. Yet, its record for responding to emergencies is 
remarkably poor. Much like the sudden onset global health emergencies 
that preceded it, including the 2014-2016 Ebola outbreak in West Africa 
that you, in your former role at the Department of State helped combat, 
the WHO was either unwilling or unable to mount an effective emergency 
response to the COVID-19 outbreak in Wuhan, China. Not only did it fail 
to use its bully pulpit to press the Chinese Government for access and 
information during the critical first days of the outbreak, but the WHO 
provided political cover for China's reckless response; publicly 
validated disinformation; and condemned travel controls designed to 
mitigate the global spread. One year and 2 million lives later, the WHO 
still struggles to gain access to China to study the origins of the 
pandemic.

   Do you agree that the WHO is in need of reform?

   If so, what specific reforms are necessary to restore its 
        credibility among the American people and the world?

    Answer. In President Biden's January 20 letter to the WHO Director 
General, he conveyed the U.S. intent to be a constructive partner and 
work to strengthen and reform the organization. If confirmed, I am 
committed to supporting the Biden-Harris administration's goal of 
strengthening and reforming the WHO to ensure that it can deliver on 
its vital global mission. It will be a high priority to swiftly review 
and develop options for advancing priority reforms during the initial 
weeks of the administration. If confirmed, I will work closely with the 
other member states, including our allies in the G7 and the Americas, 
who have put forward specific reform proposals, to reform the 
organization.

    Question. Will you seek to build upon and advance the reform agenda 
put forward by the Trump administration, which had won the support of 
the G7 prior to the U.S. withdrawal? If not, why not?

    Answer. President Biden is committed to strengthening and reforming 
the World Health Organization to ensure that it can deliver on its 
vital global mission. It will be a high priority to swiftly review and 
develop options for advancing priority reforms during the initial weeks 
of the Biden-Harris administration. If confirmed, I will work closely 
with our interagency counterparts and partner countries, including the 
G7, to build support for priority reforms.

    Question. Will you seek to leverage U.S. contributions to the WHO 
to incentive reforms? If not, how will you secure necessary reforms?

    Answer. In President Biden's day one letter to the WHO Director 
General, he conveyed the U.S. intent to be a constructive partner and 
work to strengthen and reform the organization. If confirmed, I will 
work closely with the other member states, including our G7 allies and 
partners in the Americas, who have put forward specific proposals, to 
reform the organization. It will be a high priority to swiftly review 
and develop options for advancing priority reforms during the initial 
weeks of the Biden-Harris administration.

    Question. Should the WHO be given authority to enforce state 
obligations under the International Health Regulations-including for 
inspections and data transparency-or should enforcement be assigned 
elsewhere?

   What role, if any, should the U.N. Security Council play in 
        monitoring compliance with state obligations under the 
        International Health Regulations?

    Answer. Member state adherence to obligations under the 
International Health Regulations (IHR) is critically important, and the 
Biden administration will lead by example and urge other member states 
to improve their own adherence. The United States will also work with 
our partners to strengthen the IHR, including by exploring measures to 
promote greater State Party adherence and transparency.
    The United States will work with the U.N. Security Council and 
partners to strengthen multilateral public health and humanitarian 
cooperation on the COVID-19 response and a global health security 
architecture to prevent, detect, report, and respond to future 
biological threats.

    Question. If the Security Council is to play a role, what tools are 
available to hold permanent members of the Security Council accountable 
for their own failure(s) to comply?

    Answer. The United States will work with our partners to strengthen 
the International Health Regulations, including by exploring measures 
to promote greater State Party adherence and transparency.

    Question. The WHO's response to the 2014-2016 Ebola emergency in 
West Africa was so poor that it necessitated the creation of the U.N.'s 
first-ever emergency health mission, the U.N. Mission for Ebola 
Emergency Response (UNMEER), which was largely sustained by the United 
States.

   Should the WHO be given greater emergency response capacity 
        (including through the rapid recruitment and deployment of 
        emergency responders within 24 to 48 hours of an outbreak), or 
        should it focus its energies on strengthening emergency 
        preparedness in partner countries while emergency response is 
        assigned elsewhere?

    Answer. The United States will work with other member states to 
improve the WHO's capacity for emergency response and its ability to 
support nations in strengthening public health preparedness. 
Preparedness and response capacities are closely linked, and both are 
vital to pandemic readiness.

    Question. If emergency response is to be assigned elsewhere, where?

    Answer. The United States is committed to strengthening and 
reforming the WHO, including its capacity for emergency response and 
its ability to support nations in strengthening public health capacity. 
The United States is also committed to the complementary role of other 
U.N. and international partners in complex emergencies.

    Question. If confirmed, other than rejoining the WHO, how will you 
confront and mitigate the increasingly malign influence of China within 
the WHO organization?

    Answer. If confirmed, I will ensure the United States reasserts 
leadership, including by building support for reforms to the WHO to 
prevent corruption and increase transparency and good governance. I 
would also rally the support of allies and partners to call out China's 
Government on any activity that goes against U.S. and U.N. values.

    Question. If confirmed, will you work to ensure that Taiwan is 
granted full observer status at the WHO and at the World Health 
Assembly?

    Answer. Yes. If confirmed, I will continue U.S. policy to support 
Taiwan membership in international organizations where statehood is not 
a requirement and encourage Taiwan's meaningful participation in 
organizations, such as the WHO, where its membership is not possible. I 
will work closely with friends and allies to advance our shared 
prosperity, security, and values in the Asia-Pacific region, including 
deepening our ties with Taiwan and support for Taiwan's participation 
in these organizations.

    Question. If confirmed, will you ensure that, by joining COVAX, the 
vaccines pillar of the WHO-supported Access to COVID-19 Tools (ACT) 
Accelerator, the United States will not subsidize the distribution of 
the CoronaVac vaccine, which was developed by the Beijing-based company 
Sinovac, or similarly substandard Chinese COVID-19 vaccines, which have 
efficacy rates of just 50 percent?

    Answer. I understand the United States intends to join COVAX to 
support multilateral efforts for global distribution of safe and 
effective vaccines. A WHO emergency use listing or approval from other 
stringent regulatory authorities that rigorously review clinical trial 
data is a necessary step to ensure vaccines procured via COVAX meet 
specified safety and efficacy standards. The United States will use our 
influence within the COVAX platform to ensure rigorous safety and 
efficacy standards are upheld.

    Question. If confirmed, will you call upon the WHO to stop its 
advocacy of self-managed medical abortion in countries where abortion 
is illegal or restricted?

    Answer. The WHO is not advocating for self-managed medical abortion 
in countries where abortion is illegal or restricted. Sexual and 
reproductive health care services are essential to women's health and 
well-being. President Biden has revoked the Mexico City policy, which 
undermined our efforts to advance gender equality globally by 
restricting our ability to support women's health and gender-based 
violence prevention and response programs.

    Question. Waste, fraud, and abuse within the U.N. system is never 
acceptable. Yet, they are particularly egregious when they robs 
desperate men, women, and children of life-saving assistance while 
aiding and abetting continued violence, human rights abuses, 
corruption, and other criminal acts.

   If confirmed, do you commit to use the voice, vote, and influence 
        of the United States to hold the U.N. and each of its 
        specialized agencies and programs to the highest standards of 
        transparency, accountability, and effectiveness?

    Answer. Yes, if confirmed, I will maintain U.S. leadership in 
strongly supporting critical U.N. reform efforts. That includes 
initiatives designed to advance the coordination, efficiency, 
effectiveness, transparency, and accountability of humanitarian, 
development, peacebuilding, and other vital efforts and assistance.

    Question. If confirmed, will you demand personal accountability for 
U.N. managers and implementers responsible for major diversions of 
humanitarian assistance and other forms of waste, fraud, and abuse?

    Answer. Yes.

    Question. Will you demand accountability for the leaders of member 
states and armed groups engaged in the ``weaponization'' of 
humanitarian assistance, whereby access to and assistance for highly 
vulnerable populations is deliberately denied or manipulated to gain 
political, military, or other advantage?

    Answer. Yes, I will condemn any current and future attempts to 
deny, interfere with, or weaponize humanitarian assistance, threats 
against humanitarian workers and facilities, and other violations of 
international humanitarian law. If confirmed, I will use our 
humanitarian diplomacy to push for greater accountability, respect for 
international humanitarian law, and an unequivocal respect for the work 
undertaken by humanitarian aid workers, as well as humanitarian assets, 
premises, and the unhindered delivery of humanitarian assistance.

    Question. Do you commit to work with Congress to ensure that U.S. 
contributions to the U.N. and its humanitarian agencies and programs-
whether voluntary or assessed-do not aid and abet corruption, 
repression, genocide, crimes against humanity, trafficking in persons, 
sexual exploitation and abuse, and other crimes and gross violations of 
human rights?

    Answer. The State Department and the U.S. Agency for International 
Development engage with U.N. agencies at multiple levels to ensure 
effective oversight of U.S. taxpayer funding, including through active 
participation in U.N. executive boards, frequent engagement between 
staff in the field and at headquarters, as well as coordination with 
other donors and stakeholders. If confirmed, I will continue to use 
U.S. Government tools to prevent human rights violations and ensure 
accountability and integrity of U.S. contributions to the U.N. This 
includes annual reporting to Congress on human rights, preventing and 
responding to atrocities, corruption, and U.N. efforts to prevent 
sexual exploitation and abuse and trafficking in persons. However, if 
confirmed, my engagement with Congress will not be limited to annual 
reporting, and I look forward to working collaboratively with Congress 
to ensure the accountability and integrity of U.S. resources.

    Question. If confirmed, will you press each of the U.N. 
humanitarian agencies, as well as the U.N. Development Program (UNDP), 
to adopt and utilize secure, cost-effective biometric technologies to 
identify beneficiaries, combat fraud, and streamline service delivery 
while rigorously safeguarding privacy and protecting personally 
identifiable information?

    Answer. The United States will continue encouraging U.N. agencies 
to use secure, cost-effective technologies to make humanitarian and 
development assistance more effective, efficient, and accountable.

    Question. Whether in peacekeeping, humanitarian, stabilization, or 
development operations, or even within its own offices, the U.N. has 
had a pernicious record of sexual exploitation and abuse record for 
decades. If confirmed, how will you enforce the organization's ``zero 
tolerance'' policies?

    Answer. If confirmed, I will work closely with international 
partners to maintain pressure on the U.N., its implementing partners, 
and member states to conduct credible and timely investigations and 
pursue accountability at all levels for sexual exploitation and abuse. 
I will press the U.N. to strengthen transparency in sexual exploitation 
and abuse reporting and investigations and for the Secretary-General to 
take decisive action to hold personnel and organizations responsible 
under the zero-tolerance policy.

    Question. The United States remains the most generous contributor 
of humanitarian assistance in the world, yet needs are rapidly 
outpacing the ability to respond. If confirmed, how will you improve 
burden sharing across the U.N. system, particularly in response to 
humanitarian emergencies?

    Answer. If confirmed, I will continue to hold the U.N. accountable 
to its mission and its member states. This means doing all we can to 
ensure the U.N. is using resources efficiently and effectively and 
encouraging other countries pay their fair share. If confirmed, I will 
also work with U.N. partners to pursue a greater diversity of donors, 
exploring non-traditional partnerships, including with emerging donors 
and private sector actors, and pressing the U.N. member states to 
recognize that more timely and reliable humanitarian assistance will 
advance stability and shared peace-and-security goals. The United 
States will continue to lead the international response to humanitarian 
emergencies and provide its expertise and capabilities to those in 
need, but the international community's response must be proportional.

    Question. Each of the past three U.S. presidents has supported 
efforts to reform U.S. international food aid, so humanitarian 
resources can be stretched to feed more people in need, more quickly 
and at lower expense. These reforms would buttress the World Food 
Programme's own efforts to empower beneficiaries and catalyze early 
economic recovery following a disaster through the delivery of market-
based assistance. Do you support food aid reform? If so, what form 
would that take?

    Answer. I support a food aid program that makes most efficient and 
effective use of America's resources. We are accountable to the 
American people to be good stewards of our resources and have a 
responsibility as the largest provider of humanitarian food aid 
globally to use our seat at the table to demand accountability. If 
confirmed, I will support the President in his vision for the best way 
to accomplish this. However, food aid reform alone is insufficient to 
address the problem of the world's growing need. I believe we must not 
lose focus on addressing and eliminating the root causes of global food 
insecurity through long-term economic development, peacebuilding, and 
working to combat climate change.

    Question. Around the world, political dissidents, activists, 
journalists, and human rights advocates have been victims of 
repression, torture, detention, abuse, and arbitrary killing, for 
simply exercising their right to freedom of expression. What would you 
do to bolster and reiterate the U.S. Government's commitment at the 
U.N. to protect and advocate for those on the frontlines, including 
civil society organizations?

    Answer. The United States fully stands for the protection of 
freedom of expression, assembly, and the rights of journalists, human 
rights advocates, and members of civil society to exercise these 
freedoms free from the fear of abuse, torture, and arbitrary detention, 
so that they may operate in safety around the globe. We are deeply 
concerned by the flagrant human rights abuses against innocent 
activists peacefully exercising for their democratic rights.

    Answer. If confirmed, I will review all options towards the 
protection of political dissidents, journalists, and human rights 
advocates to raise the profile of protecting human rights activists 
wherever their rights are threatened.

    Question. Everyone should be able to practice their faith however 
they choose, including in places like China, India, and Uzbekistan.

   How does international religious freedom factor into your 
        priorities as U.S. Representative to the U.N.?

    Answer. If confirmed, advancing international religious freedom 
will be a priority for me as U.S. Representative to the United Nations. 
The right to freedom of religion or belief is enshrined in the 
Universal Declaration of Human Rights and the International Covenant on 
Civil and Political Rights. If confirmed, I will work closely with 
State Department colleagues, including the Office of International 
Religious Freedom, and Congress to ensure we are highlighting all 
relevant religious freedom equities at the U.N. and working with our 
partners to advance and protect freedom of religion or belief for all.

    Question. What do you believe is the role of the U.S. Government in 
advocating on behalf of religious minorities at the U.N.?

    Answer. The U.S. Government has long maintained a leadership role 
in protecting and defending the rights of members of religious minority 
groups and other vulnerable populations, through advocacy at the United 
Nations and across our bilateral relationships. The world is safer and 
more prosperous when the human rights of every individual are fully 
protected. As such, advancing human rights for all is a centerpiece of 
the Biden administration's approach to foreign policy. If confirmed, I 
will proactively engage on the protection of the rights of members of 
religious minority groups globally.

    Question. 2020 marked the 20th anniversary of the adoption of 
United Nations Security Council Resolution 1325 on Women, Peace and 
Security. How will you continue to build on this important resolution 
and the subsequent work of the U.S. Government to prioritize women in 
peacekeeping and security efforts?

    Answer. The United States is a strong advocate of U.N. Security 
Council Resolution 1325. I am dedicated to advancing the Women, Peace, 
and Security (WPS) agenda, including through the WPS Act of 2017, the 
2019 U.S. WPS Strategy, and State's WPS Implementation Plan, in which 
we track, measure, and report on our efforts to Congress. If confirmed, 
I will work to strengthen language pertaining to WPS in U.N. Security 
Council resolutions and particularly in mandates for U.N. special 
political missions and peacekeeping missions, as well as across General 
Assembly resolutions, and push back against countries trying to limit 
WPS references. These efforts help to integrate our broader WPS goals 
into specific regional agendas, which is critical for effective 
implementation.

    Question. Internet freedom around the globe is waning as 
authoritarian states continue to suppress dissent, silence critics, and 
oppress populations through censorship online and repeated or prolonged 
internet shutdowns. Current programmatic efforts in Asia, Central Asia, 
and the Middle East aim to combat this issue. Do you believe that 
internet shutdowns are a threat to human rights? How will you 
prioritize internet freedom at the U.N.?

    Answer. With the support of Congress, the State Department has 
built a range of programmatic activities and policy initiatives that 
promote and protect the ability of individuals to exercise their human 
rights online. I am deeply concerned by the growing use of government-
imposed internet shutdowns, among other censorship tactics, that 
restrict the rights of individuals online and contribute to the global 
decline of internet freedom. If confirmed, I will prioritize the 
promotion of internet freedom through programmatic support, 
coordination with the U.S. private sector, and bilateral and 
multilateral diplomacy at the United Nations.

    Question. In a report requested by the U.N. Human Rights Council, 
the Commission of Inquiry on Burundi said in September 2020 that there 
had been ``little'' in the way of ``positive changes'' since President 
Evariste Ndayishimiye ``assumed office'' in June 2020, and concerns 
remain about human rights abuses committed both domestically against 
Burundian citizens and through Burundi's engagements in the region.

   What are your views on the human rights situation in Burundi? Do 
        you believe the United States is in a position to reset its 
        relationship with Ndayishimiye's government, given the seeming 
        continuation of human rights abuses from the former Nkurunziza 
        government?

    Answer. If confirmed, I will need to assess the human rights 
situation in Burundi as well as the U.S. approach toward the new 
administration under President Ndayishimiye, including its approach to 
accountability and the role of justice and reconciliation in the 
political dialogue.

    Question. How would you evaluate the performance of Burundian 
troops in the African Union Mission in Somalia (AMISOM)? How can the 
United States better monitor their human rights record in Somalia? Are 
there opportunities to build stronger human rights reporting mechanisms 
for AMISOM, including to mechanisms to better monitor the human rights 
record of Burundian troops in Somalia? Will you commit to push for 
greater capabilities of AMISOM to monitor the human rights performance 
of Burundi and other peacekeeper-contributing countries under this 
mission? What can the U.N. do regarding the AMISOM mission to decrease 
dependency on Burundian troops in Somalia?

    Answer. If confirmed, I will review the human rights record of the 
Burundian contingent in AMISOM. I believe that having accurate and 
timely reporting on performance issues and abuses committed by 
peacekeepers is critical to the role of the U.N. Security Council in 
monitoring peacekeeping missions. The U.N.'s Human Rights Due Diligence 
Policy requires that support to non-UN security forces is provided in a 
manner consistent with respect for human rights. I will approach the 
AMISOM mandate with this in mind.

    Question. The Anglophone conflict in Cameroon is one of the world's 
most neglected yet intensely brutal conflicts.

   Will you commit to prioritize efforts to push the U.N. Security 
        Council to hold regular, formal briefings and discussions on 
        the Anglophone crisis in Cameroon, including formally adding 
        the issue to its agenda? If so, how do you propose to engage 
        member states that have worked to block previous efforts to 
        prioritize and regularize the Anglophone crisis within the U.N. 
        Security Council?

    Answer. I am concerned about continued violence in Cameroon and 
condemn recent deadly attacks against civilians in the Anglophone 
regions. An end to violence and accountability for its perpetrators are 
needed. It is important children attend school and aid can be 
delivered. Political dialogue is needed to resolve this conflict and to 
improve respect for human rights. If confirmed, I will review the tools 
we have in the United Nations to press for a resolution of this 
conflict and to hold accountable those responsible for human rights 
violations and abuses.

    Question. Do you agree that the U.N. has a vital role in supporting 
inclusive, internationally-mediated dialogue among the many actors in 
the Anglophone Crisis to find a lasting and sustainable solution to the 
crisis, addressing root causes and underlying grievances? If yes, what 
precisely should that role be, and how will you push for that within 
the U.N.?

    Answer. I am concerned about continued violence in Cameroon and 
condemn recent deadly attacks against civilians in the Anglophone 
regions. An end to violence and accountability for its perpetrators are 
needed. It is important children attend school and aid can be 
delivered. Political dialogue is needed to resolve this conflict and to 
improve respect for human rights. If confirmed, I will review the tools 
we have in United Nationsto press for a resolution of this conflict and 
to hold accountable those responsible for human rights violations and 
abuses.

    Question. The Cameroonian Government has consistently failed to 
investigate and prosecute perpetrators of atrocities committed against 
its civilians. It has proven unable to hold high-ranking government and 
military officials responsible for these crimes. How will you engage 
other like-minded countries in the U.N. to pursue accountability for 
atrocities committed in Cameroon, both by government and armed group 
actors?

    Answer. If confirmed, I will review the tools we have in the United 
Nations to press for a resolution of this conflict and to hold 
accountable those responsible for human rights violations and abuses. I 
will also seek opportunities to engage with like-minded countries who 
share a desire to bring this conflict to an end and ensure those 
responsible for human rights violations and abuses are held 
accountable.

    Question. How can the United States more effectively encourage 
France to use its significant leverage in Cameroon to encourage the 
Government to engage in meaningful dialogue to end the Anglophone 
conflict?

    Answer. If confirmed, I will review the different tools we have to 
press for a resolution of this conflict, including through discussions 
with French Government officials and with P3 counterparts.

    Question. The Central African Republic (CAR), which never fully 
recovered from the rebellion and state collapse of 2013, has seen a 
renewed rebel surge against the Government of President Faustin 
Archange Touadera, headed by former President and U.N. sanctions 
designee Francois Bozize. Touadera was re-elected in December 2020, but 
low voter turnout and the inability of many voters to participate due 
to security threats underscore challenges to his legitimacy. The 
multitude of foreign actors, including the United Nations 
Multidimensional Integrated Stabilization Mission in the Central 
African Republic (MINUSCA), Russia, Rwanda and France, active in CAR, 
make the conflict and worsening humanitarian situation ever more 
complex.

   How will you ensure that MINUSCA and other security actors protect 
        civilians from violence? Specifically, will you support efforts 
        to ensure MINUSCA has the proper personnel and capacity to 
        respond to the complex dynamics of the conflict in CAR?

    Answer. If confirmed, I will review MINUSCA's operations and 
resourcing to ensure it is equipped to respond to continued instability 
and threats to civilians in the Central African Republic. I will also 
ensure that any requests for additional troops or resources receive 
appropriate attention and consideration by the U.N. Security Council.

    Question. If confirmed, how will you rally the U.N. Security 
Council and U.N. member states to respond to these ongoing humanitarian 
challenges, address resource management concerns, and protect aid 
workers in CAR?

    Answer. I share Secretary Blinken's concerns about the humanitarian 
crisis and the ongoing conflict in CAR. If confirmed, I will review 
available options to address these challenges and engage with our 
African and European partners and with other U.N. member states to urge 
international actors engaging in CAR to do so with utmost transparency 
and coordination and in ways that positively address Central Africans' 
desires for good governance, stability, and accountability.

    Question. Following presidential and legislative elections, Russia 
informed the U.N. that it plans to withdraw 300 ``military 
instructors'' sent to CAR to ``help'' the country ``strengthen its 
defensive capacities'' leading up to the December 27, 2020, elections. 
Russia's dominant presence in CAR is alarming on several fronts-not 
only as it relates to the Central African country's internal and 
regional security, but also to vital U.S. national security interests. 
Will you commit to closely monitor Russia's presence in CAR and 
corresponding activity at the U.N., particularly as it relates to 
internal and regional security arrangements and the arms embargo?

    Answer. Yes. If confirmed, I will closely monitor Russian 
activities in CAR and seek to counter actions that undermine CAR's 
stability.

    Question. Russia and France are engaged in an intense rivalry for 
power and influence in CAR. What policies should the United States 
pursue to ensure that the increasing competition for influence between 
Russia and France does not have long-term detrimental effects on a 
country already facing a dire humanitarian situation and overcoming 
decades of civil conflict?

    Answer. Like Secretary Blinken, I believe that diplomatic and 
security engagement with U.S. partners in Africa can advance our 
interests and values, while highlighting the dangers associated with 
dealing with countries like Russia. If confirmed, I will work with U.N. 
member states to urge international actors engaging in CAR to do so 
with utmost transparency and coordination, and in ways that meet 
Central Africans' desires for good governance, stability, and 
accountability.

    Question. How can the United States best protect its interests in 
CAR and the broader region while also ensuring that other members of 
the U.N. Security Council are prioritizing the MINUSCA mission over 
their own foreign military operations in the country?

    Answer. I share Secretary Blinken's belief that enhancing our 
alliances and partnerships in Africa through diplomatic, development, 
and security initiatives will enable us to better protect and secure 
U.S. interests. If confirmed, I will work with other members of the 
U.N. Security Council to assess how we can better address the 
challenges in the Central African Republic.

    Question. How does the United Nations Organization Stabilization 
Mission in the Democratic Republic of the Congo (MONUSCO) contribute to 
the peace and security of the Democratic Republic of Congo (DRC)? How 
effective is MONUSCO's current mandate and what changes might you 
propose should you be confirmed? What should the United States, our 
European allies, and the U.N. peacekeeping mission (MONUSCO) be doing 
to support a peace process and an end to the conflict in Eastern Congo?

    Answer. The U.N. plays a critical role in the stabilization of the 
Democratic Republic of the Congo (DRC), particularly in eastern DRC, 
where armed group violence remains widespread. The U.N. Organization 
Stabilization Mission in the DRC (MONUSCO) mandate, last renewed in 
December 2020, prioritizes the protection of civilians, enabling 
humanitarian access, support stabilization efforts, and strengthen 
state institutions. MONUSCO plans to withdraw from Tanganyika and the 
Kasai provinces by 2022 as part of a responsible, conditions-based 
transition and allow for more resources to focus on North Kivu, South 
Kivu, and Ituri provinces. If confirmed, I will prioritize reforms to 
make the U.N. efficient and effective to bring sustainable peace to 
this restive region.

    Question. How does United Nations Multidimensional Integrated 
Stabilization Mission in Mali (MINUSMA) contribute to the peace and 
security of Mali?

   How effective is MINUSMA's current mandate and what changes might 
        you propose should you be confirmed?

    Answer. MINUSMA provides an essential level of security without 
which Mali and the Sahel region would be substantially destabilized. It 
is the only source of stability and a de facto state presence in many 
parts of northern and central Mali, enabling humanitarian access and 
some protection for the population. At the urging of the United States, 
the current mandate for MINUSMA, adopted in June 2020, includes 
benchmarks to increase pressure on signatory parties to implement the 
Algiers Accord and tasks the mission to develop a long-term roadmap for 
peace and security in Mali. If confirmed, I will continue to closely 
monitor this mandate and seek whatever changes are required to enable 
the mission to most effectively contribute to peace and security in 
Mali.

    Question. What can and should the United States and other U.N. 
Security Council member states do to hold accountable those who attack 
MINUSMA peacekeepers?

    Answer. Attacks against peacekeepers may constitute war crimes 
under international law and may meet designation criteria for U.N. 
sanctions. The United States works with other U.N. Security Council 
members, the U.N., and the Malian authorities in seeking accountability 
for these attacks, including investigations, and in supporting stronger 
requirements for peacekeeper safety and security in the mission 
mandate. If confirmed, I will continue to support strong efforts to 
bring those responsible for these attacks to justice and to use our 
platform at the U.N. Security Council to pressure Mali's transition 
government to take similar measures.

    Question. How can the U.N. better protect peacekeepers in Mali 
without negatively affecting MINUSMA's mandate and the mission's 
ability engage with local populations?

    Answer. The U.N. Security Council has taken several steps to 
improve peacekeeper safety and security in the MINUSMA mandate, 
including enhancing the mission's intelligence and analysis 
capabilities, providing training and equipment to counter explosive 
devices, improving mission logistics, stepping up camp protection, 
strengthening casualty and medical evacuation procedures, introducing 
long-term rotation schemes for critical capabilities, and deploying 
properly trained and equipped troops. If confirmed, I will continue to 
monitor the safety and security of peacekeepers closely and will not 
hesitate to push for additional measures as necessary to respond to the 
evolving security situation.

    Question. Rwanda has recently worked alongside Russia to support 
the Touadera government in CAR to combat armed group offensives on 
major cities surrounding the December 2020 electoral process. It has 
also taken on a role as a top contributor of personnel to U.N. 
peacekeeping missions in the sub-Saharan Africa region (including 
UNMISS, MINUSCA, UNISFA and UNAMID), and is involved in the ongoing 
armed conflict in Eastern Congo. What is your assessment of Rwanda's 
contributions to regional security in Central Africa? What is your 
assessment of Rwanda's security and financial interests in Central 
Africa, and how do those interests correspond to its activities in the 
region? What actions will you pursue in the U.N. to engage with Rwanda 
and engage other partners on Rwanda's activities in the Central Africa 
region?

    Answer. Rwanda consistently ranks among the top four largest troop 
contributors to peacekeeping missions globally. If confirmed, I will 
support U.N. efforts to engage regional stakeholders, including Rwanda, 
to end instability in Central Africa, including through the U.N. 
sanctions committees on CAR and the DRC, while respecting state 
sovereignty and humanitarian law.

    Question. The United Nations Support Office in Somalia (UNSOS) and 
AMISOM's mandate is up for renewal in February 2021.

   In your view, how can the United States engage in the mandate 
        renewal process, including with the penholder (the United 
        Kingdom), to have frank discussions about what we hope to 
        achieve through UNSOS/AMISOM and how to push the Government of 
        Somalia to make progress?

    Answer. The United States regularly holds frank discussions with 
the United Kingdom, Somalia, the African Union, the European Union, the 
AMISOM troop contributing countries, and other key stakeholders on 
AMISOM and how to make progress in Somalia. If confirmed, I will work 
closely with my counterparts on a mandate that maximizes AMISOM's 
ability to address the al-Shabaab threat, contribute to Somali 
stability, and build Somali capacity and political will to take over 
greater responsibility for its own security.

    Question. UN Special Representative Jim Swan commented in November 
2020, following Somalia's decision to forgo direct universal suffrage 
elections for a selection process similar to that of 2016, that ``we 
urge Somali leaders to prepare consensually a roadmap with clear 
timelines and benchmarks to ensure one-person-one-vote elections take 
place in 2024/25.'' To what extent do you feel, in reviewing the 
mandate for AMISOM, that consideration should to be given to how the 
U.N. could play a bigger role in supporting and making preparations for 
universal suffrage elections in the future?

    Answer. The U.N. plays a critical role in assisting Somalia with 
stabilization and democratic development reforms. Among the U.N. 
elements operating in Somalia, the U.N. Assistance Mission in Somalia 
(UNSOM) is mandated with advising and assisting Somalia on political 
reforms and is best suited to lead U.N. efforts in preparing the 
country for universal suffrage in the future. If confirmed, I will work 
to ensure that support for democratic and electoral reforms, including 
supporting preparations for universal suffrage elections, remain at the 
core of UNSOM's responsibilities when UNSOM's mandate comes up for 
renewal in August 2021.

    Question. The United States voted with other members of the 
Security Council in December to end the mandate of the United Nations 
African Union Hybrid Operation in Darfur (UNAMID), despite warnings 
that Sudan's Government had not yet demonstrated its ability to protect 
civilians in Darfur. Now, just weeks after UNAMID's mandate ended, more 
than 230 people have reportedly been killed and thousands displaced in 
two deadly incidents of inter-communal violence, and the U.N. High 
Commissioner for Human Rights notes ``severe gaps in protection by 
State authorities, as well as a lack of accountability for 
violations.''

   What, in your view, should the United Nations Integrated Assistance 
        Mission in Sudan's (UNITAM) role be in helping to address these 
        issues?

    Answer. If confirmed, I will focus on the stand-up of the U.N. 
Integrated Transition Assistance Mission in Sudan (UNITAMS), including 
ensuring that the mission has the resources to fulfil its mandate, and 
review options for addressing inter-ethnic violence in Darfur.

    Question. What is your view of the request by Sudan's transitional 
government to lift the U.N. arms embargo on Darfur? What changes if any 
should be made to the U.N. sanctions regime established pursuant to 
resolution 1591 (2005)?

    Answer. While there has been progress in resolving conflict in 
Sudan after the fall of the Bashir regime, the security situation 
remains precarious. The U.N. Panel of Experts for Sudan recently 
reported ongoing security issues in Darfur and the possibility of 
renewed conflict. Weapons and fighters continue to flow into and out of 
Darfur from other regional conflicts. The implementation of the October 
2020 Juba Peace Agreement is behind schedule. There is currently 
limited government capacity for protecting civilians in Darfur. If 
confirmed, I will continue to evaluate the conditions in Darfur to see 
what changes, if any, should be made to the U.N. sanctions regime.

    Question. How does the United Nations Interim Security Force for 
Abyei (UNISFA) contribute to the peace and security of Sudan and South 
Sudan? How effective is UNISFA's current mandate, and what changes 
might you propose should you be confirmed?

    Answer. UNISFA has previously been effective at preventing tensions 
over the status of Abyei or other border areas from spilling over into 
conflict between Sudan and South Sudan. If confirmed, I will review 
UNISFA's current mandate and whether additional changes are needed.

    Question. One of the key lessons from the Brahimi Report was that 
if a peace operation is to be part of implementing a peace agreement, 
it should have a role in the process and a seat at the table. However, 
in South Sudan, the United Nations Mission in South Sudan (UNMISS) does 
not. Should UNMISS's political strategy be reexamined and, if so, how? 
How would you go about building support within the Council for a more 
robust role for the mission? Should UNMISS have a greater role in 
disarmament, demobilization, and reintegration (DDR) and/or security 
sector reform (SSR)?

    Answer. If confirmed, I will continue to evaluate missions, 
including the U.N. Mission in South Sudan (UNMISS), with a view to 
making them as efficient and effective as possible and ensuring that 
they play an important role in the implementation of peace agreements. 
Disarmament, demobilization, and reintegration and/or Security Sector 
Reform are essential building blocks for the peace process in South 
Sudan. If confirmed, I will evaluate the role of UNMISS in these areas.

    Question. Russian malign activity in Africa is of increasing 
concern, particularly given credible reports of elections interference 
across the continent and deployment of Russian mercenaries, including 
through the Wagner Group, in Northern Mozambique, and nontransparent 
transfers of weapons and training through Russian security sector 
support to the Touadera administration in CAR. If confirmed, how will 
you engage within the U.N. Security Council to counter the influence of 
Russia in Africa and to ensure that the United States is at the table 
to identify and support the best non-predatory solution to fill 
critical security gaps on the continent?

    Answer. Diplomatic and security engagement with U.S. partners in 
Africa can advance our interests and values, while highlighting the 
dangers associated with Russia. If confirmed, I will work to enhance 
our alliances and partnerships in Africa through diplomatic, 
development, and security initiatives that will enable us to better 
protect and secure U.S. interests in Africa.

    Question. Last year, Beijing implemented the ``National Security 
Law'' in Hong Kong, which effectively put Hong Kong's legal system and 
law enforcement under Beijing's control and severely undermined China's 
international treaty obligations to respect Hong Kong's autonomy and 
the rights protected in the Basic Law.

   How will the administration address these violations of 
        international law, including at the U.N.?

    Answer. Beijing's assault on freedom and autonomy in Hong Kong are 
at odds with its international obligations and commitments. I am 
alarmed about the PRC's continuing crackdown on Hong Kong over the last 
few years--including the imposition of the National Security Law, the 
arrests of pro-democracy activists, and the disqualification of pan-
Democratic lawmakers within the Legislative Council. President Biden 
has denounced these moves to undermine Hong Kong's freedoms and 
autonomy as guaranteed in the Basic Law. If confirmed, I look forward 
to working with our allies and partners, including at the U.N., to 
speak out for human rights and fundamental freedoms, and hold the PRC 
accountable for its assault on Hong Kong's autonomy.

    Question. Will you commit to continue imposing costs on Beijing for 
its actions in Hong Kong?

    Answer. If confirmed, I look forward to working with our allies and 
partners, including at the U.N., to speak out for human rights and 
fundamental freedoms, and hold the PRC accountable for its assault on 
Hong Kong's autonomy.

    Question. Millions of Uyghurs and other ethnic Muslims have been 
detained, disappeared, or put into forced labor situations. This 
includes family members of U.S.-based Uyghurs, who have been advocating 
for the release of their family members and highlighting the horrific 
abuses in Xinjiang and across China.

   If confirmed, will you advocate for the immediate and unconditional 
        release of these individuals at the U.N.?

    Answer. Uyghurs, and members of other ethnic and religious minority 
groups in Xinjiang have suffered unspeakable oppression at the hands of 
China's authoritarian government, including mass detentions in camps, 
torture, and forced sterilizations, among other abuses. If confirmed, I 
will commit to advocating for their immediate and unconditional 
release.

    Question. If confirmed, will you commit to raising this issue, and 
specific cases, with the Chinese Government immediately?

    Answer. If confirmed, I will commit to raising our concerns about 
the China's oppression in Xinjiang directly with China's officials, 
including specific cases.

    Question. Several countries have forcibly returned Uyghurs fleeing 
persecution and abhorrent human rights abuses by the Chinese Communist 
Party. How will you and interagency partners work with other nations to 
discourage, and eventually end, this practice?

    Answer. In Xinjiang, the China's Government is engaged in gross 
human rights violations and abuses that shock the conscience. It is 
deeply troubling when other countries forcibly return individuals 
fleeing such persecution to China. If confirmed, I will workto urge 
other governments to refrain from forcibly returning asylum seekers to 
China and to press PRC authorities to end these atrocities.

    Question. On January 19, 2021, Secretary of State Mike Pompeo 
determined that ``since at least March 2017, the People's Republic of 
China (PRC), under the direction and control of the Chinese Communist 
Party (CCP), has committed crimes against humanity against the 
predominantly Muslim Uyghurs and other members of ethnic and religious 
minority groups in Xinjiang.'' He went on to determine that ``the PRC, 
under the direction and control of the CCP, has committed genocide 
against the predominantly Muslim Uyghurs and other ethnic and religious 
minority groups in Xinjiang.'' During your testimony on January 27, you 
indicated that the State Department is currently reviewing this 
genocide determination due to process issues.

   In your view, In your view, were Secretary Pompeo's determinations 
        of January 19 correct? Please explain.

    Answer. Secretary Blinken and I have made clear that genocide has 
been committed against the Uyghurs in Xinjiang. China's Government has 
also committed crimes against humanity against Uyghurs and members of 
other ethnic and religious minority groups, including imprisonment, 
torture, enforced sterilization, and persecution. These atrocities 
shock the conscience and must be met with serious consequences. If 
confirmed, I will work with our allies and partners to promote 
accountability and call on Beijing to immediately end these atrocities 
and to respect the human rights of Uyghurs and all others across China.

    Question. Can you explain what process issues you were referring to 
in your testimony?

   If confirmed, do you pledge to support the determinations Secretary 
        Pompeo made on January 19?

    Answer. As I made clear in my testimony, I have witnessed a 
genocide in Rwanda, so I know what it looks like. And that is why 
Secretary Blinken and I have made clear that genocide has been 
committed against the Uyghurs in Xinjiang. China's Government has also 
committed crimes against humanity against Uyghurs and members of other 
ethnic and religious minority groups, including imprisonment, torture, 
enforced sterilization, and persecution. These atrocities shock the 
conscience and must be met with serious consequences. If confirmed, I 
will work with our allies and partners to promote accountability and 
call on Beijing to immediately end these atrocities and to respect the 
human rights of Uyghurs and all others across China.

    Question. Competition with the People's Republic of China (PRC) 
requires the United States to adapt skillfully to the information 
environment of the 21st century. If confirmed, how will you coordinate 
and advance U.S. public diplomacy and messaging efforts at the U.N. to 
promote the value of partnership with the United States, highlight the 
risks and costs of enmeshment with the PRC, and counter CCP propaganda 
and disinformation?

    Answer. It is clear China is behaving very differently than it has 
in the past--it is more aggressive, including at the United Nations. It 
is clear we must change our approach to publicly engage more 
strategically. If confirmed, I will use my position in New York to re-
engage with our allies and partners and call out China's activities 
that undermine the norms and values of the U.N. If confirmed, I will 
rally support to define an affirmative, democratic vision for the 
global information space and take every opportunity to call out China's 
efforts to assert values that are inconsistent with U.S. and U.N. 
values.

    Question. The PRC is actively trying to reshape international 
institutions in its favor, including the United Nations. If confirmed, 
how will you work with our democratic allies and partners to build 
resiliency to attempts by the CCP to undermine the integrity of 
multilateral institutions, and do you commit to monitoring such 
attempts?

    Answer. In the U.N., the China's Government drives an authoritarian 
agenda that stands in opposition to U.S. and U.N. values, including on 
human rights. If confirmed, re-engaging with our allies and partners to 
push back against Beijing's attempts to reshape the U.N. will be a top 
priority of mine. This will include rallying the support of our allies 
and partners to call out China's Government every time it asserts a set 
of values that is inconsistent with U.S. and U.N. values. If confirmed, 
I will work with our allies and partners to secure the election of 
candidates that share our democratic values and advocate for reform in 
the U.N. system that will prevent corruption and increase transparency 
and good governance.

    Question. In addition to the PRC actively trying to reshape 
existing international institutions in favor of CCP interests, it is 
also setting up alternate multilateral institutions under its 
leadership, such as the Asian Infrastructure Investment Bank. If 
confirmed, what will you do to ensure that the United Nations and U.N.-
affiliated organizations are not challenged by illiberal multilateral 
institutions set up by the CCP?

    Answer. China's Government engages in conduct around the world to 
make the United States and its allies more dependent on China and China 
less beholden to the international system that has provided peace and 
stability since the end of World War II. If confirmed, I will work 
closely with our allies and partners to address these challenges from a 
position of strength, re-engage and lead in international institutions, 
and push back against attempts to rewrite the rules and norms that 
animate those institutions. The PRC Government's failure to uphold its 
past international commitments is a significant factor in how we will 
develop our approach to China. We are clear-eyed and will keep these 
past shortcomings in mind as we deal with Beijing going forward.

    Question. One area where the CCP has exerted great influence in the 
United Nations is in keeping Taiwan completely cut out of the United 
Nations (even as an observer), and out of U.N.-affiliated 
organizations. If confirmed, do you commit to continue to advocate for 
Taiwan's meaningful participation in the U.N. and relevant U.N.-
affiliated organizations?

    Answer. Yes.

    Question. The PRC has greatly increased its financial and troop 
contributions to U.N. peacekeeping missions around the world. 
Unfortunately, there have been reports of unprofessional behavior and 
mistreatment by PRC troops, evidence of the PRC choosing missions where 
it has economic interests, and strategic concerns about the PRC using 
U.N. peacekeeping as a pathway to improve military readiness and laying 
the groundwork for PRC overseas military base planning. If confirmed, 
how will you ensure that PRC participation in U.N. peacekeeping does 
not undermine the interests and goals of the original peacekeeping 
mission?

    Answer. It is clear China is behaving very differently than it has 
in the past--it is more aggressive, including at the U.N. If confirmed, 
I will push back on malign influence within the U.N. system and 
campaign for reforms that make the U.N. more efficient, effective, 
accountable, and fit for purpose so that the institution remains the 
preeminent body committed to the maintenance of international peace and 
security.

    Question. At the beginning of the coronavirus pandemic, the Chinese 
Communist Party intentionally suppressed information about the virus's 
origins and spread disinformation about the virus across nearly every 
continent. This is just one example of how harmful CCP disinformation 
can be to the world.

   What can the United States do to combat CCP disinformation, 
        including at the U.N.?

    Answer. The United States will work alongside allies and partners 
to address Beijing's increased willingness to use disinformation, 
propaganda, and other coercive and corrupting activities in the 
information space. If confirmed, I will push back on the CCP's attempts 
to write the rules of the information age to define an affirmative, 
democratic vision for the global information space, including support 
for media freedom.

    Question. How can the United States work with allies and partners 
who have shown great resiliency to CCP disinformation, such as Taiwan, 
to tackle this shared challenge?

    Answer. The United States must work alongside allies and partners 
to address Beijing's willingness to use disinformation, propaganda, and 
other coercive and corrupting activities in the information space. If 
confirmed, I will rally support to define an affirmative, democratic 
vision for the global information space and take every opportunity to 
call out China's efforts to assert values that are inconsistent with 
U.S. and U.N. values.

    Question. You gave a speech to the Confucius Institute at Savannah 
State University in October 2019. The opening remarks of your speech 
indicate you were aware that you would be speaking to a Confucius 
Institute in advance of the engagement. Is that correct? Did you know 
in advance that you would be speaking to a Confucius Institute?

    Answer. Yes, I became aware that the Confucius Institute was 
involved in the event at Savannah State University after I had accepted 
the invitation to speak and my participation had been publicly 
announced.

    Question. If so, why did you agree to speak at the Confucius 
Institute?

    Answer. Because of my strong personal relationship with Savannah 
State University, including several prior visits to speak at the 
university, and my desire to use my visit as an opportunity to engage 
young students of color to encourage them to consider serving their 
country, I decided not to cancel my participation after I learned of 
the Confucius Institute's involvement.

    Question. Did you suggest another academic speaking forum at 
Savannah State University to avoid the Confucius Institute? If yes, why 
was that option not exercised? If no, why not?

    Answer. I did not suggest other speaking fora for the event 
because, at the time, I felt doing so would be improperly officious. In 
retrospect, I should have done so and been clear with the University 
that I would only be willing to speak at a different venue.

    Question. At the time you gave the speech, how would you describe 
your views about the operation of Confucius Institutes at educational 
institutions in the United States? In your testimony, you say that you 
were ``alarmed'' by your experience with the Confucius Institute. 
Please describe the activities or information you learned about the 
Confucius Institute's operations that alarmed you and how they affect 
your view of the Confucius Institute today.

    Answer. I was aware of the existence of Confucius Institutes in 
American educational institutions before speaking at Savannah State 
University, but not fully cognizant of their reach or their malign 
purpose. After speaking at Savannah State University, I became alarmed 
because I witnessed employees of the Institute not only engaging with 
college students, but also with middle and high school students. 
Witnessing their work in Savannah, I was reminded of what I viewed as 
the predatory behavior of the China's Government in African nations in 
which officials from China sought out the most vulnerable or minority 
populations in a country and attempted to influence their thinking and 
exert undue influence on them to the detriment of those nations.

    Question. If your experience at the Confucius Institute at Savannah 
State University was alarming, why did you not return the honorarium 
you received?

    Answer. I received a small honorarium for spending three days at 
Savannah State University, of which my speech as part of a panel at the 
Institute was twenty minutes. In retrospect, after witnessing the 
Confucius Institute's malign activities, I should have done more to 
express my alarm, including by returning the honorarium (although I 
would have worked diligently to avoid offense to my colleagues at the 
University, whom I respect and admire).

    Question. If you were to give a speech on the same topic today, are 
there aspects of Chinese malign behavior you would highlight? Please 
explain your answer in detail.

    Answer. Were I to give a speech today on China's malign influence 
activities, I would speak directly about the work of Confucius 
Institutes, thanks in part to the important work of many members of 
Congress who have joined in bipartisan efforts to raise awareness about 
the activities of China's Government through these Institutes. I would 
note that the Institutes often provide students, especially vulnerable 
ones, with an inaccurate picture of government actions and policies in 
China that run counter to U.S. interests. I would also speak more 
expansively about the predatory development work that I witnessed 
China's Government undertake in Africa and China's debt-trap diplomacy. 
Most importantly, I would have been clearer in my language that African 
nations should be clear-eyed in choosing their strategic partners, and 
that the United States is a unique and powerful ally that will endeavor 
to spread democracy and uphold human rights, and that will work hand-
in-hand with African nations to help them develop into thriving and 
prosperous nations.

    Question. In your Oct. 2019 Savannah State speech, you wrote, ``In 
the U.S.-China-Africa relationship, win-win-win cooperation is possible 
and common development can be achieved.'' China has sought to insert 
the phrase ``win-win'' and other phrases commonly used by the Chinese 
Communist Party into United Nations documents to legitimize its views 
on issues such as human rights, which run contrary to the U.N. Charter 
and other treaties and conventions. If confirmed, will you commit to 
use the voice and vote of the United States to prevent the insertion of 
``win-win'' and other phrases commonly used in Chinese Communist Party 
documents, statements, and propaganda into U.N. resolutions and other 
documents?

    Answer. Yes.

    Question. In your view, does the ``One Belt, One Road'' initiative 
challenge vital or important U.S. interests? If so, which interests? If 
you do not agree, please explain. In your view, has the PRC Government 
influence in Africa, including through ``One Belt, One Road,'' 
exacerbated corruption on the continent? Please explain your position.

    Answer. We need to compete with China's economic statecraft through 
the Belt and Road Initiative. In Africa, the Biden administration will 
meet this challenge by ensuring that American companies can compete on 
an even playing field, providing a meaningful alternative to China's 
economic approach, promoting entrepreneurship, transparency, good 
governance, internationally recognized environmental, social and labor 
standards, and fair practices. We will push back on corrupt or coercive 
practices that damage our interests and that of our African partners, 
including impingement on state sovereignty or control over resources 
and the abusive use of new security technology.

    Question. China has sought to legitimize ``One Belt, One Road'' 
within the U.N. system, casting it as a ``global good,'' when really it 
is China's own initiative intended to advance its own interests. U.N. 
General Secretary Antonio Guterres has helped advance this legitimacy 
campaign. China even created a U.N. fund that would enable ``One Belt, 
One Road'' projects.

   If confirmed, will you use the voice and vote of the United States 
        to prevent China from inserting language on ``One Belt, One 
        Road'' into U.N. documents and statements, as they tried to do 
        in the 2019 U.N. Security Council resolution to extend the U.N. 
        special political mission in Afghanistan?

    Answer. Competition with China is one of the central challenges of 
the 21st century--and we need to compete with PRC economic statecraft. 
The Biden-Harris administration will provide an alternative vision that 
promotes democratic governance, transparency, and internationally 
recognized environmental, social and labor standards in it global 
health and development work, including its funding of infrastructure 
projects. If confirmed, I will take actions that directly counter PRC 
influence across the U.N. system and improve the institution's 
effectiveness and transparency, including by fighting against PRC 
efforts to add Chinese Communist Party language to U.N. documents and 
statements.

    Question. China created a U.N. fund outside normal U.N. processes 
and organizations in order to facilitate OBOR as a preferred instrument 
of the U.N. PRC nationals working for the U.N. have taken other steps 
to legitimize OBOR, including via the U.N.'s Department of Economic and 
Social Affairs. If confirmed, will you use the voice and vote of the 
United States to ensure the funding of infrastructure, development, and 
other issues goes through normal U.N. channels?

    Answer. We will distinguish our approach to development from 
China's by ensuring that economic viability, as well as social and 
environmental safeguards, are built into the projects we support. If 
confirmed, I will work with our allies and partners to secure the 
election of candidates who share our democratic values. If confirmed, I 
will also work with allies and partners to advocate for the highest 
environmental, social, and labor standards to promote development 
investments that are both beneficial and sustainable over the long 
term.

    Question. If confirmed, how will you approach the challenge of 
North Korea's nuclear weapons and ballistic missile programs? Do you 
believe that the stated goal of U.S. policy should continue to be 
denuclearization? In your view, what is the role of the U.N. in this 
challenge?

    Answer. The United States will continue to work closely with all 
countries to ensure the full implementation of all U.N. Security 
Council sanctions resolutions concerning North Korea. When effectively 
implemented, U.N. sanctions make it harder for the DPRK to acquire the 
technology, know-how, and funds to develop its nuclear and ballistic 
missile programs. If confirmed, I will work with others in the Biden 
administration to review the current sanctions regime and align its 
sanctions approach with its broader strategy and diplomatic approach 
for North Korea.

    Question. China is not enforcing U.N. Security Council resolutions 
with respect to North Korea. It still has 20,000 DPRK workers inside 
its borders; it is aware of dozens of money launderers, bank 
representatives, and others who support the North's weapons programs, 
yet has not expelled them; and its Navy and Coast Guard turn a blind 
eye to the North's smuggling activities. If confirmed, what will you do 
to press China to enforce U.N. Security Council resolutions?

   The PRC Government's implementation of DPRK sanctions measures has 
        unfortunately waned in recent years. While the DPRK's decision 
        to close its borders in response to COVID-19 has made it 
        difficult for countries to repatriate DPRK workers, China's 
        failure to implement the U.N. Security Council resolutions is 
        unacceptable.

    Answer. If confirmed, I will continue to call on all U.N. member 
states, including China, to fully implement all relevant the U.N. 
Security Council resolutions relating to North Korea. This 
administration, working in consultation with our allies, will review 
all options to enhance Beijing's commitment to implementing its U.N. 
sanctions obligations.

    Question. In addition to jailing U.S. embassy employees, Turkey is 
the second-worst jailer of journalists in the world, falling only 
behind China. If confirmed, how do you plan to make clear to Turkey, 
including through the mechanisms available to us at the U.N. and its 
constituent organizations, that these violations of democratic freedoms 
are fundamentally incompatible with the Euro-Atlantic community Turkey 
purports to be a member of? What consequences should Turkey face if it 
does not change course?

    Answer. The Biden administration will return human rights and the 
rule of law to our bilateral agenda. It will continue to both publicly 
and privately urge Turkey to respect human rights and fundamental 
freedoms, including the rights to freedom of expression, peaceful 
assembly, fair trials, and association that are important to any 
healthy democracy. In addition to ensuring proper focus on media 
freedom and freedom of expression in our own assistance and public 
affairs programming and diplomatic engagement, if confirmed, I will 
work with colleagues across the Biden administration and with our 
international partners to defend and advance fundamental freedoms.

    Question. The Turkish-controlled area of Northern Cyprus has 
recently elected a nationalist president who has strong relations with 
Turkish President Erdogan. Since its invasion of Cyprus in 1974, Turkey 
has militarized Northern Cyprus, stationing thousands of troops in the 
territory.

   What role should the U.N. take in Cyprus to prevent further Turkish 
        military buildup?

    Answer. I was pleased to see the unanimous renewal of the U.N. 
Peacekeeping Force in Cyprus (UNFICYP) on Friday, January 29, extending 
the mission's important work in preventing a resurgence of fighting 
between the Greek and Turkish Cypriot communities, supervising 
ceasefire lines, maintaining a buffer zone, and supporting the good 
offices of the Secretary-General for six months. If confirmed, I will 
work with my team to review additional steps the U.N. could take on 
Cyprus.

    Question. Is the United Nations Peacekeeping Force in Cyprus 
(UNFICYP), created in 1964, still fit for purpose for the today's 
dynamics on the island of Cyprus?

    Answer. I was pleased to see the unanimous renewal of the U.N. 
Peacekeeping Force in Cyprus (UNFICYP) on Friday, January 29, extending 
the mission's important work in preventing a resurgence of fighting 
between the Greek and Turkish Cypriot communities, supervising 
ceasefire lines, maintaining a buffer zone, and supporting the good 
offices of the Secretary-General for six months. If confirmed, I will 
work with my team to review additional steps the U.N. could take on 
Cyprus. The United States welcomes and stands ready to assist the U.N. 
Secretary-General's efforts to convene an informal 5+U.N. meeting at 
the earliest opportunity and facilitate a relaunching of political 
discussions.

    Question. What changes should be made to alter the island's 
dynamics and apply pressure on both sides to negotiate a settlement? In 
a move that will likely damage efforts to negotiate a settlement to the 
Cypriot divide, the new Northern Cypriot administration reopened 
Varosha, a beach abandoned for over four decades that served as a 
buffer between the two sides. The Republic of Cyprus has called the 
move illegal and provocative. What is the U.N.'s role in preventing 
further actions that destabilize the fragile peace and harm settlement 
negotiations?

    Answer. The United States supports a Cypriot-led comprehensive 
settlement to reunify the island as a bizonal, bicommunal federation, 
which would benefit all Cypriots, as well as the wider region. The U.S. 
welcomes and stands ready to assist the U.N. Secretary-General's 
efforts to convene an informal 5+UN meeting at the earliest opportunity 
and facilitate a relaunching of political discussions. Consistent with 
the October 2020 U.N. Security Council Presidential Statement, I am 
deeply concerned by the Turkish Cypriots' unilateral decision, with the 
support of Turkey, to reopen Varosha. If confirmed, I will urge a 
reversal of this decision.

    Question. During the two-month war between Armenia and Azerbaijan 
over the Nagorno-Karabakh region, both sides were documented as having 
committed human rights violations. Verified videos showed the 
decapitation of captives, the desecration of bodies, and extrajudicial 
executions. While Russia brokered a ceasefire, a long-term peace 
agreement was not reached. Do you believe that there is a role for the 
U.N. to play in Nagorno-Karabakh? If so, what kind of role might be 
most useful?

    Answer. The United States, as a Co-Chair of the OSCE Minsk Group, 
along with Russia and France, remains committed to helping Armenia and 
Azerbaijan negotiate a lasting peaceful resolution to the conflict. The 
Minsk Group Co-Chair-led process offers the best chance for lasting 
peace. The U.N. and individual member states should support Minsk Group 
Co-Chair efforts to help the sides negotiate a comprehensive and 
sustainable settlement of all remaining core substantive issues of the 
conflict. U.N. member states and U.N. institutions should take concrete 
steps to improve the humanitarian situation in Nagorno-Karabakh and 
other areas affected by the conflict in a coordinated way.

    Question. The U.S. relationship with Russia is at its lowest point 
in decades. Many of the traditional channels of dialogue have been 
slowly severed. At the same time, Russia has positioned itself at the 
center of many of the world's current conflicts, including Syria, 
Nagorno-Karabakh, Ukraine, and Libya. Over the past ten years, public 
sparring matches between U.S. and Russian officials have become 
increasingly common. In this position, how do you plan to confront 
Russia's malign international activities?

   How will you work with the Europeans, who have differing 
        perspectives on Russia, to ensure that U.S. allies at the U.N. 
        maintain a united view of the Russian threat and a united 
        response?

    Answer. President Biden has made clear the United States will act 
firmly in defense of its national interests in response to Russia's 
actions that harm us or our allies. Russia has used military force and 
other forms of coercion and intimidation in pursuit of a geopolitical 
agenda that is inimical to the rule of law and U.S. national interests. 
If confirmed, I will work in coordination with U.N. member states to 
confront Russia for its malign activities and hold it to account for 
its illegal and aggressive actions. The Biden administration is 
prepared to engage Moscow, both to increase the lines of communication 
that mitigate the risk of miscalculation between us and to advance U.S. 
interests.
    Strengthening and revitalizing the Transatlantic alliance is a key 
priority for the Biden-Harris administration. If confirmed, I look 
forward to facilitating deeper cooperation with European and other 
partners to develop common approaches to the challenge of confronting 
Russia and to advance other priorities.

    Question. Many have expressed grave concerns about Russia's human 
rights violations in Crimea, including a crackdown on the Crimean Tatar 
community. If confirmed, what additional actions will you take to hold 
Russian authorities accountable for their human rights abuses in 
Crimea?

    Answer. Russia's abuses in Crimea, which include harassment, 
arrest, and mistreatment of civil society activists, independent 
journalists, and religious minorities, as well as severe restrictions 
on the fundamental freedoms of expression, association and assembly, 
and religion and beliefs, must end immediately. If confirmed, I will 
work with allies and partners and urge U.N. member states to oppose 
Russia's occupation and attempted annexation of the Crimean Peninsula. 
I will also call on Russia to cease its human rights abuses in Crimea, 
including by advocating for broader support of the annual United 
Nations General Assembly human rights resolution on Crimea and pushing 
back against Russia's attempts to justify its occupation through 
disinformation at the UN.

    Question. The people of Belarus have peacefully protested the 
results of the August 9th fraudulent presidential election for nearly 
six months, and, in response, the Government of Alyaksandr Lukashenka 
has used violence and political repression to keep his grip on power. 
The European Union, Canada, the United Kingdom, and the United States 
have implemented coordinated sanctions on those government officials 
responsible. If confirmed, what will you do within the U.N. system to 
press for the release of political prisoners, including jailed 
journalists and opposition leaders, the freedom of journalists to 
operate in Belarus, and the resignation of Lukashenka?

   Will you continue to call for access by the U.N. Special Rapporteur 
        for the Situation of Human Rights in Belarus?

    Answer. The United States fully stands with the Belarusian people, 
and we support the sovereignty, independence, and territorial integrity 
of the Republic of Belarus. I am deeply concerned by the flagrant human 
rights abuses that have been committed by the authorities in Minsk 
against peaceful protesters demanding election transparency and 
accountability. I am also deeply troubled by Russia's willingness to 
intervene, including its insertion of journalists from Russian state-
controlled media into Belarusian state-controlled outlets, replacing 
Belarusian journalists and Belarusian technical personnel.
    I understand that the USUN Mission has been working with Estonia 
and other U.N. Security Council members to keep a focus on the 
democratic aspirations of the Belarusian people and on human rights 
abuses committed by the Lukashenka regime.
    If confirmed, I will review all options and renew our calls for 
Belarusian authorities to grant U.N. Special Rapporteur for the 
Situation of Human Rights in Belarus Anais Marin access to the country, 
in order to conduct a full inquiry.

    Question. What more can be done within the U.N. to bring peace and 
democracy to Belarus?

    Answer. The United States has been inspired by the Belarusian 
people, especially Belarusian women, peacefully demonstrating for the 
right to choose their own leadership. President Biden has already 
strongly condemned the Lukashenka regime for its violent and repressive 
tactics against opposition figures, journalists, and peaceful 
protesters and has called for dialogue between all stakeholders, the 
release of all political prisoners, and new elections. If confirmed, I 
will continue to highlight the issue at the U.N., including our 
continued calls in the U.N. Security Council for Belarusian authorities 
to afford U.N. Special Rapporteur for the Human Rights Situation in 
Belarus Anais Marin access to Belarus in accordance with her mandate.

    Question. How will you work with UNSC members that have been 
engaged during the crisis, such as Estonia and Norway, to work toward a 
resolution?

    Answer. The Biden administration will continue to evaluate the 
situation on the ground to determine appropriate next steps to support 
the Belarusian people and their right to choose their own leaders via 
free and fair elections. The United States will continue working with 
Estonia and other Security Council members and focus on the democratic 
aspirations of the Belarusian people and on human rights abuses 
committed by the Lukashenka regime. For example, the United States co-
sponsored U.N. Arria-Formula meetings on human rights in Belarus in 
September 2020 and media freedom in Belarus in January 2021 to continue 
to spotlight the issue. If confirmed, I will also continue coordinating 
with likeminded partners on sanctions for those responsible for 
violence.

    Question. In his responses to Questions for the Record, Secretary 
of State-designate Antony Blinken stated that, ``The most effective way 
to address the pressing global challenges we face-including China but 
also COVID-19 and climate change-is alongside partners who share our 
values and interests. The [Biden] administration recognizes the 
challenges that China poses to our democracy and Europe's liberal 
democracies and views the time as ripe for greater cooperation on the 
full range of challenges that China poses, including to democracy, and 
in the technology, trade, and investment realms.'' How do you plan to 
work with allies--particularly our allies France and the United Kingdom 
on the Security Council--to stand up to China both within the U.N. 
system and around the world?

    Answer. The United States is committed to confronting the 
challenges posed to liberal democracies and the international rules-
based system by China. We will address these challenges from a position 
of strength in which we work closely with our allies and partners. We 
will not just mend our alliances; we will modernize them for the world 
we face. The United States will re-engage and lead in international 
institutions and push back against attempts to rewrite the rules and 
norms that animate those institutions. China's failure to uphold its 
past international commitments is a significant factor in how we will 
develop our approach to China. If confirmed, I will be clear-eyed and 
will keep these past shortcomings in mind as we deal with Beijing going 
forward.

    Question. Progress implementing U.N. Security Council Resolution 
(UNSCR) 2254 has been uneven at best. The Constitutional Committee's 
work is routinely met with Syrian regime obstruction; parties have been 
unable to achieve a nation-wide ceasefire; and the Assad regime 
continues to cling to power despite calls for free and fair elections.

   Please provide your views on the United States' role in Syria and 
        accelerating progress on UNSCR 2254.

    Answer. The United States remains an important leader on Syria 
policy. The Biden-Harris administration will support the work of the 
U.N. Special Envoy for Syria in facilitating a political settlement to 
the conflict consistent with UNSCR 2254 with high level diplomacy, 
coordinate with our allies and partners, and advocate through the U.N. 
Security Council. We will use the tools at our disposal, including 
economic pressure, to push for meaningful reform and accountability, 
while maintaining our counterterrorism efforts. If confirmed, I will 
help restore U.S. leadership in providing humanitarian aid, and support 
a political settlement that addressed the underlying causes of the 
conflict.

    Question. U.S. Syria policy is broadly governed by UNSCR 2254 and 
associated sanctions regimes. Does Bashar al Assad's expanded military 
control change alter the prospects of a political settlement under 
UNSCR 2254?

    Answer. While the Assad regime controls most of Syria, its 
authority is weak, and some of the most economically productive 
territory--namely the northeast--remains outside of its control. The 
Biden-Harris administration will renew U.S. efforts to promote a 
political settlement to end Syria's horrific civil war, in close 
consultation with allies, partners, and the U.N., and by making sure 
U.S. diplomats are back at the table.

    Question. Do we need a new construct or UNSCR for Syria policy?

    Answer. The Biden-Harris administration will renew U.S. efforts to 
promote a political settlement to end Syria's horrific civil war, in 
close consultation with our allies, partners, and the U.N., and by 
making sure U.S. diplomats are back at the table. The administration 
intends to use the tools at its disposal, including economic pressure, 
to push for meaningful reform and accountability, and will continue to 
support the U.N.'s role in negotiating a political settlement 
consistent with UNSCR 2254. A political settlement must address the 
underlying causes that led to nearly a decade of civil war.

    Question. What is the linkage between U.S. troop levels in Syria; 
countering the Islamic State; blunting Iranian designs; influencing 
Turkey's and Russia's calculus in Syria; and associated impacts on 
political UNSCR 2254 discussions?

    Answer. Preventing an ISIS resurgence in Iraq and Syria, as well as 
addressing the threats posed by its affiliates and networks beyond the 
Middle East, demands revitalized U.S. engagement, along with our 
partners and allies in the Global Coalition to Defeat ISIS. 
Accordingly, President Biden has expressed support for maintaining U.S. 
forces in northeast Syria to prevent the group's resurgence. The Biden-
Harris administration will be open to dialogue with Russia on Syria as 
long as it contributes to protecting civilians and to credibly moving 
the conflict toward a political solution. We will also continue to 
deconflict military operations with Russia, so that pressure is 
sustained on ISIS remnants in Syria. Turkey's concerns with respect to 
U.S. Syrian Kurdish partners in the fight against ISIS have not 
changed. We will consult with Ankara and seek areas for cooperation on 
Syria. The Biden-Harris administration will support the work of the 
U.N. Special Envoy for Syria with high level diplomacy, coordinate with 
our allies and partners, and advocate through the United Nations 
Security Council. If confirmed, I will support the work of the 
constitutional committee that is called for by United Nations Security 
Council Resolution 2254 and renew U.S. efforts to promote a political 
settlement to end Syria's terrible civil war.

    Question. What relative effect would a U.S. troop withdrawal have 
on U.S. influence over future negotiations?

    Answer. There is no military solution to end the war in Syria. The 
only path forwarded is a negotiated political settlement.

    Question. Russia's permanent representative to the U.N. has stated 
that they will not support a continuation of cross-border operations 
from Turkey into Syria when the mandate is up for renewal later this 
year. As I am sure you are aware, this is extremely dangerous as 
millions of Syrians rely on cross border operations for food, water, 
and humanitarian assistance. What is your strategic plan to keep the 
last remaining border crossing open? How will you engage diplomatically 
with Russia and our on-the-ground partners?

    Answer. If confirmed, I will work to open up avenues fort 
humanitarian assistance to get to the neediest people in Syria. The 
Biden-Harris administration will renew U.S. efforts to promote a 
political settlement to end Syria's terrible civil war, in close 
consultation with allies, partners, and the U.N. and by making sure 
U.S. diplomats are back at the table. We will restore U.S. leadership 
in providing humanitarian aid. Syria is a humanitarian catastrophe, and 
we must do more to aid vulnerable Syrians displaced within Syria, as 
well as refugees who fled abroad.

    Question. A recent U.N. expert report on Libya accused the warring 
parties and their international backers-the United Arab Emirates, 
Russia and Egypt on one side and Turkey and Qatar on the other-of 
violating the arms embargo with total impunity.

   How do you plan to address reported violations of the U.N. arms 
        embargo?

    Answer. The United States opposes all foreign military intervention 
in Libya and strongly supports the October 23 Libyan ceasefire 
agreement. This includes the immediate withdrawal of all foreign 
forces, proxies, and mercenaries. If confirmed, I will publicly urge 
the international community to honor commitments made in the Berlin 
Process and call on all external parties in both public and private 
engagements to honor the U.N. arms embargo, investigate any lines of 
external financing prolonging the conflict, and support the U.N. 
political process.

    Question. How do you impose costs on arms embargo violators without 
harming U.S. objectives in other areas?

    Answer. The United States, at the highest levels, engages 
stakeholders on all sides of the conflict--both Libyan and 
international--to encourage restraint and advance a U.N.-facilitated 
political solution that respects the sovereignty of the Libyan people 
and protects the shared interests of the United States, our allies, and 
partners. The United States closely engages in the Berlin Process, 
which provides a forum to press Russia, Turkey, the UAE, and other 
foreign actors to adhere to their commitments to uphold the arms 
embargo. If confirmed, I will continue to support the U.N.-facilitated 
process and will be looking for ways the United States can best 
leverage our influence over external actors in Libya to promote 
adherence to the Libya arms embargo.

    Question. The war in Yemen is entering its seventh year. How 
effective does the Biden administration think the international 
approach has been since 2015? How can the United States promote a more 
effective engagement to end the war? What changes are needed to do 
this?

   Do you believe UNSCR 2216 properly reflects the current context in 
        Yemen? Will the Biden administration seek to modify this UNSCR?

    Answer. I commit to working with partners in the region, U.N. 
Security Council members, the U.N. Special Envoy for Yemen, and 
Congress to see how we can best re-energize the peace process. To that 
end, the President has committed to revitalize diplomacy, working with 
the United Nations and others, to end the war in Yemen.
    UNSCR 2216 condemns in the strongest terms the Houthis' unilateral 
actions and disregard of the demands of UNSCR 2201, reminding us that 
the Houthis' actions are ultimately responsible for the start of the 
conflict; establishes a targeted UNSC arms embargo for Yemen; and 
reaffirms the support of the Council for President Hadi as the head of 
the legitimate government of Yemen. That said, given the challenges the 
international community has faced in securing a political resolution to 
the prolonged conflict in Yemen, the United States is prepared to 
consider all proposals to revitalize diplomatic efforts to end the 
conflict and humanitarian crisis in Yemen.

    Question. How do you plan to support the work of the Special Envoy 
of the Secretary General for Yemen, Martin Griffiths? What specific 
tools is the Biden administration prepared to use to advance Special 
Envoy Griffiths' efforts to reach a political resolution to the 
conflict?

    Answer. If confirmed, I commit to working with U.N. Security 
Council members, the U.N. Special Envoy, and Congress to see how we can 
best re-energize the peace process. As for the U.N. process, we look 
forward to redoubling U.S. efforts to support U.N. Special Envoy Martin 
Griffiths in his work.
    Our hope is that by engaging with our partners in the region, we 
can apply the appropriate leverage we need to bring the Republic of 
Yemen Government and the Houthis back to the table. We believe a 
renewed commitment to U.S. diplomacy and expanded humanitarian access 
can help create conditions for the parties to reach a compromise. Given 
the challenges the international community has faced in securing a 
political resolution to the prolonged conflict in Yemen, the United 
States will consider all proposals to revitalize diplomatic efforts to 
end the conflict and humanitarian crisis in Yemen.

    Question. The Biden administration has indicated it intends to open 
a review of the designation of the Houthis as a Foreign Terrorist 
Organization (FTO). While the designation of the Houthi movement is 
under review, can you commit to using all available tools under the law 
to ensure that the designation does not impair humanitarian access, and 
to working with the U.N. to that effect? Will you commit to pressure 
other countries to increase financial pledges to the U.N.'s 
humanitarian response plan for Yemen? How can the United States most 
effectively use its position on the Security Council to bolster the 
U.N.'s humanitarian response in Yemen?

    Answer. We share bipartisan Congressional concerns about the 
effects of the previous administration's decision to designate 
Ansarallah as a foreign terrorist organization and a specially 
designated global terrorist. The administration takes seriously the 
warnings from the United Nations and international humanitarian 
organizations that these designations could lead to a wide-scale 
famine, and recognizing the potential impacts of the designations on 
the situation in Yemen, the Department of State has initiated a review 
of this decision.
    While this review is ongoing, the Department is making the 
strongest possible efforts to reduce impediments to the delivery of 
humanitarian aid and the import of essential goods and has engaged in 
extensive outreach to our partner nations, donor nations, and the wider 
humanitarian community in conjunction with the Department of the 
Treasury and Department of Justice.
    Pledges to this past year's humanitarian response plan for Yemen 
were dismally low. If confirmed, I commit to re-energizing efforts and 
outreach to partners not only to fulfill their pledges but to commit 
more, knowing that these funds are necessary to keep Yemen from sliding 
into humanitarian catastrophe.
    The administration intends to fully re-engage in multilateral 
discussions to end the war in Yemen, especially through the U.N. 
Security Council and our support of UNSE Griffiths.

    Question. How can the U.N. provide leverage in negotiations between 
the Taliban and the Government of Afghanistan? What are your views on 
the U.N. delisting the Taliban? What is the role of the U.N. in 
safeguarding the gains made over the past 20 years for Afghanistan's 
women, minorities, and youth?

    Answer. The United States will support the peace process with a 
robust and regional diplomatic effort, including continuing to engage 
the United Nations to help advance negotiations between the Islamic 
Republic and Taliban negotiating teams. If confirmed, I will join the 
administration in closely reviewing what the United States has 
negotiated regarding Afghanistan. This review will cover all elements 
of the U.S.-Taliban Agreement, including diplomatic engagement with the 
United Nations Security Council on potential sanctions relief. Through 
the United Nations Assistance Mission in Afghanistan (UNAMA), the 
United Nations leads and coordinates international efforts to support 
peace and stability in Afghanistan, including the protection and 
promotion of human rights, women's and girls' empowerment, and 
meaningful participation and engagement of women in decision-making 
processes.

    Question. The United Nations Interim Force for Lebanon (UNIFIL) has 
received criticism for failing to curb the flow of lethal assistance to 
Hezbollah. Further, the local populace and Hezbollah routinely 
interdict UNIFIL patrols along the Blue Line and prevent UNIFIL from 
accomplishing its directed missions. Despite the discovery of tunnels 
in 2018, the Lebanese Armed Forces refused to investigate these 
incursions. During 2020 negotiations to renew UNIFIL's mandate, the 
Trump administration successfully lobbied for a reduction in UNIFIL's 
authorized troop levels.

   Please provide your detailed views on the effectiveness of UNIFIL 
        in upholding UNSCR 1701, the maritime component, the trilateral 
        mechanism, and views on associated troop and funding levels.

    Answer. The President is committed to working with our allies and 
partners to counter Iran's destabilizing activities in the region, 
including its provision of weapons to the violent groups it backs. The 
United States will redouble our efforts regarding enforcement of United 
Nations Security Council arms embargoes such as those relating to 
Lebanon and Yemen. If confirmed, I will ask my team to review the U.N. 
Interim Force in Lebanon's (UNIFIL) performance and mandate against its 
troop and funding levels.

    Question. What are your recommendations to improve UNIFIL's 
execution of its mandate?

    Answer. The President is committed to working with our allies and 
partners to counter Iran's destabilizing activities in the region, 
including its provision of weapons to the violent groups it backs. The 
United States will redouble its efforts regarding enforcement of other 
United Nations Security Council arms embargoes such as those relating 
to Lebanon and Yemen. If confirmed, I will ask my team to review the 
U.N. Interim Force in Lebanon's (UNIFIL) performance and provide me 
additional recommendations to enhance the mission's execution of its 
mandate.

    Question. How do you balance troop-contributing nations' aversion 
to mandate revision and making UNIFIL more mission effective?

    Answer. Periodic mission mandate review and renewal is essential to 
ensuring that the U.N. Security Council retains oversight and control 
over missions and their mandates. If confirmed, I am committed to 
working with the Secretariat and member states to improve performance 
in U.N. peacekeeping, which will further increase the efficiency of 
missions and ensure that U.S. taxpayer dollars are being put to good 
use. If confirmed, I will ask my team to review the U.N. Interim Force 
in Lebanon's (UNIFIL) performance and provide me additional 
recommendations to enhance the mission's execution of its mandate.

    Question. What are your views on revising UNIFIL's mandate to 
include private property?

    Answer. If confirmed, I will ask my team to review the U.N. Interim 
Force in Lebanon's (UNIFIL) performance and provide me additional 
recommendations to enhance the mission's execution of its mandate.

    Question. The United Nations Investigative Team to Promote 
Accountability for Crimes Committed by Da'esh/ISIL (UNITAD) is charged 
with preserving and documenting war crimes committed by the Islamic 
State.

   Given the scope of the Islamic State's crimes, is UNITAD 
        effectively resourced to accomplish it mission?

    Answer. UNITAD's core funding from U.N. assessed contributions is 
complemented by a voluntary trust fund, to which the United States has 
provided almost $9 million. I understand that, to overcome challenges 
posed by COVID-19 and the security environment in Iraq, UNITAD has 
developed innovative uses of technology, remote interviewing, and 
storage for remote and in-person work. If confirmed, I will review this 
work and opportunity to strengthen it to ensure the broadest possible 
use in national courts, and complements Iraqi and third-country 
investigations.

    Question. What is UNITAD's role in broader Iraqi reconciliation 
efforts post-Islamic State?

    Answer. The U.N. Investigative Team to Promote Accountability for 
Crimes Committed by Da'esh/ISIL (UNITAD), at the request of the 
Government of Iraq and with the assistance of the international 
community, seeks to ensure that ISIS members are held accountable for 
their crimes in Iraq. I understand that UNITAD works to be impartial, 
independent, and credible, consistent with the U.N. Charter, best 
practices, and relevant international law, including international 
human rights law.

    Question. What challenges does the Iraqi judicial system present 
for UNITAD's mission and how do we overcome those challenges?

    Answer. Iraq's judiciary is weak and susceptible to political 
influence, coercion, and threats of violence. I understand that UNITAD 
operates with the consent of the Iraqi Government and is mandated to 
support investigations and prosecutions in the Iraqi judiciary. This 
helps build Iraq's capacity for fair trials free of outside influence, 
as do State Department programs to improve due process, implement 
reforms, and safeguard human rights in Iraq's judiciary.

    Question. What would you tout as UNITAD's accomplishments? Its 
shortcomings?

    Answer. I understand UNITAD is impartial and independent and 
operates consistent with the U.N. Charter, best practices, and relevant 
international law, including international human rights law, and 
engages with all communities affected by ISIS's crimes, ensuring the 
experiences of Iraq's religious and ethnic communities are addressed. 
UNITAD's expanded cooperation with the Iraqi Government will contribute 
to successful prosecutions of ISIS members. I understand that COVID-19 
and the security environment in Iraq have complicated UNITAD's work to 
collect, preserve, and store evidence of potential war crimes, crimes 
against humanity, and genocide.

    Question. In September 2020, the U.N. Independent International 
Fact Finding Mission on Venezuela cited evidence of unlawful 
executions, forced disappearances, arbitrary detentions and torture in 
the country since 2014, including evidence that Nicolas Maduro and 
senior members of his regime ordered or contributed to what amounted to 
crimes against humanity in Venezuela. In December 2020, the General 
Secretariat of the OAS raised concerns about the failure of the chief 
prosecutor of the International Criminal Court (ICC) to act upon the 
allegations of the September 2020 U.N. report.

   Do you support the ICC opening a formal investigation into the 
        allegations raised in the September 2020 report by the U.N. 
        Independent International Fact Finding Mission on Venezuela?

    Answer. The reports of the OAS General Secretariat and the U.N. 
Fact Finding Mission documented human rights abuses, including 
extrajudicial killings and torture. The ICC Prosecutor stated on 
December 14, 2020, that there is a reasonable basis to believe that 
Maduro regime authorities committed crimes against humanity. The ICC 
Prosecutor expects to determine in 2021 whether to open a full 
investigation. While we continue to have strong concerns about the 
Court's activities in Afghanistan and Israel, and remain committed to 
protecting U.S. personnel, there may be exceptional cases where we 
consider cooperating with the court as we sometimes have in the past. 
We will have to weigh the interests at stake on a case-by-case basis.

    Question. If confirmed, do you commit to use the voice and vote of 
the United States at the United Nations to bring perpetrators of human 
rights abuses in Venezuela to justice?

    Answer. Yes. If confirmed, I will seek to work with partners to 
rebuild multilateral pressure on the Maduro regime, call for the 
release of political prisoners, and consider all appropriate tools, 
including sanctions, to promote accountability for those responsible 
for human rights abuses and corruption.

    Question. Guatemala, El Salvador, and Honduras have signed Asylum 
Cooperative Agreements (ACAs) with the United States, which, in part, 
aims to allow migrants to seek protection within the region by 
facilitating cooperation between the U.S. and host nation governments 
or international organizations to expand their systems for offering 
humanitarian protections. If confirmed, what steps would you take to 
support cooperation between the United Nations High Commissioner for 
Refugees (UNHCR) and the Governments of El Salvador, Guatemala, and 
Honduras to enhance their refugee settlement capacity?

    Answer. The United States will continue to support UNHCR and other 
international organization partners to work with the Governments of El 
Salvador, Guatemala, and Honduras to develop their asylum systems, 
while recognizing this is a long-term endeavor and must be approached 
incrementally to yield sustainable results. We will continue 
contributing to UNHCR's support of the Comprehensive Regional 
Protection and Solutions Framework (MIRPS), including efforts to 
protect and assist internally displaced persons in these countries. We 
will prioritize efforts to support Governments in the region to address 
the root causes of displacement and to protect and assist those 
displaced by violence, persecution, poverty, and natural disasters.

    Question. In April 2018, the Ortega regime's violent crackdown of 
protests left at least 325 people dead; over 2,000 injured; hundreds 
illegally detained, tortured, and disappeared; and more than 80,000 
exiled in neighboring countries. The 2019 State Department's Report on 
Human Rights in Nicaragua cited ``numerous reports that the Government 
or its agents committed arbitrary or unlawful killings'' during the 
repression. In December 2018, the Interdisciplinary Group of 
Independent Experts established by the Inter-American Commission of 
Human Rights issued a report confirming that the actions taken by the 
Government of Nicaragua ``must be considered crimes against humanity.'' 
The Office of the U.N. High Commissioner for Human Rights describes 
Nicaragua as suffering from a ``climate of widespread terror.'' If 
confirmed, would you support the creation of a U.N. Independent Fact 
Finding Mission on Nicaragua to investigate allegations of crimes 
against humanity committed by the Ortega regime?

    Answer. The United States has condemned the ongoing campaign of 
repression and human rights abuses perpetrated by the Ortega regime and 
has raised serious concerns in light of the findings by independent 
experts and the OAS High Level Commission investigation on Nicaragua. 
If confirmed, I would advocate the use of the broad set of available 
U.N. policy tools to address the worsening crisis and the U.S. 
Government's human rights concerns in Nicaragua.

    Question. Nicaragua is expected to hold general elections in 
November. In October 2020, the Organization of American States adopted 
a resolution (AG/RES.2962 (L-O/20)) calling for the restoration of 
democratic institutions and respect for human rights in Nicaragua 
through free and fair elections. The resolution listed a series of 
concrete measures that must be included in any meaningful electoral 
reforms ahead of the November elections. If confirmed, do you commit to 
seek U.N. support for the implementation by Nicaragua of the measures 
contained in OAS Resolution AG/RES.2962 (L-O/20)?

    Answer. Nicaraguans seek free and fair elections in their country, 
as do likeminded members of the international community. We urge the 
Ortega regime to take concrete actions now to restore democracy by 
supporting the reforms necessary to allow the conditions for free and 
fair elections; ceasing repression against Nicaraguans calling for 
democracy; and fully and unconditionally releasing arbitrarily detained 
persons. If confirmed, I will work to garner increased international 
support for coordinated diplomatic pressure, including through U.N. 
mechanisms, to advance the objectives of the October OAS Resolution on 
restoring democracy and respect for human rights in Nicaragua.

    Question. A group of Cuban doctors have filed a federal lawsuit 
against the Pan American Health Organization (PAHO) alleging that the 
PAHO organized and unduly profited from Cuba's ``Mais Medicos'' program 
in Brazil between 2013 and 2018, which they charge violated the 
Trafficking Victims Protection Reauthorization Act. The PAHO has 
generally played a positive role in Latin America, but it is deeply 
troubling for an organization that receives tens of millions of U.S. 
taxpayer dollars every year to have allegedly participated in and 
profited from forced labor, much less ignore U.S. laws with respect to 
Cuba with impunity.

   What steps would you take to hold the PAHO accountable for its 
        actions related to the Mais Medicos program between 2013 and 
        2018?

    Answer. If confirmed, I commit to reviewing the issue and the U.S. 
Government's current policy approach to determine if any adjustments 
are necessary. The United States has engaged with PAHO leadership to 
increase PAHO's transparency and accountability and protect U.S. 
interests. PAHO has been a key international partner in the fight 
against COVID-19, providing PCR tests, PPE, and training to the region. 
If confirmed, I look forward to continued engagement with PAHO to 
strengthen health care systems in the Americas and combat COVID-19 and 
to increase transparency and accountability, including with respect to 
the investigation of allegations related to the Mais Medicos program

    Question. If confirmed, do you commit to work to push the PAHO to 
implement necessary governance changes to ensure increased oversight of 
future projects or programs such as Mais Medicos?

    Answer. The United States has engaged with PAHO leadership to 
increase PAHO's transparency and accountability and protect U.S. 
interests. The United States, with support from multilateral partners, 
proposed governance reforms. PAHO's Directing Council approved the 
reform proposal in September 2020 by consensus. PAHO has been a key 
international partner in the fight against COVID-19, providing PCR 
tests, PPE, and hundreds of trainings to the region. We look forward to 
continued engagement with PAHO to strengthen health care systems in the 
Americas and combat COVID-19.

    Question. In response to pressure from the Trump administration, 
the PAHO retained an outside law firm to conduct an ``administrative 
review'' of its actions related to the Mais Medicos program between 
2013 and 2018. However, the review has turned out to be an opaque 
process and the Department claims to have no oversight role on the 
process.

   Do you believe such a review offers any possibility of 
        accountability by the PAHO to either the victims or to U.S. 
        taxpayers, whose money funds a significant portion of PAHO's 
        activities?

    Answer. If confirmed, I commit to reviewing the issue and the U.S. 
Government's current policy approach to determine if any adjustments 
are necessary. The United States has engaged with PAHO leadership to 
increase PAHO's transparency and accountability and protect U.S. 
interests. PAHO has been a key international partner in the fight 
against COVID-19 providing PCR tests, PPE, and hundreds of trainings to 
the region. We look forward to continued engagement with PAHO to 
strengthen health care systems in the Americas and combat COVID-19.

    Question. If confirmed, do you commit to inform the Committee about 
the administrative review process and its results?

    Answer. If confirmed, I commit to reviewing the issue and the U.S. 
Government's current policy approach to determine if any adjustments 
are necessary. I look forward to consulting with Congress on this 
important issue.

    Question. On November 23, 2020, then-President-elect Joe Biden 
announced that he intended to appoint former Secretary of State John 
Kerry to be a ``Special Presidential Envoy for Climate.'' The 
announcement stated that Secretary Kerry: will fight climate change 
full-time as Special Presidential Envoy for Climate and will sit on the 
National Security Council. This marks the first time that the NSC will 
include an official dedicated to climate change, reflecting the 
president-elect's commitment to addressing climate change as an urgent 
national security issue.

   What is the chain of command for this new position and to whom will 
        the officeholder report?

    Answer. Special Presidential Envoy for Climate Kerry reports 
directly to President Biden and will sit on the National Security 
Council. If confirmed, I plan to work closely with Special Presidential 
Envoy Kerry and his team to advance our climate work in the United 
Nations. The Envoy's team will be housed at the State Department. I 
understand that his climate diplomacy work will be closely coordinated 
with the Department's, including the U.S. Mission to the United 
Nations, and with the Biden-Harris administration's broader diplomatic 
engagement.

    Question. What will the role of the U.S. Ambassador to the U.N. be 
with respect to this position?

    Answer. If confirmed, I plan to work closely with Special 
Presidential Envoy Kerry and his team to advance our climate work in 
the United Nations. The Envoy's team will be housed at the State 
Department. I understand that his climate diplomacy work will be 
closely coordinated with the Department's, including the U.S. Mission 
to the United Nations, and with the Biden-Harris administration's 
broader diplomatic engagement.

    Question. Does the use of special envoys have the potential to 
create confusion within the State Department and within the U.S. 
Mission to the U.N. in terms of overlapping authorities and unclear 
organizational charts? If so, how would you avoid such confusion? If 
not, why not?

    Answer. Not at all. I view this as an opportunity to advance U.S. 
diplomacy. Having someone uniquely experienced in international climate 
change policy and diplomacy is exactly why Secretary of State Blinken 
is so enthusiastic about this partnership. I am confident that this 
deep bench of experience and talent is the right way to address this 
profoundly important issue, which the President has identified as one 
of four crises that will define his presidency. This is an all-hands-
on-deck moment, and everyone is working together to get the job done. 
If confirmed, I look forward to being part of these efforts.

    Question. Do you commit to ensuring that there is no duplication of 
effort among Mr. Kerry's staff and the U.S. Mission to the U.N.?

    Answer. Yes. I am confident that everyone will work together to get 
the job done. There is a clear delineation between the role of the 
Special Presidential Envoy for Climate and that of the U.S. Ambassador 
to the U.N. If confirmed, I know we will maintain open lines of 
communication to ensure we work together as efficiently and effectively 
as possible and our teams will do the same.

    Question. Please describe your position in the Cabinet. To whom 
will you directly report-the President? The Secretary of State? Special 
Envoy Kerry with respect to climate matters?

    Answer. If confirmed, as a member of the Biden Cabinet, I would 
report to the President but would work in lockstep with the Secretary 
of State to ensure U.S. leadership at the United Nations reinforces his 
global efforts to advance U.S. national interests.



                               __________


       Responses to Additional Questions for the Record Submitted
       to Hon. Linda Thomas-Greenfield by Senator Robert Menendez

    Question. Under the Trump administration, the United States 
consistently advocated for removing references to sexual and 
reproductive health care from U.N. documents, including at critical 
spaces for women's rights like the Commission on the Status of Women. 
The United States previously supported many agreements, including 
signing the International Conference on Population and Development 
Programme of Action and Beijing Platform for Action which support 
comprehensive sexual and reproductive health and rights and bodily 
autonomy. Can you commit that the United States will resume its support 
for sexual and reproductive health and rights in U.N. negotiations?

    Answer. Yes. The United States supports women's and girls' sexual 
and reproductive health and reproductive rights, and our stance in U.N. 
negotiations will reflect that support. This is part of our broader 
commitment to promoting women's health and advancing gender equality in 
the United States and throughout the world.

    Question. Under the Trump administration, the United States 
consistently advocated for removing references to sexual and 
reproductive health care from U.N. documents, including at critical 
spaces for women's rights like the Commission on the Status of Women. 
The United States previously supported many agreements, including 
signing the International Conference on Population and Development 
Programme of Action and Beijing Platform for Action which support 
comprehensive sexual and reproductive health and rights and bodily 
autonomy. Will you commit to ensuring that the United States' 
engagement in the U.N. incorporates gender throughout, and that the 
United States will become a leader in closing this gap not as an 
isolated issue, but as one that is core to global economic policy and 
growth?

    Answer. Yes. The United States supports women's and girls' sexual 
and reproductive health and reproductive rights. Keeping women and 
girls healthy, including through access to sexual and reproductive 
health care, enhances their ability to advance their education and 
contribute to the economic prosperity of their families, communities, 
and nations, and ultimately to peace and security. If confirmed, when 
engaging with my counterparts at the U.N., I commit to ensuring that 
gender issues are incorporated throughout as we consider how the 
policies and programs under discussion will affect women and girls.

    Question. The U.N. Population Fund (UNFPA) is the United Nations' 
sexual and reproductive health agency. UNFPA supports reproductive 
health care for women and youth in more than 150 countries which are 
home to more than 80 per cent of the world's population. In 2018, UNFPA 
began a concentrated effort to achieve three zeros by 2030 -- zero 
unmet need for contraception, zero preventable maternal deaths, and 
zero gender-based violence and harmful practices, such as child 
marriage and female genital mutilation. U.S. partnership is essential 
to meeting these goals. UNFPA also provides reproductive health and 
family planning assistance to women and girls in humanitarian settings 
including war and natural disasters. If you are confirmed, how do you 
envision working with the U.N. Population Fund and what is your plan 
for supporting both UNFPA's core work as well as its important 
assistance to women and girls in humanitarian settings?

    Answer. The United States is committed to working closely with 
UNFPA as a partner both for its core mission and addressing 
humanitarian situations globally. If confirmed, I am committed to 
working to restore funding to UNFPA and ensuring robust engagement with 
the agency. Voluntary access to contraceptives, prevention of gender-
based violence, and programming that is responsive to women's health, 
including their sexual and reproductive health, will be critical 
components in U.S. global health, development, and humanitarian 
assistance.

    Question. You have worked in many countries where women and girls 
face extremely high rates of sexual and gender-based violence, where 
rape has been used as a weapon of war, and where survivors face stigma 
in their own communities. Since the outbreak of COVID-19, emerging data 
and reports from those on the front lines have shown that all types of 
violence against women and girls, particularly domestic violence, has 
intensified. How can the United States better lead to prevent these 
types of violence and support survivors?

    Answer. Preventing and responding to gender-based violence (GBV) 
globally is a cornerstone of the U.S. Government's commitment to 
advancing human rights and promoting gender equality. I share your 
concern about the increased incidence of GBV coinciding with social 
isolation and the loss of traditional social protection mechanisms 
during the COVID-19 pandemic. If confirmed, I fully commit to 
prioritizing this issue to strengthen GBV prevention and provide needed 
support to survivors, and to ensuring that the U.S. will work with 
international partners, including relevant U.N. agencies, to put a 
focus on GBV prevention and response.

    Question. Under the Trump administration, civil society advocates 
from other countries were routinely denied visas to attend U.N. 
meetings, including feminist leaders and women's human rights defenders 
who intended to participate in the annual Commission on the Status of 
Women. Do you commit to working with the State Department and U.N. to 
ensure that visa applications from civil society representatives to 
come to the United States for access to U.N. negotiations are given 
priority review and fairly evaluated in accordance with all applicable 
laws?

    Answer. The United States values and supports the participation of 
human rights defenders and civil society activists at U.N. meetings, 
and if confirmed I commit to pursuing robust engagement with civil 
society, including women human rights defenders, and to ensure 
applicants seeking to attend U.N. negotiations can request expedited 
visa appointments and generally receive priority processing in 
accordance with local conditions and our obligations under the U.N. 
Headquarters Agreement.

    Question. A Report of the High-Level Independent Panel on U.N. 
Peace Operations stated, ``Engaging with host countries and local 
communities must increasingly be regarded as core to mission success. 
By shifting from merely consulting with local people to actively 
including them in their work, missions are able to monitor and respond 
to how local people experience the impact of peace operations." 
However, the gap between civil society and Member States at the U.N. 
and between civil society and the U.N. headquarters has increased, 
especially in recent years. As U.N. Ambassador, what steps will you 
take to be more inclusive of civil society, including women- and youth-
led groups, and actively engage with NGOs in general and the NGO 
Working Group to the Security Council in particular? Will you appoint 
and reinstate an NGO liaison/focal point (which existed prior to the 
last administration)? Will you reinstitute periodic meetings with NGOs?

    Answer. If confirmed, I will work with civil society, including 
women- and youth-led groups, and will actively engage with NGOs, 
including the NGO Working Group to the Security Council. The Committee 
on Non-Governmental Organizations has become increasingly politicized, 
making accreditation for human rights organizations that are critical 
of certain member states very difficult. The committee includes some 
restrictive governments and reflects the global trend toward 
restricting civic space. If confirmed, I will encourage likeminded 
countries to run to increase the number of members who are committed to 
protecting civic space and civil society. If confirmed, I will ensure 
NGOs are able to liaise effectively with the U.S. Mission to the U.N.

    Question. The Organization for Economic Cooperation and Development 
(OECD) recently reported that the eradication of poverty will remain 
out of reach for many countries unless the global community immediately 
prioritizes efforts to reduce fragility. By 2030, more than half of the 
world's people living in poverty will likely be living in countries 
affected by high levels of violence. Yet, only a fraction of spending 
goes toward preventing and reducing violent conflict and building 
sustainable peace. In your role as U.S. Ambassador to the United 
Nations, how will you work to advocate for U.S. policies and funding to 
address the causes of violent conflict and fragility and increase 
global leadership to resolve protracted conflicts?

    Answer. If confirmed, preventing violent conflict and addressing 
fragility will be one of my top priorities. I will work with the U.N. 
and member states to more proactively address the drivers of conflict 
and improve coordination on humanitarian, development, and peacekeeping 
efforts in the U.N. Security Council, the U.N. General Assembly, and 
across the U.N. system. I will work to ensure that climate change is 
understood as a source of fragility and a driver of conflict, and I 
will ensure that the United States not only re-engages in critical U.N. 
debates on climate and security, but returns to a leading role in 
combatting climate change worldwide. I will leverage the tools in the 
Global Fragility Act of 2019 to address fragility. I will also work to 
prioritize the meaningful participation of women in conflict 
resolution, as countries with higher rates of gender inequality are 
more vulnerable to conflict. If confirmed, I will also use my position 
as a member of the President's Cabinet to support and promote such 
efforts.

    Question. The Organization for Economic Cooperation and Development 
(OECD) recently reported that the eradication of poverty will remain 
out of reach for many countries unless the global community immediately 
prioritizes efforts to reduce fragility. By 2030, more than half of the 
world's people living in poverty will likely be living in countries 
affected by high levels of violence. Yet, only a fraction of spending 
goes toward preventing and reducing violent conflict and building 
sustainable peace. How will you use your role to ensure proven, cost-
effective methods, such as peacebuilding and conflict prevention, are 
prioritized in funding, policy, and programming at the U.N.?

    Answer. A revitalized approach to working with the U.N. must 
include tackling the pressing challenges of reducing violent conflict 
and building sustainable peace. And to this end, we must advance a full 
range of preventive diplomacy efforts in response to emerging crises, 
recognizing that early diplomatic interventions are ultimately the most 
cost-effective-for the United Nations, and thus, for the United States. 
I appreciate the bipartisan Congressional support behind the Global 
Fragility Act (GFA), which provides a critical tool for enhancing U.S. 
conflict prevention and peacebuilding efforts. These kinds of 
investments can help address fragility, which directly benefits our 
national security. The GFA offers the United States an opportunity to 
work with the U.N. to renew and refocus attention on the U.N.-World 
Bank Pathways for Peace report and the U.N. Secretary-General's 
Sustaining Peace agenda.

    Question. There are some 95,000 U.N. Peacekeepers deployed to 13 
missions around the world. These missions are paid through assessed 
contributions from U.N. Member States who do not contribute troops. 
During the Trump administration, however, the United States did not pay 
its share of the U.N. peacekeeping budget on time or in full. Today, 
the U.S. is over $900 million in arrears to U.N. Peacekeeping-a 
significant amount that is contributing to an ongoing liquidity crisis 
at the U.N. Much of these arrears are due to Congress refusing to 
appropriate an amount equal to the U.S. obligation through an arbitrary 
25% cap, but some of this shortfall can be covered through executive 
action. Will the Biden administration commit to paying U.S. arrears to 
U.N. Peacekeeping while working with Congress to address the cap and 
end the need for foreign military-led peacekeeping interventions?

    Answer. If confirmed, I would welcome the opportunity to work with 
Congress to meet our financial obligations, including addressing the 
substantial level of arrears that have accumulated over the past four 
years and the cap on peacekeeping funding. I will also work to ensure 
that peacekeeping missions are more efficient and more effective at 
achieving their mandates.

    Question. The Trump administration vacated America's seat on the 
U.N. Human Rights Council in June 2018, before the U.S. term ended. 
Does the Biden administration intend to run for election to join the 
Human Rights Council at the next opportunity?

    Answer. U.S. leadership on human rights is an important component 
to ensuring a values-based and transparent international system that 
defends individual rights and freedoms while strengthening democracy 
and rule of law. President Biden has committed to seek to re-engage at 
the Human Rights Council and will quickly review whether the United 
States will seek election.

    Question. The U.S. must avoid legitimizing and empowering illiberal 
governments in multilateral fora and bilateral engagement. Governments 
such as Egypt, Saudi Arabia, the United Arab Emirates, and Qatar 
exploit U.S. support for their counterterror practices, which 
undermines the U.N.,s ability to stand up for peace and human rights. 
Will the Biden administration commit to work with democratic allies to 
counter the rise of authoritarianism and reject close relationships 
with governments that exhibit autocratic tendencies?

    Answer. As President Biden has said, ``I will defend the right of 
activists, political dissidents, and journalists around the world to 
speak their minds freely without fear of persecution and violence.'' 
The Biden administration is committed to working with democratic allies 
to counter the rise of authoritarianism. We intend to elevate human 
rights issues across our foreign policy, including in our relationships 
with partners. Our efforts to counter terrorism cannot be separated 
from our work to stand up for human rights and our values; the 
promotion and protection of human rights is at the center of all our 
foreign policy priorities.

    Question. Many countries in the Middle East are mired in protracted 
conflicts, humanitarian crises, or struggling with displacement. This 
includes Yemen, Syria, the Palestinian Territories, and Lebanon. What 
policies or initiatives will the United States take to help shift 
dynamics and set the ground for longer term development and positive 
changes in the Middle East?

    Answer. There are no military solutions to the conflicts, 
humanitarian crises, and displacement in the Middle East. The only path 
forward is a negotiated political settlement in each instance that 
advances the universal rights and dignity of the region's people.
    The Biden administration intends to restore credible engagement 
with the Palestinians, cease U.S. military support for the Saudi-led 
coalition in Yemen, and press for transparent and accountable 
governance in Lebanon. In Syria and Yemen, we will support the U.N. 
special envoys with high-level diplomacy; coordinate with our allies 
and partners on humanitarian, development, and stabilization 
assistance; and engage in advocacy at the U.N. Security Council.

    Question. How is the United States planning to regain a leadership 
role in diplomacy aimed at addressing these issues?

    Answer. The United States must pursue a diplomacy-first approach in 
the region that reasserts our values and is enabled by civilian tools. 
With U.S. diplomats back at the table, we will assert U.S. leadership 
across the Middle East. If confirmed, I will work closely with our 
allies and partners supporting the U.N. Special Envoys leading 
political processes to address conflicts in Syria and Yemen while 
maintaining current counterterrorism efforts. Whether in the Middle 
East or elsewhere around the globe, I will work tirelessly to advance 
diplomatic solutions to international crises and leverage the full 
weight of the U.N. Security Council to that end.
    In addition, the Biden administration intends to assert U.S. 
leadership consistent with our values by reengaging the U.N. Human 
Rights Council, the World Health Organization, and other multilateral 
forums.

    Question. Following the Trump administration's slashing funds to 
UNRWA, the agency's funding crisis has become acute. In November of 
last year, the agency announced it was not able to pay the salaries of 
their 28,000 employees, most of whom are themselves Palestinian 
refugees. Is it your belief that, to the extent allowed by U.S. law, 
the United States should restore U.S. contributions to the United 
Nations Relief and Works Agency?

    Answer. President Biden plans to follow through on his pledge to 
restore U.S. economic and humanitarian aid to the Palestinians. UNRWA's 
mandate is set by the U.N. General Assembly and it provides essential 
services directly to Palestinian refugees in the five regions it 
covers. Unlike UNHCR, which works to deliver most services to refugees 
through sub-partners and those partners' many employees in the field, 
UNRWA and its employees provide the services directly to beneficiaries. 
As stated in my confirmation hearing, I am committed to working with 
and consulting Congress on these issues. If confirmed, I look forward 
to engaging with UNRWA on meaningful and sustainable reforms to their 
operations.

    Question. Many argue it is essential to re-establishing U.S. 
credibility and the international consensus regarding Iran's dangerous 
activities--both nuclear and conventional--for the United States to 
come back into compliance with the JCPOA alongside Iran. Do you believe 
that the Trump administration's purported use of the ``snapback'' 
mechanism helped or hurt our ability to counter Iran's nuclear 
activities and other dangerous behavior?

    Answer. The snapback mechanism was designed to provide leverage to 
help ensure Iran performed its commitments under the JCPOA. The Trump 
administration invoked snapback in a way that was never contemplated by 
the deal, namely after unilaterally exiting it. Virtually none of our 
allies or partners recognized this invocation of snapback. The Biden 
administration believes that the United States will be in a stronger 
position to counter the full range of threats posed by Iran, including 
its nuclear program, by working in close concert with our allies.

    Question. The UNSC has held a number of closed door meetings on 
Ethiopia's Tigray crisis, but to date has not taken significant action 
to address the conflict or its humanitarian consequences. If confirmed, 
will you commit to pressing U.N. Security Council and other U.N. organs 
to more publicly engage on the Tigray crisis and conflict in other 
parts of Ethiopia, with an eye towards advancing political dialogue, 
protecting civilians from violence, and supporting humanitarian relief?

    Answer. I am deeply concerned by the situation in Ethiopia. 
Ethiopia's successful transition to a more democratic, inclusive, and 
prosperous society is critical to U.S. interests. It will be important 
that the U.N. Security Council stay engaged on Ethiopia-most 
immediately with regard to the crisis in Tigray, but also with an eye 
to instability in other regions as the country navigates a challenging 
but critically important project of democratic renewal. As conflict in 
Ethiopia poses a threat to the broader region, if confirmed, I will 
work with the three African members of the U.N. Security Council in New 
York and other member states to push for an end to violence and to 
press for constructive dialogue, immediate and unimpeded humanitarian 
access, the protection of refugee populations, the withdrawal of 
foreign troops, the restoration of all communications to the Tigray 
region, and accountability for atrocities committed by all parties.

    Question. What specific steps do you anticipate taking to do so?

    Answer. It is important that the U.N. plays an active role and 
considers the many ways in which it might help bring an end to the 
crises in Tigray. If confirmed, I will work to open possibilities for 
humanitarian workers, organizations, and critical assistance to reach 
the Tigray region. If confirmed, I will urge the U.N. and member-states 
to engage on the crisis so as to prevent further violence, establish 
immediate unimpeded humanitarian access, ensure accountability for 
atrocities committed by all parties, verify the withdrawal of foreign 
troops, and prevent a regionalization of the conflict. We must 
encourage constructive dialogue toward a resolution of governance and 
security matters in Tigray. But the U.N. system and Security Council 
member-states must also be conscious of the wider national transition 
in which this crisis has unfolded and the remaining challenges ahead. 
We must clearly signal our support for the democratic aspirations of 
all Ethiopians as the country continues on a critically-important path 
of political and economic renewal.

    Question. Sudan-Ethiopia border tensions have escalated in recent 
weeks, and there is potential that hostilities between these two states 
could destabilize the broader sub-region. The U.N. has yet to fully 
engage on this matter. What role should the U.N. play in addressing 
this conflict, and what action do you plan to take to support more 
focused U.N. engagement?

    Answer. As Assistant Secretary of State for African Affairs, I saw 
firsthand the dire impact of violence and instability in Africa, 
particularly on innocent civilians whose lives and livelihoods were 
completely upended. I also saw how critical a role the U.N.--through 
the Security Council, special political missions, peacekeeping 
missions, and numerous functional agencies, funds, and programs--can 
play in addressing threats to international peace and security. If 
confirmed, I will work diligently to ensure the U.N. deploys its 
resources and capabilities to fully address conflict situations to 
address such insecurity.

    Question. The Central African Republic (CAR) recently conducted an 
election fraught with violence and the Government faces an armed 
rebellion. What is your view on recent calls to increase the number of 
U.N. peacekeepers on the ground to help maintain stability?

    Answer. I extend my deepest condolences to the families and loved 
ones of the victims of this violence, including those of the seven 
Multidimensional Integrated Stabilization Mission in the Central 
African Republic (MINUSCA) peacekeepers killed since December 25. Those 
responsible must be held accountable. In principle, I share the long-
held U.S. Government view that a peacekeeping mission should have the 
resources it needs to carry out Security Council-mandated tasks.

    Question. Is the involvement of Russian and non-UN Rwandan actors 
in the security arena helpful to maintaining peace and security in CAR? 
Is their presence in any way a violation of the U.N. arms embargo? What 
role will you take if confirmed in ensuring there is transparency and 
accountability for foreign military actors on the ground in CAR?

    Answer. The CAR Government did request the additional Russian and 
Rwandan troops, but those countries notified the UNSC after deploying. 
A lack of coordination from bilateral troops, especially from Russia, 
has threatened the safety of peacekeepers and humanitarians, and makes 
it more difficult for MINUSCA to carry out its mission. If confirmed, I 
will work with our partners and allies to ensure countries providing 
assistance, military or otherwise, do so in a transparent and 
coordinated way, consistent with the U.N. arms embargo. All aid should 
support Central Africans' desires for good governance, stability, and 
accountability; military aid must support security sector reform per 
the U.N. embargo.

    Question. The Democratic Republic of the Congo has had a long-
standing U.N. peacekeeping operation in place to address persistent 
conflict, particularly in the eastern region. Has security in eastern 
Congo improved enough to justify a drawdown of U.N. peacekeepers?

    Answer. The U.N. Organization Stabilization Mission in the 
Democratic Republic of the Congo (MONUSCO) plans to withdraw from 
Tanganyika and the Kasai provinces by 2022 as part of a responsible, 
conditions-based transition. The demobilization of armed groups in both 
regions after the 2019 DRC transfer of power improved security and 
warrants a shift from peacekeeping to peacebuilding. However, MONUSCO 
still has a key role to play in North Kivu, South Kivu, and Ituri 
provinces, where armed group violence remains high. Shifting resources 
from Tanganyika and the Kasai provinces will allow MONUSCO to focus on 
the North and South Kivu and Ituri provinces. There are currently no 
plans to reduce the overall level of peacekeepers. If confirmed, I will 
monitor and evaluate the situation.

    Question. AMISOM, the U.N. mission in Somalia, is entering its 14th 
year. However, Al-Shabaab is still a deadly threat, and the overall 
stabilization of Somalia remains an elusive goal. What role is the U.N. 
best suited to play in facilitating the implementation of the Somalia 
Transition Plan, and in advancing Somalia's overall stability?

    Answer. If confirmed, I look forward to reviewing AMISOM's U.N. 
Security Council mandate to ensure that it advances a sustainable, 
holistic approach, appropriately geared toward developing competent and 
self-sufficient Somali security institutions. While military operations 
will remain critical, addressing the drivers of Somalia's persistent 
instability will require the Somalis and the international community, 
including AMISOM and the U.N., to utilize a broader range of tools in 
the coming years. The U.N. is well suited to continue providing vital 
logistical support and expert advice on governance, institutional 
reform, peacebuilding, policing, and the rule of law, as it does 
through the U.N. Support Office in Somalia and U.N. Assistance Mission 
in Somalia.

    Question. What actions will you take if confirmed to help ensure 
the U.N. plays an impactful role in supporting the development of an 
integrated functioning Somalia?

    Answer. The U.N. plays a vital role advancing stabilization efforts 
and humanitarian relief in Somalia. The logistical support and expert 
advice on governance, reform, peacebuilding, policing, and the rule of 
law it provides through the U.N. Support Office in Somalia and U.N. 
Assistance Mission in Somalia are critical for sustaining security 
operations; developing self-sufficient, capable, and enduring Somali 
institutions; and advancing reconciliation. If confirmed, I look 
forward to reviewing U.N. activities in Somalia to ensure they have the 
resources and mandates necessary to advance our stabilization goals.

    Question. While not a party to the Rome Statute, the United States 
has welcomed its work to protect human rights and to hold accountable 
those responsible for egregious human rights abuses, even when we have 
disagreed with the International Criminal Court (ICC) on specific 
cases. This working relationship has been severely damaged by the Trump 
administration, which went as far as imposing sanctions on some staff 
of the ICC. Will you work with the Secretary of State to remove 
sanctions against Chief Prosecutor Fatou Bensouda and the Head of the 
Jurisdiction Complementarity and Cooperation Division, Phakiso 
Mochochoko?

    Answer. The United States shares the goals of the ICC in promoting 
accountability for the worst crimes known to humanity. While we 
disagree with the ICC's actions relating to the Afghanistan and 
Israeli/Palestinian situations, if confirmed, I will support the 
administration as it takes a hard look at the sanctions and determines 
next steps.

    Question. 2019 saw the highest number of attacks on aid workers in 
the past decade. From Syria to Ethiopia to South Sudan to Niger and 
beyond, those who have dedicated their lives and careers to serving 
those in need are increasingly under attack. Will you commit to pushing 
the U.N. Security Council to condemn all acts of violence against 
humanitarian workers and facilities and insist on independent 
investigations to promote accountability?

    Answer. Yes. If confirmed, I will condemn attacks and threats 
against humanitarian workers and facilities and I will use our 
humanitarian diplomacy to push for greater accountability, respect for 
international humanitarian law, and an unequivocal respect for the work 
undertaken by humanitarian aid workers, as well as humanitarian assets, 
premises, and the unhindered delivery of humanitarian assistance.

    Question. If confirmed, how do you plan to lead U.S. engagement 
with the Global Compact on Refugees? What commitments will the U.S. 
make to the Global Refugee Forum? Will the U.S. join the Global Compact 
on Migration?

    Answer. If confirmed, I will commit to proactively leading U.S. 
engagement in the Global Compact on Refugees by ensuring high-level 
participation at the December 2021 High-Level Officials Meeting. I 
commit to review and develop commitments that are commensurate with our 
global humanitarian leadership role. As part of the U.S. commitment to 
work together with global partners to address pressing shared 
challenges, the United States intends to join the international 
community in implementing the Global Compact on Migration. I am 
committed to working together with other countries to realize the 
Compact's vision of a cooperative framework that respects national 
sovereignty and protects human rights.

    Question. The mandate of the United Nations Peacekeeping Force in 
Cyprus (UNFICYP) is set to be renewed in the coming days. Do you 
support the renewal of UNFICYP's mandate?

    Answer. I was pleased to see the unanimous renewal of the U.N. 
Peacekeeping Force in Cyprus (UNFICYP) on Friday, January 29, extending 
the mission's important work in preventing a resurgence of fighting 
between the Greek and Turkish Cypriot communities, supervising 
ceasefire lines, maintaining a buffer zone, and supporting the good 
offices of the Secretary-General for six months.

    Question. In the January 8 report of the Secretary-General on his 
mission of good offices in Cyprus, Secretary-General Gutteres expressed 
his interest in convening an informal 5+1 meeting this year to ``pave 
the way for a resumption of negotiations to achieve a lasting 
settlement to the Cyprus problem within a foreseeable horizon.'' Turkey 
and the new Turkish-Cypriot leader have taken steps to undermine 
renewed talks by insisting on a two-state solution rather than a 
reunified Cyprus as per U.N. Resolutions and U.S. policy. How do you 
plan to counter these steps?

    Answer. The United States supports a Cypriot-led comprehensive 
settlement to reunify the island as a bizonal, bicommunal federation, 
which would benefit all Cypriots as well as the wider region. We 
welcome and stand ready to assist the U.N. Secretary-General's efforts 
to convene an informal 5+1 meeting at the earliest opportunity and 
facilitate a relaunching of political discussions after years of 
stagnation. We hope that all involved participants will approach the 
5+1 meeting in the spirit of openness, flexibility, and compromise. The 
responsibility for finding a solution lies first and foremost with the 
Cypriots themselves.

    Question. Turkey and the new Turkish-Cypriot leader acted in 
violation of U.N. Security Council Resolutions on Cyprus by moving to 
reopen Varosha. How do you plan to counter that clear violation of U.N. 
Security Council Resolutions?

    Answer. The United States is deeply concerned by the unilateral 
decision by Turkish Cypriots, with the support of Turkey, to reopen 
Varosha and urges a reversal of this decision. The United States stands 
by the U.N. Security Council President's statement unanimously approved 
in October 2020. We see the reopening of Varosha as inconsistent with 
U.N. Security Council Resolutions 550 and 789, provocative, and 
counterproductive to the resumption of settlement talks. The United 
States supports efforts to de-escalate tensions in the Eastern 
Mediterranean and calls for dialogue and respect for international law.

    Question. As the intra-Afghan talks move forward and the U.S., and 
our other allies and partners, reassess their troop presences in 
Afghanistan, what role do you believe the United Nations Assistance 
Mission in Afghanistan (UNAMA) will play in promoting peace and 
development in Afghanistan going forward? What do you view as the main 
challenges facing UNAMA in this changing environment, and how will you 
work to address them if confirmed?

    Answer. The mandate of the U.N. Assistance Mission in Afghanistan 
(UNAMA), which the U.N. Security Council most recently and unanimously 
renewed in September 2020 for a one-year period, authorizes UNAMA to 
support peace and stability in Afghanistan. Within its mandate, UNAMA 
leads and coordinates crucial international efforts to support peace, 
elections, human rights, regional cooperation, anti-corruption efforts, 
rule of law, and humanitarian assistance. UNAMA staff are deployed in 
challenging security and health environments, and, if confirmed, I will 
work to ensure adequate support for UNAMA to fulfill its mandate in 
support of a durable and just political settlement and permanent and 
comprehensive ceasefire.



                               __________


       Responses to Additional Questions for the Record Submitted
         to Hon. Linda Thomas-Greenfield by Senator Marco Rubio

    Question. In your opinion, what is the greatest challenge before 
the United Nations? Why?

    Answer. The greatest challenge facing the U.N. remains whether the 
institution can be sufficiently agile and flexible to effectively 
respond to the complex challenges of the 21st century. Across its 75-
year history, the U.N. has negotiated ends to wars, provided life-
saving humanitarian assistance, and established a global human rights 
regime. It has also, at times, failed to live up to its founding ideals 
in the past, minimizing abuses committed by peacekeepers, tolerating 
instances of corruption, or silencing whistleblowers. If confirmed, I 
will push for reforms to the U.N. in order to make it more efficient, 
effective, accountable, and fit for purpose so that the institution 
remains the preeminent body committed to the maintenance of 
international peace and security.

    Question. The United States is the single largest financial 
contributor to the U.N. Do you believe that the U.S. should be using 
our influence to push for critical reforms? Will you recommend, when 
necessary, that the U.S. withhold funding when U.S. dollars are going 
to corrupt institutions within the U.N.?

    Answer. The Biden-Harris administration will continue to hold the 
U.N. accountable to its mission and its member states. This means doing 
all we can to ensure the U.N. is using resources efficiently and 
effectively. As the largest donor to the U.N., I believe the United 
States should insist on fiscal transparency and accountability for the 
use of member states' funds. If confirmed, I will press hard on these 
issues with allies and the U.N.

    Question. Do you believe the U.N. Human Rights Council is a broken 
institution in need of reform?

    Answer. We recognize that the Human Rights Council is flawed and in 
need of reform--including to address its membership and its anti-Israel 
bias, and the Biden-Harris administration is committed to seeking 
reform. In order to do so, I believe the United States must show up and 
engage with the Council directly and, if confirmed, I will support 
doing so. U.S. engagement at the Council can be a force for positive 
change and for calling countries with the worst human rights records to 
account.

    Question. Do you believe a body that hosts some of the world's 
worst violators of human rights as members can fulfill its mandate to 
address human rights issues around the world?

    Answer. As Secretary Blinken stated in his Senate confirmation 
testimony, the Biden administration is committed to seeking reforms of 
the Human Rights Council (HRC), particularly with respect to the 
Council's membership selection process and its disproportionate focus 
on Israel. When we participate at the Council, we have been able to 
reduce the focus on Israel. We can also credibly encourage our allies, 
who are likeminded, to join the Council and run for election which has 
helped keep some violators off of the Council in the past. If 
confirmed, I will work with the administration to ensure the United 
States prioritizes needed reforms as part of our re-engagement with the 
HRC.

    Question. What reforms would you push on the U.N. Human Rights 
Council?

    Answer. If confirmed, I will ensure the United States prioritizes 
needed reforms as part of our re-engagement with the HRC. When we have 
had a seat at the table, we were able to advocate more effectively on 
Israel's behalf, and saw changes as a result, including a reduction in 
the number of resolutions targeting Israel. In addition, when the 
United States plays an active and constructive role on the Council, we 
have been able to engage with our allies and friends to keep off some 
of the countries with the worst human rights records and to encourage 
countries with better records to run for seats. U.S. engagement at the 
Council can be a force for positive change and for calling the world's 
worst human rights violators to account.

    Question. The United Nations Peace and Development Trust Fund was 
established in 2016, following a pledge from China, and it has become a 
slush fund for Beijing's activities. What is your strategy to 
investigate how these dollars are being used and fight Chinese 
Government corruption within the U.N. system?

    Answer. If confirmed, pushing back against China's attempts to 
reshape international institutions will be a top priority of mine. This 
will include advocating for reforms in the U.N. system that will 
prevent corruption and increase transparency and good governance. USUN 
is currently reviewing specific policies and strategies and if 
confirmed, I look forward to working with Congress to address this 
issue head on.

    Question. How would you characterize the nature of the Chinese 
Communist Party?

    Answer. The Chinese Communist Party is illiberal, authoritarian, 
and increasingly aggressive in its actions globally.

    Question. What are the global ambitions of the Chinese Communist 
Party and please describe how they are using the United Nations to 
advance those ambitions? How do they challenge U.S. interests?

    Answer. China's Government engages in conduct around the world to 
make the United States and its allies more dependent on China, and 
China less beholden to the international system that has provided peace 
and stability since the end of World War II. In the U.N., China's 
Government drives an authoritarian agenda that stands in opposition to 
the values of the United States and the U.N., including on human 
rights, labor rights and transparency. China's actions hurt U.S. 
workers, blunt our technological innovation, and the transparency, 
efficiency, values, and influence of international organizations.

    Question. How will you plan to work with our allies and partners 
within the U.N. to counter Chinese malign activities?

    Answer. If confirmed, re-engaging with our allies and partners will 
be a top priority of mine, including countering China's activities in 
the U.N. that are against our interests and those of our allies, and 
corrode the strength and integrity of international institutions. This 
will include rallying our allies' and partners' support to push back 
against China's Government and call China out when it asserts values 
inconsistent with U.S. and U.N. values. If confirmed, I will use my 
position in New York to rebuild alliances and partnerships to tackle 
these issues .

    Question. Do you believe that the Chinese Government and Communist 
Party is committing crimes against humanity and genocide against 
Uyghurs and other Muslim minorities in Xinjiang?

    Answer. Secretary Blinken and I have made clear that genocide has 
been committed against the Uyghurs in Xinjiang. China's Government has 
also committed crimes against humanity against Uyghurs and members of 
other ethnic and religious minority groups, including imprisonment, 
torture, enforced sterilization, and persecution. These atrocities 
shock the conscience and must be met with serious consequences. If 
confirmed, I will work with our allies and partners to promote 
accountability and call on Beijing to immediately end these atrocities 
and to respect the human rights of Uyghurs and all others across China.

    Question. Do you commit to put forth a plan to hold Beijing 
accountable at the U.N. that includes working with responsible nations 
to investigate collect evidence, and prosecute those responsible for 
these crimes and abuses?

    Answer. If confirmed, I will speak out consistently and jointly 
with allies and partners to condemn these atrocities, and will consider 
all appropriate tools and actions to promote accountability for those 
responsible and deter future abuses.

    Question. China currently heads 4 of the 15 specialized U.N. 
agencies. Will you do everything in your power to work with democratic 
Member States to support candidates from nations that uphold the rule 
of law and international norms to fill these types of posts?

    Answer. If confirmed, I will fight to ensure well-qualified and 
independent candidates who are committed to the foundational values of 
the United States and the U.N., as well as the integrity, transparency, 
and efficiency of the U.N., are selected to hold these and other 
important positions across the U.N. system.

    Question. Will you make the restoration of Taiwan's observer status 
at the World Health Organization a priority?

    Answer. Yes. If confirmed, I will continue U.S. policy to support 
Taiwan's membership in international organizations, where statehood is 
not a requirement, and encourage Taiwan's meaningful participation in 
organizations, where its membership is not possible. We will work 
closely with friends and allies to advance our shared prosperity, 
security, and values in the Asia Pacific region.

    Question. Do you believe that it is in the interest of global 
health security for Taiwan to be invited to participate in WHO related 
meetings?

    Answer. If confirmed, I will continue to work with likeminded 
partners to promote Taiwan's meaningful and substantive participation 
in the work of the WHO. Taiwan has made substantial contributions to 
global public health, especially during the COVID-19 pandemic. If 
confirmed, I will continue U.S. policy to support Taiwan membership in 
international organizations, where statehood is not a requirement, and 
encourage Taiwan's meaningful participation in organizations, where its 
membership is not possible.

    Question. A perennial issue of U.N. reform is the question of the 
composition and expansion of the five permanent members of the U.N. 
Security Council, which have remained the same since the U.N.'s 
inception, aside from the replacement of the Republic of China with the 
People's Republic of China in 1971. Our closest treaty ally in Asia, 
Japan, has sought a permanent seat on the Security Council for decades, 
and India, an important partner and the world's largest democracy, has 
also sought this status in recent years. The United States has long 
supported Japan's candidacy, and both President Obama and President 
Trump supported India's candidacy as well. If confirmed, will you look 
for bold and creative way to promote the candidacies of Japan and India 
for permanent membership on the U.N. Security Council?

    Answer. The issue of whether and how to reform the U.N. Security 
Council is, indeed, a perennial one. The Biden administration desires a 
Security Council that is representative and effective at advancing the 
best interests of the United States and the U.N.? The administration 
will review reform proposals and work closely with our Allies and 
partners at the U.N. to ensure that any UNSC reforms are undertaken in 
such a way as to enhance the efficiency of the Council, promote U.S. 
values, and leave unaltered the veto power.

    Question. During your confirmation hearing, you made several strong 
statements about the dangers of the Chinese Communist Party in the U.N. 
and the need to push back on Beijing's corrosive influence. Reviewing 
your Savannah State University speech, which parts of the speech no 
longer represent your views? Why did your views change?

    Answer. During my 35 years of service as a U.S. diplomat, I have 
developed a long track record of speaking out about China's malign 
influence and about the debt-trap tactics China's Government uses in 
Africa and elsewhere. For years, I have viewed China as a strategic 
competitor to the United States and have believed that the activities 
of China's Government pose challenges to our security, prosperity, and 
values. I also have been very clear publicly that I believe China has 
engaged in gross human rights violations and it's authoritarian system 
is counter to our democratic values. Indeed, much of the time I spent 
on the continent of Africa was spent making the case to African 
countries that they should partner with the United States, instead of 
China, in their pursuit of economic growth. I have worked diligently 
for decades to help African nations consider how they can best prosper 
economically and transform into robust democracies, and that the two 
are not mutually exclusive, but reinforcing.While these views have been 
long- and strongly-held, I acknowledge that in my October 2019 speech 
at Savannah State University I could have been more assertive in how I 
described China's official activities on the African continent as 
predatory in nature. I also could have made clearer that while I 
understood the dilemma of African nations searching for development 
partners, their relationships with the China's Government were almost 
certainly not likely to be beneficial for them over the long term and 
that the United States was a far more reliable partner.

    Question. In your testimony and answers to questions in a hearing 
in the House Foreign Affairs Committee in March 2019, you described the 
United States and the PRC as not being in competition in Africa, owing 
to different capabilities in infrastructure construction and 
administrative governance. Yet, the financing of those projects and the 
role of international financial institutions in supporting African 
countries gives the United States a direct stake in those PRC-built 
infrastructure projects because we may be asked to provide debt relief 
or forgiveness if the projects are not commercially viable. What is the 
appropriate way for the United States to address this moral problem for 
African countries so that we do not support the spread of the CCP's 
corrosive influence on good governance in African countries and 
undermine the rule of law?

    Answer. China is a strategic competitor and poses challenges to our 
security, our prosperity, and our values. African publics continue to 
prefer the United States to China, and democratic values to 
authoritarianism. If confirmed, I will work closely with leaders to 
push back on China's development goals in Africa. I will urge those 
leaders to support our shared values at the United Nations. We will 
also meet this challenge by ensuring U.S. companies can compete on an 
even playing field, providing a meaningful alternative to China's 
economic approach, promoting entrepreneurship and fair practices.

    Question. Do you believe China uses its economic and political 
influence to get countries to side with China on issues of priority to 
the CCP such as Taiwan, Hong Kong, etc. at the U.N. or elsewhere?

    Answer. China's Government uses coercive and corrupting tools- 
including economic and political influence--to undermine and interfere 
in democracies and to promote its own interests. The United States is 
committed to working with allies and partners to call out and counter 
this influence at the U.N. and in international organizations.

    Question. Do you believe that the Chinese Communist Party is 
actively hostile to the idea of the rule of law as well as the 
transparency and electoral accountability necessary for good 
governance?

    Answer. China's Government uses coercive and corrupting tools- 
including economic and political influence--to undermine and interfere 
in democracies and to promote its own interests. The United States is 
committed to working with allies and partners to call out and counter 
this influence at the U.N. and in international organizations.

    Question. Do you believe the United States and the PRC have any 
common objectives and shared values in Africa or anywhere else in the 
world?

    Answer. The Chinese Communist Party is illiberal, authoritarian, 
and increasingly assertive. Its values are often at odds with our own. 
China has been growing more authoritarian at home and more assertive 
abroad. Beijing is now challenging the security, prosperity, and values 
of the United States and our allies in significant ways. We are 
committed to meeting this challenge in Africa and in other places in 
the world where China's ambitions are at odds with U.S. interests and 
values.

    Question. Do you believe that the PRC is exporting its tools of 
authoritarianism in Africa and around the world? How should the United 
States respond to such attempts to export PRC tools of authoritarianism 
around the world?

    Answer. The PRC's use of information operations and other coercive 
and corrupting efforts to undermine and interfere in democracies are a 
concern for the United States and its allies. African publics continue 
to prefer the United States to China, and democratic values to 
authoritarianism. We will capitalize on this soft power--engaging with 
youth, encouraging education opportunities, and promoting U.S. business 
to outcompete China and remain the partner of choice. The Biden-Harris 
administration will provide an alternative vision that promotes 
democratic governance and transparency in our global health and 
development work. We will place democracy and human rights to the 
center of U.S. foreign policy and counter Beijing's aggressive and 
coercive actions.

    Question. In January 2018, the story broke that the Chinese 
Government's gift of a headquarters building and computer network for 
the African Union in Addis Ababa contained a back door to facilitate 
the transfer of data to servers in Shanghai. Is this an example of 
``China's increased engagement with African leadership'' that you cited 
in your 2019 speech at the Confucius Institute at Savannah State 
University?

    Answer. China is our most serious competitor, and competition with 
China is one of the central challenges that will define the 21st 
century. China's use of coercive and corrupting efforts to undermine 
and interfere in democracies is a concern for the United States and our 
allies. If confirmed, I will examine this issue closely alongside 
interagency partners, and I will push back on corrupt or coercive 
practices that damage our interests and that of our African partners, 
including impingement on state sovereignty or control over resources 
and the abusive use of new security technology.

    Question. In Djibouti, Beijing pays $20 million a year to lease the 
land for its military base, where it has already stationed over 1,000 
troops, with space to expand hat number tenfold. Do you think this is 
something that the U.S. should be concerned about? Why or why not

    Answer. China is a strategic competitor, and their actions can 
threaten our security. If confirmed, I will work with my colleagues to 
review the U.S. response over the last few years to China's activities 
in Djibouti.

    Question. As early as 2007, experts like Yitzhak Shichor were 
warning that ``China's predominant role in Sudan's economy, military as 
well as foreign affairs, could be termed neo-colonialism with Chinese 
characteristics.'' The PRC had already become Sudan's top oil producer, 
exporter, and importer by 2007. It had absorbed Sudan's entire oil 
industry and repurposed it to serve Beijing's interests. Do you believe 
it is the interest of the U.S. or African Governments to have African 
nations' natural resources controlled by PRC state owned companies?

    Answer. I have a very strong relationships across the African 
continent that, if confirmed, I can use to work closely with leaders to 
push back on China's self-interested development goals in Africa. 
Sudan's new civilian-led transitional government, which came to power 
in 2019, appears eager to work with U.S. and other Western companies.

    Question. Given your long tenure as Assistant Secretary for African 
Affairs, you are no doubt aware of the numerous complaints voiced 
around the continent that PRC investment creates jobs mostly for 
imported Chinese workers, even when those jobs involve simple manual 
labor. Africans benefit far less, especially the poorest with the 
fewest opportunities, but corrupt local officials still get their cut. 
Do you believe this well-established pattern of Chinese investment in 
Africa contributes to corruption and deprives Africans of job 
opportunities?

    Answer. I have very strong relationships across the African 
continent that, if confirmed, I can use to work closely with leaders to 
push back on China's self-interested development goals in Africa. Much 
of my time in Africa was spent making the case to African countries 
about why they should partner on economic growth with the United 
States. I have found African publics continue to prefer the United 
States to China, and democratic values to authoritarianism. If 
confirmed, I will actively engage with our African partners at the 
United Nations to push back on China's corrupt or coercive practices 
that damage both our interests and those of our African partners.

    Question. The Taiwan Assurance Act, which was enacted as part of 
the FY2020 Omnibus spending bill, established that it is U.S. policy to 
advocate for Taiwan's membership and/or meaningful participation in 
international organizations. If confirmed, will you commit to robust 
efforts to increase Taiwan's international participation and to counter 
Beijing's attempts to isolate Taiwan in international organizations and 
beyond?

    Answer. If confirmed, I will continue U.S. policy to support 
Taiwan's membership in international organizations where statehood is 
not a requirement and encourage Taiwan's meaningful participation in 
organizations where its membership is not possible.

    Question. If confirmed, will you commit to pressing for Taiwan's 
inclusion or meaningful participation in multilateral meetings convened 
by the United States in whole or in part, in which Taiwan's 
participation would be beneficial based on its relevant accomplishments 
and substantive expertise, excluding all considerations about 
``political sensitivities'' for the PRC?

    Answer. If confirmed, I will advocate for Taiwan's membership in 
international organizations where statehood is not a requirement. Where 
membership is not possible, I will work with our allies and partners to 
push for Taiwan's meaningful participation in multilateral meetings, 
especially those that focus on public health, safety, and security.

    Question. In October 2018, Vice President Pence said in a speech 
entitled the Trump administration's Policy toward China that ``America 
will always believe that Taiwan's embrace of democracy shows a better 
path for all the Chinese people.'' In October 2019, Vice President 
Pence gave another speech on China in which he repeated this line about 
the importance of Taiwan as a democratic role model. His statement was 
very well received by our friends in Taiwan, who sadly get far too 
little international recognition for all that they have accomplished. 
Do you agree with Pence's statement? If confirmed, will you commit to 
use your platform at the U.N. to promote Taiwan as a model of 
democratic success that China and others should emulate?

    Answer. Taiwan is a leading democracy and a critical partner. We 
believe the global community would benefit from its increased 
participation in international organizations. We will continue to 
support Taiwan's membership in international organizations where 
statehood is not a requirement and encourage Taiwan's meaningful 
participation in international organizations where its membership is 
not possible as important policy priorities.

    Question. In July 2016, The Permanent Court of Arbitration in The 
Hague, constituted under Annex VII to the 1982 United Nations 
Convention on Law of the Sea (UNCLOS), ruled in favor of the 
Philippines and against China in a case that considered China's claims 
to the South China Sea. The ruling was an unequivocal rebuke of China's 
claims. It concluded that there was no legal basis for China to claim 
historic rights to resources within the sea falling within the 
parameters of its so-called ``nine-dash line.'' The tribunal found no 
evidence that China had historically exercised exclusive control over 
the waters or their resources. It further concluded that China had 
violated the Philippines' sovereign rights by obstructing fishing and 
oil exploration, constructing artificial islands and by encouraging 
Chinese fishermen to fish in the exclusive economic zone of the 
Philippines. What lessons are there to learn about China and 
international law from this debacle? If confirmed, what will you do to 
enforce this ruling going forward?

    Answer. The Philippines clearly and convincingly won the case it 
took to an arbitral tribunal under the Law of the Sea Convention, 
thoroughly repudiating PRC maritime claims in the South China Sea as a 
matter of international law. In bringing this proceeding, Manila acted 
to peacefully vindicate its treaty-based legal rights in accordance 
with the dispute resolution mechanisms set out in that treaty. Beijing 
continues to promote its unlawful claims in areas that the tribunal 
found to be in the Philippines' exclusive economic zone and continental 
shelf. This is not acceptable. It is incumbent on Beijing to 
demonstrate in word and deed that it respects international law. We 
will continue to work with the international community to uphold 
international law, including the freedoms of navigation and overflight 
and other lawful uses of the sea.

    Question. If confirmed, will you use your position at the United 
Nations to speak up on behalf of Hong Kong activists who are being 
targeted by CCP and Hong Kong officials for their peaceful activism in 
support of Hong Kong's long-cherished freedom and autonomy?

    Answer. If confirmed, I look forward to working with our allies and 
partners at the U.N. to advance respect for human rights and 
fundamental freedoms. I am deeply concerned about China's crackdown on 
Hong Kong over the past few years--including the arrests and 
imprisonment of pro-democracy activists and the imposition of the 
National Security Law. Beijing's assault on freedom and autonomy in 
Hong Kong is at odds with its international obligations and 
commitments. If confirmed, I will speak out in support of the automomy 
and right of the people in Hong Kong.

    Question. Do you believe that Chinese policies are threatening the 
survival of Tibetan civilization, which has long been distinct from 
that of China?

    Answer. The unique cultural, linguistic, and religious traditions 
of Tibetans are under threat from the Chinese Government's relentless 
assault. The Biden-Harris administration will stand up for Tibet, 
including by helping Tibetans to preserve their unique identity. If 
confirmed, I will work with our partners and allies to press Beijing to 
grant Tibetans meaningful autonomy, respect their human rights, and 
preserve Tibet's environment as well as its rich historical, cultural, 
and religious traditions.

    Question. If confirmed, will you regularly raise human rights 
concerns with regard to Tibet?

    Answer. If confirmed, I will regularly raise human rights concerns 
regarding Tibet, including those related to religious freedom, with my 
Chinese counterparts and work closely with our partners and allies on 
this issue. The Biden-Harris administration is committed to using all 
available tools to promote accountability for those responsible for 
human rights abuses in Tibet and elsewhere in China.

    Question. If confirmed, will you oppose any efforts to prevent the 
participation of the Dalai Lama, or any of his representatives, in 
nongovernmental fora hosted by or otherwise organized under the 
auspices of any body of the United Nations?

    Answer. The Biden administration will stand up for Tibetans. If 
confirmed, I will oppose all efforts by the Chinese Government to 
prevent the Dalai Lama and his representatives from participating in 
nongovernmental fora organized or hosted by United Nations bodies.

    Question. If confirmed, will you advocate for the creation of a 
special rapporteur or working group for Tibet for the purposes of 
monitoring human rights violations in Tibet?

    Answer. If confirmed, I am committed to working with the U.S. 
Special Coordinator for Tibetan Issues, our allies, and partners, 
including in international organizations, to push for meaningful 
autonomy for Tibetans, respect for human rights, and the preservation 
of Tibet's environment as well as its unique cultural, linguistic, and 
religious traditions.

    Question. In your statement to the committee, you said ``When 
America shows up-when we are consistent and persistent-when we exert 
our influence in accordance with our values-the United Nations can be 
an indispensable institution for advancing peace, security, and our 
collective well-being.'' In 2014, Zhao Houlin was elected Secretary-
General of the International Telecommunication Union (ITU) where he has 
pushed a model of international governance that privileges state 
sovereignty above the freedoms recognized in the U.N. Charter and the 
Universal Declaration of Human Rights as well as the free flow of 
information. Would you say that the United States was showing up and 
participating in a persistent and consistent fashion in the United 
Nations at this time?

    Answer. The United States has consistently participated in the 
activities of the International Telecommunication Union to ensure our 
interests are addressed in its core mission and mandate. We have 
continually stood as a bulwark against calls for a more assertive 
governance role for the organization, including in the area of internet 
governance, for which the United States has been a stalwart champion of 
the multi-stakeholder model for more than two decades.

    Question. In 2015, Liu Fang began her first term leading the 
International Civil Aviation Organization (ICAO) where she has 
continued to exclude Taiwan and the management of the Taipei Flight 
Information Region, which provided 1.85 million navigation services to 
aircraft carrying more than 72 million passengers in 2019. Do you 
believe the United States was showing up, and participating in, a 
persistent and consistent fashion in the United Nations at this time?

    Answer. I support Taiwan's meaningful participation in the U.N. 
system, and particularly in organizations like ICAO, from where Taiwan 
can both benefit and has a role to play in global aviation safety and 
security discussions.

    Question. In 2018, Liu Fang was reappointed at the head of ICAO 
where she has continued to exclude Taiwan and the management of the 
Taipei Flight Information Region, which provided 1.85 million 
navigation services to aircraft carrying more than 72 million 
passengers in 2019. ICAO create a free speech controversy blocking 
advocates of Taiwan's participation in international organizations that 
addressed technical rather than political issues. Would you say that 
the United States was showing up and participating in a persistent and 
consistent fashion in the United Nations at this time?

    Answer. I support Taiwan's meaningful participation at ICAO where 
Taiwan--which has a major aviation sector--can benefit from technical 
discussions on aviation safety and security and can contribute 
information from its own aviation experiences. If confirmed, I will 
continue to press for Taiwan's meaningful participation and access to 
major events.

    Question. In 2020, the U.S. Government led a worldwide effort to 
ensure that the PRC candidate for the World Intellectual Property 
Organization was not successful in their bid and rallied nations in 
support of the Singaporean candidate who ended up winning the seat. 
Would you say that the United States was showing up and participating 
in a persistent and consistent fashion in the United Nations at this 
time?

    Answer. The World Intellectual Property Organization (WIPO) 2020 
election is a good example of the power of U.S. diplomacy, in 
coordination with partners and allies, to support a qualified and 
independent candidate to lead an UN/international body.

    Question. Would you agree that the United States can still fail 
even when we are actively participating if we are not working to 
counter malign influences in the U.N. system that are seeking to 
undermine the international rules-based system?

    Answer. We know when the United States is actively participating in 
the U.N. system, we are better able to exert our influence and uphold 
our values and work with our allies and partners to counter efforts to 
undermine a values- and rules-based international system. At the same 
time, it is clear China is behaving differently than it has in the 
past--it is more aggressive, including at the United Nations. We must 
engage actively but also change our approach to engage more 
strategically to defend the values and integrity of the U.N. system. If 
confirmed, that will be my intention.

    Question. If our past approaches to operating in the U.N. were 
insufficient to prevent the malign influence of the Chinese Communist 
Party from undermining the integrity and mission of the U.N. and its 
subordinate organizations, then we need to find a different approach to 
U.S. engagement at the U.N. What are the features of a better approach 
to protecting the U.N.'s integrity and ensuring that U.N. officials are 
accountable to the mission of the organization?

    Answer. Protecting the U.N.'s integrity requires the United States 
first demonstrates commitment to the U.N. system by our leadership and 
engagement. We must also take actions that directly counter China's 
influence and improve the U.N.'s effectiveness and transparency, such 
as fighting against China's efforts to add harmful language to U.N. 
documents, identifying and placing qualified and independent candidates 
of integrity in U.N. positions, and demanding and pushing strong 
reforms, including improving transparency and whistleblower 
protections. If confirmed, I look forward to working with Congress to 
do so.

    Question. If confirmed, what's your strategy to uphold and support 
U.S. law with regard to Cuba policy, specifically Libertad Act?

    Answer. Support for democracy and human rights, as well as 
empowering the Cuban people to determine their own future, will be at 
the core of our Cuba policy. We recognize the various views in Congress 
on Cuba policy and share the goal of a democratically elected 
government in Cuba. We will consult with Congress regarding Cuba 
policy.

    Question. If confirmed, would you commit to highlight human rights 
abuses against pro-democracy activists like UNPACU, the Ladies in 
White, and others in Cuba?

    Answer. We are committed to making human rights a core pillar of 
U.S. foreign policy. Human rights defenders around the globe continue 
to look to the United States for support against authoritarian regimes. 
Support for democracy and human rights will be at the core of our 
efforts with regard to Cuba.

    Question. Will you commit to use your voice at the U.N. to denounce 
the Cuban regime's documented human trafficking and exploitation of 
Cuban doctors, nurses, and other medical professionals through the so-
called `foreign medical missions'?

    Answer. If confirmed, I will seek to defend the human rights of the 
Cuban people. Through multilateral engagement we will bolster awareness 
and urge member countries to seek transparency on contractual 
agreements between the Cuban Government and the medical professionals. 
The Cuban Government should uphold its international obligations as 
party to the U.N. Trafficking in Persons Protocol and ILO Conventions 
29 (Forced Labour) and 105 (Abolition of Forced Labour) to address and 
combat human trafficking and protect internationally recognized worker 
rights.

    Question. If confirmed, will you commit to support international 
efforts to investigate and hold those individuals accountable for their 
crimes against the Venezuelan people?

    Answer. Yes. If confirmed I will seek to work with partners and 
allies across the globe to rebuild multilateral pressure on the Maduro 
regime, call for the release of political prisoners, promote 
accountability, and implement appropriate sanctions against Venezuelan 
officials credibly accused of corruption or human rights abuses.

    Question. If confirmed, will you commit to issuing a statement that 
recognizes Interim President Juan Guaid" and the National Assembly of 
Venezuela as the legitimate President of Venezuela?

    Answer. President Biden was clear throughout the campaign and 
during the transition that he believes Maduro is a dictator and the 
National Assembly elected in 2015 and headed by Juan Guaid" was the 
country's sole remaining democratic institution. The United States 
continues to recognize Juan Guaid" as the Interim President of 
Venezuela.

    Question. Do you believe that Israel is and should forever remain a 
Jewish State?

    Answer. President Biden is committed to upholding Israel's future 
as a Jewish and democratic state, and he continues to believe the two-
state solution is the best way to ensure that Israel remains both 
Jewish and democratic. In service of this vision, the Biden-Harris 
administration will engage robustly on the Israeli-Palestinian conflict 
and look for opportunities for the type of diplomatic progress that can 
protect Israel's long-term security.

    Question. If confirmed, will you work to fight anti-Israel bias at 
the U.N. and in U.N. related agencies and organizations?

    Answer. The U.N. must take steps to address its credibility deficit 
with regard to the unfair treatment and targeting of Israel. If 
confirmed, I will continue the U.S. work in opposing efforts to 
unfairly single out or delegitimize Israel through one-sided 
resolutions, reports, and other actions across the United Nations, 
including the Security Council, the General Assembly, the Human Rights 
Council, and other bodies. If confirmed, I also look forward to working 
with our Israeli diplomatic colleagues to promote the election of 
Israel to U.N. leadership posts, its inclusion in U.N. working groups, 
and the selection of qualified Israeli candidates for U.N. positions.



                               __________


       Responses to Additional Questions for the Record Submitted
     to Hon. Linda Thomas-Greenfield by Senator Benjamin L. Cardin

    Question. What are your most meaningful achievements to date in 
your career to promote human rights and democracy? What has been the 
impact of your actions?

    Answer. I have worked on issues of human rights and democracy 
throughout my career. The most impactful such experience was during my 
time as Ambassador to Liberia. I was able to bring nearly 25 years of 
experience in Africa and around the globe to help Liberia establish its 
fledgling democracy and work to respect human rights after more than a 
decade of civil war. Collaborating almost daily with the President of 
Liberia, the only woman to be elected in Africa, I worked to assist the 
Government in building strong electoral systems to ensure free and fair 
elections and to establish a court system that respected and protected 
basic human rights. Under my leadership, the U.S. military trained the 
Army of Liberia to respect civilian rule and human rights. We rebuilt 
institutions including the Election Commission that carried out the 
first ever peaceful transfer of power in Liberia from one elected 
official to an opposition party. We also supported education programs 
that focused on providing opportunities for girls. We showed the best 
of U.S. values to a country that had been broken by civil war. The 
current President of Liberia was elected in a free and fair election, 
and while he is struggling in his leadership, the institutions we 
helped build continue to function well.

    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor, and support your staff that come from diverse backgrounds and 
underrepresented groups?

    Answer. As the former Director General of the Foreign Service, I 
prioritized diversity and committed my team to identifying gaps and 
ongoing challenges to ensure we have a workforce representative of the 
United States. President Biden has made clear his expectation that all 
members of his Cabinet prioritize diversity, equity, and inclusion in 
the federal workforce. If confirmed, in my new role, I will set the 
expectation for leadership of our missions to espouse a culture of 
inclusion and provide professional development opportunities in a fair 
and transparent manner. If confirmed, I commit to fostering an 
inclusive workplace in which every employee is treated with dignity and 
respect and feels empowered to serve the American people. I will 
outline my expectations of building and supporting diverse and 
inclusive teams and I will hold my team accountable. Throughout my 
career, I have explored ways to increase retention of diversity through 
flexibility in assignments and professional development opportunities. 
If confirmed, I commit our Mission in New York and all our missions 
supporting international organizations to a culture of inclusion. If 
confirmed, I will consult with the USUN Diversity & Inclusion Council 
and work closely with them to foster a culture that promotes diversity, 
equity, and inclusion.

    Question. What steps will you take to ensure each of the 
supervisors at the U.S. Mission to the United Nations is fostering an 
environment that is diverse and inclusive?

    Answer. If confirmed, I will endeavor to work with my senior 
management team to reflect the diversity of our great nation by 
striving to promote equal opportunity for our officers, including women 
and those from historically marginalized groups.

    Question. The ability of the U.N. Security Council to respond to 
events is largely dependent on permanent members' cooperation. For 
example, in recent years, Russia (and occasionally China) have vetoed 
the renewal of Security Council resolutions authorizing cross-border 
humanitarian assistance into Syria. There has been significant 
disagreement on Council action related to Iran's nuclear program, 
humanitarian assistance to Syria, and the COVID-19 pandemic. Where do 
you see potential breakthroughs that might reverse recent Council 
inaction?

    Answer. While U.N. Security Council members have been unsuccessful 
in collectively responding to a number of major threats to 
international peace and security in recent years, the Security Council 
has advanced a number of key resolutions that imposed sanctions on 
North Korea, addressed threats posed by foreign terrorist fighters, and 
underpinned political efforts to mediate crises in South Sudan, Yemen, 
Libya, and elsewhere. My team and I will continue to build on these 
efforts and seek out new opportunities for progress, especially on 
critical priorities, including the climate crisis and global pandemic 
response. We will not hesitate to press the Security Council, including 
China and Russia, if they seek to obstruct action on these priority 
areas. I fully understand the importance of maintaining cross- border 
humanitarian aid into Syria and will do everything I can in the Council 
to engage with all Council members on this in advance of the July 
renewal.

    Question. What role might the U.N. Security Council play in our own 
Hemisphere? Might there be options to address human rights and 
democracy issues in Venezuela or Nicaragua, for example?

    Answer. The United States engages with the U.N. Security Council to 
promote peace, democracy, and the protection of human rights around the 
world, including in the Western Hemisphere. Through its oversight over 
the U.N.'s special political missions, the Security Council is working 
to further the peace process in Colombia and to promote political 
stabilization in Haiti. We will continue to look for opportunities in 
the Security Council to address human rights and democracy issues in 
the region, including in Venezuela, Cuba, and Nicaragua.

    Question. Do you foresee reforms of the U.N. Security Council while 
you are in office? How can the United States limit the ability of 
deepening ties between China and Russia to reduce its influence on the 
Security Council?

    Answer. A U.S. reinvestment in multilateralism is the best way to 
reduce the influence of China and Russia across the U.N. system, 
including in the Security Council. That is a commitment that President 
Biden has made and, if confirmed, I will pursue.

    Question. How can the United States more effectively counter the 
spread of authoritarian norms and standards within the U.N. system?

    Answer. When the United States shows up, when we are consistent and 
persistent in exerting our influence according to our values, the U.N. 
system can be an indispensable institution for advancing peace, 
security, and our collective prosperity. We know that China is working 
across the U.N. system to drive an authoritarian agenda in opposition 
to the founding democratic values of the institutions. Its success 
depends on our continued withdrawal. If confirmed, I will fight all 
efforts by China's Government to spread its authoritarian agenda by 
directly opposing its actions, such as its attempts to spread harmful 
language into U.N. resolutions, and by reasserting U.S. leadership 
across the U.N. system by advancing strong reform alongside our allies 
and partners.

    Question. Under the Trump administration, the U.S. consistently 
sought to remove the term ``sexual and reproductive health and rights'' 
from international documents, including those related to essential 
services in the COVID-19 pandemic. These attempts weakened 
international commitments to provide access to comprehensive 
reproductive health care services and put the lives of individuals 
across the world at great risk. If confirmed, how will you ensure that 
the United States reasserts its commitments to sexual and reproductive 
health and rights?

    Answer. The United States supports women's and girls' sexual and 
reproductive health and reproductive rights, and our stance in U.N. 
negotiations will reflect that support. The United States remains the 
world's largest funder of family planning, child and maternal heath, 
and other forms of health assistance that support women across their 
lifetimes. If confirmed, I look forward to revitalizing our engagement 
with U.N. agencies and collaborative partnerships with member states 
which leverages our strengths on these shared priorities.

    Question. Do you commit to promoting access to comprehensive 
reproductive health services at the United Nations?

    Answer. Yes. If confirmed, I will support women's and girls' sexual 
and reproductive health and reproductive rights, and our stance in U.N. 
negotiations will reflect that support. This is part of our broader 
commitment to promoting women's health and advancing gender equality in 
the United States and throughout the world.

    Question. In October, the Trump administration joined the so-called 
Geneva Consensus Declaration, a statement that was neither negotiated 
nor a consensus signed by over 30 countries under the guise of 
promoting women's health. The statement actually undermines access to 
comprehensive reproductive health services and LGBTQ rights and is in 
opposition to the United Nations' Universal Declaration of Human 
Rights, which forms the basis for the characterization of abortion and 
same-sex marriage as human rights under international law. Will you 
commit to pulling U.S. support from this statement?

    Answer. Yes. If confirmed, I will work with the State Department to 
ensure that the United States withdraws its support for the so-called 
Geneva Consensus Declaration as soon as possible as President Biden has 
already directed.

    Question. How will you work in partnership with other countries and 
the U.N. to advance women's health and human rights, including sexual 
and reproductive health and LGBTQ rights?

    Answer. If confirmed, I pledge to work closely with partner 
nations, civil society, and U.N. agencies to advance women's and girls' 
health and human rights, including sexual and reproductive health and 
reproductive rights, and to advance the human rights of LGBTQI persons. 
Keeping women and girls healthy, including through access to sexual and 
reproductive health care, enhances their ability to advance their 
education and contribute to the economic prosperity of their families, 
communities, and nations, and ultimately to peace and security. 
Advancing the human rights of women, girls, and LGBTQI individuals is 
also essential to ensure just and equitable societies where all people 
can fully contribute. If confirmed, I look forward to working with the 
U.N. LGBTI Core Group and re-establishing U.S. leadership on this issue 
at the United Nations.

    Question. Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules and to raise concerns that I may have through 
appropriate channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules and to raise concerns that I may have through 
appropriate channels.

    Question. Do you or do any members of your immediate family have 
any financial interests in any foreign country?

    Answer. My investment portfolio includes stocks in companies with a 
presence overseas and mutual funds, including foreign stock funds, 
which may hold interests in companies with a presence overseas, but 
which are exempt from the conflict of interest laws. I am committed to 
ensuring that my official actions will not give rise to a conflict of 
interest. I will divest any investments the State Department's Ethics 
Office deems necessary to avoid a conflict of interest.



                               __________


       Responses to Additional Questions for the Record Submitted
        to Hon. Linda Thomas-Greenfield by Senator John Barrasso

    Question. The U.S. Ambassador to the United Nations must vigorously 
defend and advocate for American values, ideals and standards. How will 
you challenge the actions of the United Nations that run contrary to 
U.S. standards, values, and interests?

    Answer. If confirmed, I will be both a defender of and advocate for 
U.S. standards, values, and interests. The United Nations is an 
imperfect institution and must be held to the highest standards. That 
includes transparency in its operations and accountability for its 
performance. I have prioritized these crucial standards throughout my 
career in the Foreign Service and if confirmed, will take that 
experience and determination to New York.

    Question. Do you pledge to do everything in your power to preserve 
and protect American sovereignty within the United Nations?

    Answer. If confirmed, I pledge to do everything in my power to 
preserve and protect U.S. sovereignty within the United Nations. I 
believe that U.S. sovereignty is not threatened by our participation in 
the U.N. system. I also believe, however, U.S. values and interests are 
best advanced through robust and meaningful participation--and 
leadership--across the U.N. system.

    Question. What specific actions would you take if you determine a 
program or agency at the U.N. is failing to live up to U.S. values and 
standards?

    Answer. Performance and conduct of the U.N. and its agencies and 
organizations must be a continual focus in order to ensure the U.N. 
remains true to its intended purpose and responsive to member states. 
As the U.N.'s largest financial contributor, the United States has a 
central role to play in holding the U.N. accountable. If confirmed, I 
will underscore to U.N. leadership that the United States has high 
expectations for U.N. performance and conduct and insist on 
transparency and rigorous evaluation of its activities.

    Question. The United States is the largest financial contributor to 
the United Nations. It is important that the funding is used 
appropriately and in the best interest of our nation. Are you committed 
to safeguarding U.S. taxpayer dollars at the United Nations?

    Answer. Yes. If confirmed, I commit to ensuring prudent management 
of U.S. taxpayer investments in the U.N. and its subsidiary bodies.

    Question. What initiatives will you pursue at the United Nations to 
provide taxpayers greater transparency of U.S. funding?

    Answer. If confirmed, I will pursue initiatives to increase 
financial transparency, so the U.S. Congress and taxpayers can see 
clearly how U.S. funds at the United Nations are being spent.

    Question. The United Nations has failed to seriously implement 
budgetary discipline. What efforts will you take to limit the growth of 
the U.N. regular budget and ensure the U.N. makes more efficient use of 
its existing resources?

    Answer. If confirmed, I will work with my counterparts in the U.N. 
General Assembly to advance the objective of budget discipline and 
ensure existing resources are directed to the highest priorities in 
order to advance the interests of the U.S.

    Question. Why are the financial burdens at the United Nations not 
shared more equitably and in accordance with current economic 
realities? What is your strategy to address it?

    Answer. The next negotiations among member states on U.N. 
assessment rates will take place later in 2021, and USUN and the State 
Department are already looking at strategies for engagement on this 
issue. If confirmed, my team and I will do everything we can to make 
sure that other countries pay their fair share.

    Question. Currently, the United States is the largest financial 
contributor to the U.N. peacekeeping budget. This fall, United Nations 
General Assembly will adopt a new scale of assessment. Under U.S. law, 
the U.S. contribution to United Nations peacekeeping is capped at 25 
percent. As part of the Helms Biden agreement, the United Nations 
adopted a formula for the peacekeeping scale of assessment that was 
projected to gradually reduce the U.S. assessment to 25 percent. The 
U.S. assessment today is around 28 percent. What is your strategy to 
convince member states to adopt a maximum peacekeeping assessment of 25 
percent?

    Answer. If confirmed, my team and I will do everything we can to 
make sure that other countries pay their fair share.

    Question. As a permanent member of the U.N. Security Council, our 
nation plays a major role in establishing, renewing, and funding U.N. 
peacekeeping missions. The United States must push for United Nations 
Peacekeeping missions to have mandates that are realistic, tailored, 
and achievable. It is also important that each missions have an exit 
strategy that specifies what success looks like and how to achieve it. 
How will you address United Nations peacekeeping missions that are not 
working and lack the underlying political conditions for a resolution?

    Answer. U.N. peacekeeping operations are among the most effective 
mechanisms of burden sharing to address the global challenges to 
international peace and security, but reform is needed to make 
peacekeeping operations more effective and to promote sustainable 
political solutions to conflict. If confirmed, I will continue to 
evaluate missions with a view to making them as efficient and effective 
as possible, while providing missions with the necessary resources to 
fully implement their mandates.

    Question. Do you believe all future U.N. peacekeeping missions must 
have a periodic mandate renewal to ensure adequate oversight and 
review?

    Answer. Yes, I believe periodic mission mandate review and renewal 
is essential to ensuring the U.N. Security Council retains oversight 
and control over missions and their mandates. The process of mandate 
renewal forces regular review and assessment of missions and helps 
ensure that mandates reflect the best practices.

    Question. In recent years, there have been several reports 
describing the sexual exploitation and abuse by U.N. peacekeepers. It 
is outrageous that United Nations peacekeepers are inflicting terrible 
atrocities against the very people they were sent to protect. As the 
largest contributor to the U.N. peacekeeping missions, our country must 
demand action be taken to prevent future exploitation of these 
vulnerable populations and ensure individuals are held accountable for 
their crimes. Why hasn't the United Nations been able to solve this 
terrible problem?

    Answer. The U.N. has taken significant steps to prevent and respond 
to sexual exploitation and abuse by peacekeepers, but the U.N. only has 
responsibility for administrative accountability. Criminal 
accountability, if applicable, lies with member states, many of which 
do not have national laws that allow for criminal accountability for 
certain crimes committed outside their borders, particularly by U.N. 
personnel, including the United States. If confirmed, I will press the 
U.N. Secretary-General to strengthen transparency and take decisive 
action to hold member states responsible for their obligations under 
the zero-tolerance policy. I am committed to pressing member states for 
credible investigations and accountability at all levels.

    Question. What new, additional measures would you take to ensure 
the United Nations holds troop-contributing countries and peacekeepers 
accountable for sexual exploitation and abuse?

    Answer. The U.N. has strengthened its policies, trainings, and 
procedures to prevent and respond to sexual exploitation and abuse, but 
this issue requires constant vigilance and leadership to ensure such 
policies and procedures are being fully implemented. If confirmed, I 
will work closely with international partners to maintain pressure on 
the U.N. to increase transparency on the status of investigations and 
accountability measures taken and to fully implement U.N. Security 
Council resolution 2272, including strong actions like repatriating 
units and individual peacekeepers when appropriate. Similarly, I am 
committed to pressing member states to investigate SEA allegations in a 
timely manner and to hold perpetrators to account.

    Question. The Biden administration has expressed concerns about 
China's efforts to intimidate Taiwan. It has also expressed support for 
deepening ties between the United States and Taiwan. In January, then 
President elect Biden stated, ``the United States should continue 
strengthening our ties with Taiwan and other like-minded democracies.'' 
During your nomination hearing, you stated, ``Taiwan is one of the 
strongest democracies in the region and we need to support them as a 
democracy and stand by them as a democracy and provide them the 
security that they need to push against any efforts by the Chinese to 
compromise their security.'' What would be your top priorities in 
supporting Taiwan and pushing against any effort by the Chinese 
Government to compromise their security?

    Answer. The Biden administration's support for Taiwan is rock 
solid, and we will continue to deepen our ties with Taiwan in the face 
of PRC efforts to constrain its international space. Taiwan is a 
leading democracy, as well as a major economy, a security partner, and 
a technology powerhouse. The administration will continue to support 
Taiwan's membership in international organizations where statehood is 
not a requirement and encourage Taiwan's meaningful participation in 
organizations where membership is not possible. We will also continue 
to make available to Taiwan the defense articles and services necessary 
to enable it to maintain a sufficient self-defense capability, 
consistent with the Taiwan Relations Act and our One-China policy.

    Question. Earlier this month, U.S. Ambassador to the United Nations 
Kelly Crafty had planned to lead a delegation to Taiwan to talk about 
enhancing Taiwan's role in multilateral institutions. The trip was 
canceled along with all other international travel as part of the 
transition to the incoming Biden administration. If confirmed, would 
you lead a delegation to Taiwan to carry forward this important work?

    Answer. If confirmed, I will continue U.S. policy to support 
Taiwan's meaningful participation in the United Nations and related 
organizations and will work closely with friends and allies on this 
issue. I cannot speak to specific travel or meeting arrangements at 
this time. If confirmed, I will be open to any meeting, if doing so 
would advance U.S. interests and foreign policy objectives.

    Question. On October 18, 2020, the international arms embargo on 
Iran, the world's leading state sponsor of terrorism, was officially 
lifted. Repeated efforts by the United States to persuade the 
international community to extend the embargo failed. Do you support 
the United Nations Security Council reinstating the international arms 
embargo on Iran?

    Answer. The President is committed to working with our allies and 
partners to counter Iran's destabilizing activities in the region, 
including its provision of weapons to armed groups and other violent 
partners and proxies. The administration will continue to dissuade 
countries from providing arms to Iran and fueling Iran's efforts to 
undermine the stability of its neighbors in the region. It will also 
redouble our efforts regarding enforcement of existing United Nations 
Security Council arms embargoes, such as those relating to Lebanon and 
Yemen.

    Question. In October 2020, China and Russia were elected to the 
U.N. Human Rights Council. The United Nations should be condemning the 
human rights violations of Russia and China not electing them to this 
body. The Biden campaign said ``We will rejoin the U.N. Human Rights 
Council and work to ensure that body truly lives up to its values.'' At 
your nomination hearing, you discussed the U.N. Human Rights Council 
stating, ``We can push back on human rights violators who want to be 
legitimized by sitting at the table.'' You also stated, ``We can work 
from the inside to make the organization better.'' What specific 
reforms would you pursue at the U.N. Human Rights Council to make it 
better and ensure it truly lives up to our values?

    Answer. The United States is committed to seeking reforms of the 
U.N. Human Rights Council, particularly with respect to the Council's 
disproportionate focus on Israel and its problematic membership. We 
have seen that when we play an active and constructive role, we can 
advocate more effectively on Israel's behalf and engage with our allies 
and friends to keep some of the countries with the worst human rights 
records off the Council and to encourage countries with better records 
to run for seats. When we were on the Council, the U.S. was also able 
to help reduce the number of resolutions focused on Israel. If 
confirmed, I will ensure the United States prioritizes these specific 
reforms.

    Question. In December 2016, the United States abstained at the 
United Nations Security Council (UNSC) on a one-sided resolution that 
sought to impose solutions to the final status issues on the parties. 
Over 340 members of the U.S. House of Representatives and 79 U.S. 
Senators supported resolutions objecting to the UNSC resolution and the 
United States' abstention. What are your thoughts on UNSCR 2334? How 
would you recommend the U.S. respond to international efforts to 
implement the resolution?

    Answer. If confirmed, I look forward to standing with Israel and 
working against the unfair targeting of Israel at the U.N. and the 
relentless train of one-sided resolutions, reports, and other actions 
across the United Nations. I will work closely with the Israeli Mission 
to the U.N. and Israel's permanent representative to help bolster 
Israel's security and widen the circle of peace. Israel has no closer 
friend than the United States, and I will reflect that in my actions at 
the United Nations.

    Question. Israel has continually been subjected to one-sided 
resolutions and political investigations at the United Nations. If 
confirmed, what actions will you take to fight the anti-Israel bias at 
the United Nations?

    Answer. The U.N. must take steps to address its credibility deficit 
with regard to the unfair treatment and targeting of Israel. If 
confirmed, I will continue the U.S. work in opposing efforts to 
unfairly single out or delegitimize Israel through one-sided 
resolutions, reports, and other actions across the United Nations, 
including the Security Council, the General Assembly, the Human Rights 
Council, and other bodies. If confirmed, I also look forward to working 
with our Israeli diplomatic colleagues to promote the election of 
Israel to U.N. leadership posts, its inclusion in U.N. working groups, 
and the selection of qualified Israeli candidates for U.N. positions.

    Question. How would you handle Palestinian efforts in the United 
Nations system to seek recognition as a state outside of the peace 
process with Israel?

    Answer. I believe Palestinian efforts to join international 
entities are premature and counterproductive. There are no shortcuts to 
Palestinian statehood outside direct negotiations with Israel.
    If confirmed, I will continue to make clear, both with the parties 
and with international partners, that the only realistic path forward 
to end this conflict is through direct negotiations aimed at achieving 
a comprehensive and lasting peace.
    If confirmed, I will support the enforcement of Congressional 
provisions related to this matter regarding Palestinian attempts to 
gain membership as a state in U.N. bodies.



                               __________


       Responses to Additional Questions for the Record Submitted
       to Hon. Linda Thomas-Greenfield by Senator Jeanne Shaheen

    Question. During the hearing, you discussed the Uyghur genocide 
determination. Is it the State Department's position that what occurred 
to the Uyghur population in Xinjiang province constitutes genocide? Is 
this policy under review?

    Answer. Secretary Blinken and I have made clear that genocide has 
been committed against the Uyghurs in Xinjiang. China's Government has 
also committed crimes against humanity against Uyghurs and members of 
other ethnic and religious minority groups, including imprisonment, 
torture, enforced sterilization, and persecution. These atrocities 
shock the conscience and must be met with serious consequences. If 
confirmed, I will work with our allies and partners to promote 
accountability and call on Beijing to immediately end these atrocities 
and to respect the human rights of Uyghurs and all others across China.

    Question. Do you agree with the longstanding 1978 State Department 
legal opinion on Israeli Civilian Settlements in the West Bank? How do 
you view the Obama administration's decision to abstain from U.N. 
Security Council Resolution 2334?

    Answer. The United States has a national interest in the 
maintenance of peace, stability, and respect for international law. The 
administration will oppose any unilateral actions--including incitement 
to violence, settlement approval and construction, or annexation of the 
West Bank--that make a two-state outcome to the Israeli-Palestinian 
conflict more difficult. If confirmed, I will continue to uphold 
President Biden's strong commitment to Israel and its security at the 
United Nations. This includes opposing efforts to unfairly single out 
or delegitimize Israel through one-sided resolutions, reports, and 
other actions at the United Nations.

    Question. How will the United States work with the United Nations 
Relief and Works Agency? How soon can the Biden administration restore 
funds to UNRWA and what steps must be taken to begin this process?

    Answer. President Biden plans to follow through on his pledge to 
restore U.S. economic and humanitarian aid to the Palestinians. UNRWA's 
mandate is set by the U.N. General Assembly and it provides essential 
services directly to Palestinian refugees in the five regions it 
covers. Unlike UNHCR, which works to deliver most services to refugees 
through sub-partners and those partners' many employees in the field, 
UNRWA and its employees provide the services directly to beneficiaries. 
As stated in my confirmation hearing, I am committed to working with 
and consulting Congress on these issues. If confirmed, I look forward 
to engaging with UNRWA on meaningful and sustainable reforms to their 
operations.

    Question. President Trump's decision to formally end the 
participation of the United States in the JCPOA culminated in his 
administration asserting at the United Nations that it had triggered 
the ``snapback'' mechanism of the anti-nuclear agreement which they no 
longer participated in or abided by. Do you believe that the Trump 
administration's purported use of the ``snapback'' mechanism helped or 
hurt our ability to counter Iran's nuclear activities and other 
dangerous behavior? Do you regard the ``snapback'' mechanism as having 
been duly triggered--thus resulting in the re-imposition of 
multilateral sanctions on Iran that were suspended under the JCPOA?

    Answer. The U.N. sanctions snapback mechanism was designed to 
provide leverage to help ensure Iran performed its nuclear commitments 
under the JCPOA. The Trump administration invoked snapback in a way 
that was never contemplated by the deal, namely after unilaterally 
exiting it. Virtually none of our allies or partners recognized this 
invocation of snapback. The Biden administration believes that the 
United States will be in a stronger position to counter the full range 
of threats posed by Iran, including its nuclear program, by working in 
close concert with our allies.



                               __________


       Responses to Additional Questions for the Record Submitted
          to Hon. Linda Thomas-Greenfield by Senator Ted Cruz

    Question. The Chinese Communist party spends billions of dollars 
every year to influence what Americans see, hear, and ultimately think, 
including through the financing and control of Confucius Institutes. In 
2019 you gave a speech at a Confucius Institute at Savannah State 
University for which you received $1,500. You have also said the money 
was an ``honorarium from the university.'' Please describe how you know 
that the money came from the university, and more specifically that it 
did not come from the Confucius Institute.

    Answer. I received a check for $1500 from the University.

    Question. How much money from the Government of the People's 
Republic of China or the Chinese Communist Party has been given to 
Savannah State?

    Answer. I do not know the answer to this question. I did not 
discuss this with the University.

    Question. Please describe any interactions you had with any staff 
attached to the Savannah State Confucius Institute.

    Answer. Other than serving on a panel and giving remarks to an 
audience that included Confucius Institute staff, I did not knowingly 
have any direct contact with anyone who was identified as with the 
Institute.

    Question. Please describe any other compensation, gifts, or 
reimbursements you received for your trip to Savannah State? Did the 
Confucius Institute in any way pay for or contribute to your expenses 
related to travel, rooming, or board?

    Answer. The University paid for my trip and accommodations for two 
days. The University professor who invited me picked me up from the 
airport and dropped me at the airport.

    Question. Have you received any additional money, gifts, or 
compensation from any entity controlled by or linked to the Government 
of the People's Republic of China or the Chinese Communist Party?

    Answer. I have never knowingly received any compensation, money or 
gifts from any entity controlled by or linked to the Government of the 
People's Republic of China or the Chinese Communist Party. Except in my 
role as a U.S. diplomat for 35 years, this was the first and only 
occasion that I came into contact with the Confucius Institute.

    Question. On January 19, 2021, the U.S. State Department announced 
a determination that the activities of the Chinese Communist Party in 
Xinjiang, and specifically atrocities against the region's Uyghur 
minorities, constituted a genocide. Secretary of State Blinken has said 
that he considers that determination to be correct. During your 
hearing, you indicated that you were not ready to conclude the Chinese 
activities constituted a ``genocide'' and that the State Department was 
conducting an internal review ``because all of the procedures were not 
followed'' by the Trump administration in making the determination.
    This answer is not tenable. There is no formal set of procedures 
for the State Department to follow in issuing a genocide determination. 
According to the U.S. Holocaust Memorial Museum ``[n]o formal policy 
exists or has existed to guide how or when the U.S. Government decides 
whether genocide has occurred'' and to the extent there is a process, 
``the process is neither written down nor applied uniformly, there has 
been no formal decision to adopt a process as a matter of policy.'' 
Please describe which procedures you believe were not followed by the 
Trump administration in making its Jan 19 determination.

    Answer. As I made clear in my testimony, I have witnessed a 
genocide in Rwanda, so I know what it looks like. And that is why 
Secretary Blinken and I have made clear that genocide has been 
committed against the Uyghurs in Xinjiang. China's Government has also 
committed crimes against humanity against Uyghurs and members of other 
ethnic and religious minority groups, including imprisonment, torture, 
enforced sterilization, and persecution. These atrocities shock the 
conscience and must be met with serious consequences. If confirmed, I 
will work with our allies and partners to promote accountability and 
call on Beijing to immediately end these atrocities and to respect the 
human rights of Uyghurs and all others across China.

    Question. Do you believe that the activities of the Government of 
China in Xinjiang constitute a ``genocide''? If not, why not?

    Answer. Secretary Blinken and I have made clear that genocide has 
been committed against the Uyghurs in Xinjiang. China's Government has 
also committed crimes against humanity against Uyghurs and members of 
other ethnic and religious minority groups, including imprisonment, 
torture, enforced sterilization, and persecution. These atrocities 
shock the conscience and must be met with serious consequences. If 
confirmed, I will work with our allies and partners to promote 
accountability and call on Beijing to immediately end these atrocities 
and to respect the human rights of Uyghurs and all others across China.

    Question. The Obama-Biden administration's approach to the Israeli-
Arab conflict was justified on the basis of a theory of regional 
relations in which the Israeli-Palestinian conflict prevented broader 
Israeli-Arab rapprochement. That approach culminated in December 2016, 
when the Obama administration maneuvered the United Nations Security 
Council into passing UNSCR 2334, which among other things denied 
Israel's sovereignty over the Golan Heights and part of its capital 
Jerusalem.
    I believed that the Obama-Biden administration's approach was 
deeply misguided, and I urged the Trump administration to reverse it 
and to render UNSCR 2334 null and void, because the resolution was poor 
on its merits and because I believed that restoring the U.S.-Israel 
relationship could serve as the basis for regional peace. They did so, 
including by recognizing Israel's sovereignty over the Golan Heights, 
by recognizing Jerusalem as Israel's capital, by moving our embassy to 
Jerusalem, by seeking to end discriminatory approaches that 
distinguished legally and for the purposes of aid and trade between 
different Israeli communities, and by taking several other steps. I 
believe that approach has been vindicated by among other things the 
success of the Abraham Accords.
    In December 2017, the United States ambassador to the U.N. 
repudiated resolution 2334, stating that ``given the chance to vote 
again on Resolution 2334, I can say with complete confidence that the 
United States would vote `no.' We would exercise our veto power.'' Do 
you commit to opposing or vetoing any measure similar to Resolution 
2334?

    Answer. If confirmed, I look forward to standing with Israel and 
working against the unfair targeting of Israel at the UN and the 
relentless train of one-sided resolutions, reports, and other actions 
across the United Nations. Singling Israel out is neither just nor 
conducive to peace. I will work closely with the Israeli Mission to the 
UN and Israeli permanent representative to help bolster Israel's 
security and widen the circle of peace. Israel has no closer friend 
than the United States and if confirmed, I will reflect that in my 
actions at the United Nations.

    Question. Do you commit to preserving the Trump administration's 
recognition of the Golan Heights as sovereign Israeli territory?

    Answer. In considering the U.S. position on the Golan Heights, we 
will give great weight to Israel's security. As long as Bashar al-Assad 
is in control of Syria, it would be irresponsible to urge Israel to 
part with the Golan Heights. A dangerous combination of Iranian troops, 
Iranian-linked militias, Assad's forces, and jihadists poses a serious 
security threat to Israel across the border with Syria. Control of the 
strategic Golan Heights provides Israel an added measure of security 
from the turmoil next door.

    Question. Do you believe that:

   Israel has sovereignty over the Golan Heights?

   Israel has sovereignty over Jerusalem, including the Old City of 
        Jerusalem?

   Israel is in illegal occupation of any part of Jerusalem?

   Israel is in illegal occupation of the Old City of Jerusalem?

    Answer. In considering the U.S. position on the Golan Heights, the 
administration gives great weight to Israel's security. As long as 
Bashar al-Assad is in control of Syria, it would be irresponsible to 
urge Israel to part with the Golan Heights. Control of the strategic 
Golan Heights provides Israel an added measure of security from the 
turmoil next door.
    Jerusalem is the capital of Israel, and President Biden has been 
absolutely clear that he will not move the U.S. embassy in Jerusalem 
back to Tel Aviv. We pledge to handle all issues related to Jerusalem 
with the care and sensitivity that they deserve.

    Question. UNSCR 2231 ended a long-standing international arms 
embargo against Iran, described across the previous six resolutions 
terminated by paragraph 7(a) of the resolution. After an effort to 
extend that embargo, the Trump administration took two measures. First, 
it invoked the ``snapback mechanism'' described in paragraphs 10-15 of 
UNSCR 2231, reversing the termination of those resolutions. Second, the 
Trump administration implemented EO 13949, ``Blocking Property of 
Certain Persons with Respect to Conventional Arms Activities of Iran,'' 
which authorizes sanctions for transfers to and from Iran of arms or 
related material or military equipment. As a result, the U.S. 
established a baseline deterrent against major arms sales to Iran. 
Multi-billion dollar arms agreements publicly described and anticipated 
by Russia, China, and Iran have not occurred. Please describe how you 
envision continuing to implement an arms embargo against Iran, either 
through EO 13949 or a similar mechanism.

    Answer. The President is committed to working with our allies and 
partners to counter Iran's destabilizing activities in the region, 
including its provision of weapons to violent proxies. We will continue 
working to dissuade countries from providing arms to Iran and fueling 
Iran's efforts to undermine neighbors in the region, including through 
the use of sanctions. We also will redouble our efforts regarding 
enforcement of other United Nations Security Council arms embargoes 
related to Iran, such as those relating to Lebanon and Yemen.

    Question. Are you prepared to impose sanctions on Russian or 
Chinese entities, under whatever authorities are necessary, to prevent 
them from arming Iran?

    Answer. The President is committed to working with our allies and 
partners to counter Iran's destabilizing activities in the region. We 
cannot prejudge any future sanctions decisions and will assess any 
information regarding the proliferation of arms to, or from, Iran as it 
becomes available. However, we are prepared to leverage our applicable 
authorities, including sanctions, against any actor who supports Iran's 
weapons programs of concern or enables Iran's ongoing provision of 
weapons to armed groups and other violent partners and proxies. We also 
will redouble our efforts regarding enforcement of other United Nations 
Security Council arms embargoes related to Iran, such as those relating 
to Lebanon and Yemen.

    Question. The Biden administration has taken a vocal stance toward 
the United States reentering the Iran nuclear deal based on Iran's 
compliance to the JCPOA. We now know that while and since the JCPOA was 
negotiated, Iran concealed nuclear materials, activities, and sites. In 
addition to the intelligence provided by the Nuclear Archive seized by 
Israel, the International Atomic Energy Agency (IAEA) in the summer of 
2020 confirmed that Iran was stonewalling the Agency on several 
outstanding questions related to potential nuclear-weapons related 
activity. These issues were concealed during implementation of the 
JCPOA, and I am deeply concerned that the U.S. would return to 
compliance with the JCPOA in the absence of Iran resolving the IAEA's 
concerns. Would you oppose the United States returning to compliance 
with the JCPOA in the absence of Iran resolving the IAEA's concerns?

    Answer. The Biden administration has an unshakable commitment to 
preventing Iran from acquiring a nuclear weapon. We have full 
confidence in IAEA Director General Grossi and his inspectors as they 
verify Iran's actions on the ground. Iran must cooperate fully with the 
IAEA's inspectors, and it must comply with its obligations under its 
safeguard agreements with the IAEA.

    Question. The United States Congress has been and remains committed 
to maintaining America's embargo on Cuba. The Cuban Liberty and 
Democratic Solidarity (LIBERTAD) Act of 1996 (P.L. 104-114) codifies 
the U.S. embargo on Cuba. The executive branch is prevented from 
lifting the embargo without congressional concurrence through 
legislation until certain democratic conditions set forth in the law 
are met. The Cuban regime annually proposes a resolution at the United 
Nations General Assembly condemning the U.S. for this policy, and 
calling for the embargo to be lifted. The U.S. has consistently voted 
against this measure, with the exception of 2016, when the Obama-Biden 
administration instead abstained from the vote. Long-standing policy of 
the U.S. to use its voice and vote to oppose this measure was restored 
under the Trump administration. Do you commit to voting against the 
annual Cuban-sponsored resolution condemning the United States' 
Congressionally-mandated trade embargo at the United Nations General 
Assembly?

    Answer. Support for democracy and human rights, as well as 
empowering the Cuban people to determine their own future, will be at 
the core of our Cuba policy. If confirmed, I commit to reviewing the 
U.S. Government's policy approach to Cuba at the United Nations.



                               __________


       Responses to Additional Questions for the Record Submitted
    to Hon. Linda Thomas-Greenfield by Senator Christopher A. Coons

    Question. What are the current State Department guidelines on 
vaccinating foreign diplomats in the United States? Does the Department 
plan to offer foreign diplomats the vaccine?

    Answer. I strongly support vaccination of all persons residing in 
the United States, including foreign diplomatic personnel and their 
families. The State Department encourages foreign diplomatic personnel 
and their dependents to participate in vaccination programs offered by 
the local communities in which they reside.
    The State Department has not been allocated vaccines for purposes 
of vaccinating foreign diplomats. We do allow foreign missions to 
import COVID-19 vaccines for their diplomatic personnel and their 
dependents serving in the United States. To ensure proper handling and 
procedures are followed, foreign missions are encouraged to discuss 
such plans with the Department's Office of Foreign Missions prior to 
their government's shipment of such supplies. I will raise this policy 
for review if confirmed.



                               __________


       Responses to Additional Questions for the Record Submitted
          to Hon. Linda Thomas-Greenfield by Senator Tim Kaine

    Question. The Green Climate Fund (GCF) is a critical channel of 
climate finance for developing countries. It directly supports 
implementation of the Paris Agreement by providing essential resources 
for climate mitigation and adaptation. In 2014, the United States 
pledged $3 billion to the GCF, but only transferred $1 billion before 
President Trump withdrew support for the Fund. The United States has 
yet to pledge funding for the first replenishment period of the GCF for 
the years 2020-2023. Will you support the provision of U.S. funding to 
the GCF, as a key component of U.S. re-engagement in the global climate 
community, with $2 billion to fulfill the first pledge? What should the 
U.S. do to bring our commitments in line with other key contributors 
who have increased their contributions for the first replenishment?

    Answer. President Biden is committed to ensuring that the United 
States plays a prominent role on climate issues. Resources are 
essential for ensuring developing countries can reduce their emissions 
and build resilience against the destabilizing impacts of climate 
change--both of which have clear benefits not only for the recipient 
countries, but also for the United States and the rest of the world. 
The Biden-Harris administration will work closely with Congress on 
funding for international climate finance provided through a variety of 
channels, including bilateral assistance programs and assistance to 
multilateral funds and organizations.



                               __________


       Responses to Additional Questions for the Record Submitted
      to Hon. Linda Thomas-Greenfield by Senator Edward J. Markey

    Question. As you know during the Trump administration the State 
Department unilaterally withheld a portion of U.S. funding directed 
towards the Office of the High Commissioner for Human Rights (OHCHR). 
As a result, because of U.S. caused funding shortfalls, the OHCHR was 
almost forced to suspend activities related to member state compliance 
with the Convention Against Torture and the International Covenant on 
Civil and Political Rights, two treaties to which the United States is 
party. This provided an opening to other member states, particularly 
China, who are working to increase their own profile at the U.N. and 
use it to weaken the organization's human rights pillar. Will the 
United States promptly release funding for the Office of the High 
Commissioner and run for a seat on the Human Rights Council? And within 
the OHCHR, will the Biden administration specifically recognize and 
offer financial support to the ``Free and Equal'' campaign and their 
LGBTI rights focused work?

    Answer. If confirmed, I will work to ensure robust funding to 
OHCHR. President Biden has committed that the United States will re-
engage with the Human Rights Council. The Biden-Harris administration 
believes that, when it works well, the Human Rights Council plays an 
important role in shining a spotlight on the world's worst human rights 
violators and can serve as a beacon for those fighting against 
injustice and tyranny. If confirmed, I will also work to support LGBTQI 
human rights, including the U.N. ``Free and Equal'' campaign.

    Question. In late February, the Joint Commission of the Joint 
Comprehensive Plan of Action (JCPOA) with Iran will meet in Vienna, 
Austria to discuss continued implementation of the agreement. Will the 
United States declare itself to be a Participant State to the JCPOA at 
that meeting?

    Answer. It will take time for the United States to return to JCPOA. 
It is too early to say if the United States will join the Joint 
Commission meeting in February as a participant in the deal. If Iran 
returns to full performance of its commitments, the United States would 
do the same in order to provide a diplomatic foundation for follow-on 
discussions.

    Question. Please describe the scope of existing U.S. and 
multilateral sanctions and exports regimes that can counter Iran's 
proliferation of ballistic missile technology and its trade in 
conventional arms. Additionally, what is the best way for the United 
States to strengthen those tools?

    Answer. The scope of existing U.S. and multilateral sanctions and 
export regimes that can counter Iran's proliferation of ballistic 
missile technology and its trade in conventional arms is extensive and 
includes a range of multilateral and U.S. unilateral sanctions, export 
control measures, participation in multilateral regimes; and other 
regional and country-specific measures. The Biden administration is 
committed to countering the threat posed by Iran. We commit to 
reviewing ways to strengthen tools to address this issue and will work 
in close coordination with our allies and partners to do so.

    Question. The State Department finalized a policy in October 2018 
that denies visas to same-sex partners of foreign diplomats who serve 
on the international staff at the United Nations to bilateral missions 
in the United States. While there is an exemption for countries that do 
not offer legal same-sex marriage in their countries but offer 
reciprocity to U.S. diplomats, it effectively excludes LGBTI diplomats 
from many countries serving at posts in the United States. Can you 
commit that that the State Department will review this policy and 
report back to the Senate Foreign Relations Committee on any policy 
modifications it may make?

    Answer. I am willing to review the policy; however, current policy 
does not exclude LGBTI diplomats from serving in the United States. 
Rather, it accords the same recognition to same-sex partners of foreign 
diplomats as it does to the partners of U.S. same-sex diplomatic and 
consular officers serving abroad in the sending country and allows the 
Department to advocate for reciprocal treatment for the same-sex 
spouses of our officers. Limited exceptions are available on a 
reciprocal basis. The Department has observed minimal impact on foreign 
officials and international organization personnel. Those who are 
neither legally married nor eligible for an exception may still 
accompany their partner to the United States with B-2 visas, similar to 
non-married, opposite-sex partners.

    Question. After the 2015 Obergefell v. Hodges Supreme Court 
decision, same sex couples followed a process under the Immigration and 
Naturalization Act that allowed for children born abroad to be granted 
a U.S. passport and U.S. citizenship. However, the State Department 
currently interprets Section 301 of the INA to require that both 
parents have a biological relation to children born overseas, which has 
had the effect of denying the issuance of U.S. passports to newborns. 
Can you commit to reverse this policy that creates a deeply unfair 
standard for LGBTI couples?

    Answer. While I would support a review of this matter, the 
Immigration and Nationality Act (INA) governs our decision-making 
process in citizenship matters. Under the Department's interpretation 
of existing law, at least one U.S. citizen parent must have a 
biological relationship to a child born abroad for the child to acquire 
U.S. citizenship at birth. Designation as a parent on a foreign birth 
certificate alone does not fulfill this biological relationship 
requirement. The Department expanded the interpretation of a 
``biological'' connection in 2014 to include gestational carriers and 
individuals who are genetically connected to a child. The INA provides 
alternative paths to acquire U.S. citizenship for certain children born 
abroad who do not otherwise qualify for U.S. citizenship at birth.

    Question. In 2018, the Council established the Independent 
Investigative Mechanism for Myanmar (IIMM) to lay the groundwork for 
accountability for the atrocities committed against Rohingya Muslims in 
Rakhine state in 2017. The IIMM is mandated to ``collect, consolidate, 
preserve and analyze evidence of the most serious international crimes 
and violations of international law committed in Myanmar'' and prepare 
files for potential criminal prosecutions. Do you support the work of 
the IIMM, and what additional resources can the U.S. provide to support 
them? In your view, is there anything else the United States can do at 
the U.N. to help set the stage for accountability for the Rohingya?

    Answer. I strongly support promoting accountability for atrocities 
and other human rights abuses in Burma, including through support to 
multilateral investigative efforts like the Independent Investigative 
Mechanism for Myanmar (IIMM). To date, the United States has provided 
strong support to the IIMM, providing it with relevant information from 
our own documentation work and ensuring it has the support and 
financial resources it will need for its mandate. If confirmed, I will 
advocate for continued U.S. support to the IIMM and other efforts to 
preserve evidence, prosecute those responsible for atrocities and 
abuses, and provide justice to victims.



                               __________


       Responses to Additional Questions for the Record Submitted
           to Linda Thomas-Greenfield by Senator Jeff Merkley

    Question. Will you support U.S. engagement as a member of the U.N. 
``LGBTI Core Group?'' How do you think you can leverage your deep 
Africa expertise to build bridges between the LGBTI Core Group and 
African nations?

    Answer. Yes. If confirmed, I pledge that the United States will 
increase our engagement and leadership within the U.N. LGBTI Core Group 
in New York, and that we will also engage on LGBTIQ issues across all 
relevant U.N. fora. While publicly advocating for LGBTQI issues in the 
African context can be challenging, there are also many opportunities 
to increase African support for the human rights of LGBTQI persons. In 
fact, several African nations have supported prior U.N. resolutions on 
the subject. I have engaged with African leaders on this in the past 
and if confirmed, I will continue to engage with African counterparts 
and work to increase support among them for advancing human rights for 
all, including for LGBTQI persons.

    Question. How will you work with the Security Council, the 
International Organization for Migration, the United Nations High 
Commissioner for Refugees, and the World Food Program to address the 
impacts of the coronavirus crisis on the global economy, food supply, 
and displaced populations?

    Answer. The U.S. role as the world's largest humanitarian donor has 
always been an important marker of our leadership on the world stage 
and a reflection of the strong bipartisan commitment to generosity, 
compassion, and leading with our values. Through strong support for our 
longstanding partnerships, if confirmed, I am committed to working with 
key international humanitarian organizations and other donors and 
stakeholders to address the impacts of the coronavirus crisis on the 
global economy, food systems, and displaced populations. We will also 
need to work to ensure the safety of humanitarian personnel and 
unhindered humanitarian access amid crises and to support needed 
reforms, so that more effective and efficient humanitarian assistance 
reaches the vulnerable populations most in need.

    Question. Will you call for a U.N. Fact Finding Mission to Xinjiang 
or some other way to get U.N. human rights monitors meaningful access 
to inspect the situation in Xinjiang and protect Uyghurs and other 
Muslims?

    Answer. Uyghurs, other Muslims, and members of other religious and 
ethnic minority groups are suffering unspeakable oppression at the 
hands of China's Government. China's gross human rights violations and 
abuses shock the conscience and must be met with serious consequences. 
If confirmed, I will consider all possible tools and actions to promote 
accountability for those responsible. I will also work with likeminded 
allies and partners to call increased attention to the atrocities 
occurring in Xinjiang and to urge increased access to the region for 
U.N. human rights monitors, diplomats, journalists, and other 
independent observers. If confirmed, I am committed to working with 
allies and partners to call on Beijing to end these atrocities and to 
respect the human rights of Uyghurs and all others across China.

    Question. In recent years China has used aggressive tactics to 
harass, exclude, and silence activists at the U.N., going as far as 
having accredited activists blacklisted, having security remove them 
from U.N. premises, and blocking nongovernmental organizations critical 
of China from being granted U.N. accreditation. Will you push back 
against attempts to bully civil society and human rights advocates?

    Answer. Yes. Human rights and democracy are central to our foreign 
policy and the United States is firmly committed to defending and 
promoting the role of civil society and human rights defenders in the 
U.N. We robustly support civil society's participation and 
accreditation to U.N. bodies to raise concerns about specific thematic 
or country-specific challenges. We advance reforms at the U.N. Economic 
and Social Council's Committee on NGOs and engage with the U.N. to 
protect civil society actors from reprisals. If confirmed, I will 
prioritize strategies to counter efforts to stifle civil society 
participation and will work with likeminded partners to protect civil 
society's voice in the U.N.

    Question. What steps will you take to press Burma's Government to 
abide by the provisional measures ordered by the International Court of 
Justice in January 2020, including to prevent genocide and to preserve 
evidence of atrocities?

    Answer. I strongly support promoting accountability for atrocities 
and other human rights abuses in Burma to help ensure such atrocities 
and abuses do not happen again, including through support to 
appropriate multilateral accountability efforts. The United States has 
called on Burma to participate fully in the International Court of 
Justice (ICJ) proceedings and to implement the provisional measures 
order. If confirmed, I will use all the tools at my disposal to 
encourage the Burmese Government and military to respect the ICJ's 
order and pursue justice and greater respect for human rights. 
Preventing atrocities, addressing the needs of victims and ensuring 
they have a voice in these efforts, and promoting accountability for 
those responsible are essential to addressing the Rakhine State/
Rohingya crisis.

    Question. U.S. diplomats serving at USUN and our appointed 
delegations to U.N. meetings have often been criticized for being too 
heavily white and male. If confirmed in this role, what will you do to 
recruit and retain employees who reflect the diversity and richness of 
the American people?

    Answer. If confirmed, I will set the expectation for leadership of 
our Missions to actively recruit candidates from underrepresented 
minorities and to lead a transparent and fair hiring process. In 
addition, I will hold my team accountable for creating a culture of 
inclusion by ensuring employees feel their voices are heard and their 
contributions are valued. We will seek to ensure we earn a reputation 
for nurturing diverse and inclusive teams at USUN and our U.N. missions 
abroad. President Biden has sought to ensure U.S. leadership looks like 
American and, if confirmed, I commit to doing the same for our Mission 
in New York and to foster a culture of inclusion that will empower all 
individuals to represent the United States as the face of our great 
institution.



                               __________


       Responses to Additional Questions for the Record Submitted
       to Hon. Linda Thomas-Greenfield by Senator Cory A. Booker

    Question. The United Nations has repeatedly identified malign 
foreign interference and violations of the U.N. arms embargo as the 
most significant threat to stability in Libya. Blatant disregard for 
the arms embargo by the United Arab Emirates (UAE), Turkey, and Russia 
has led directly to civilian deaths and violations of international 
humanitarian law. Violations of the Libya arms embargo are degrading 
the credibility and integrity of U.N. arms embargos as a tool.

   Are you concerned about the efficacy of the U.N. and its ability to 
        enforce arms embargos?

    Answer. The United States strongly supports the U.N.'s efforts to 
end the Libyan conflict. In the last several months, strong U.N. 
mediation has led to a ceasefire agreement, roadmap to elections, and 
agreement on a mechanism to select an interim executive authority to 
lead the country through those elections. The new U.N. Special Envoy is 
well-positioned to build on this progress and conduct the sustained 
engagement necessary with external actors to end interference and give 
the Libyan people the space to make their own decisions. The United 
States opposes all foreign military intervention in Libya and strongly 
supports the October 23 Libyan ceasefire agreement. This includes the 
immediate withdrawal of all foreign forces, proxies, and mercenaries. 
If confirmed, I will urge the international community to honor 
commitments made in the Berlin Process, and call on all external 
parties to honor the U.N. arms embargo, investigate any lines of 
external financing prolonging the conflict, and support the U.N. 
political process.

    Question. What steps will you take to enforce the U.N. arms 
embargo?

    Answer. The United States strongly supports the arms embargo on 
Libya. If confirmed, we will continue to evaluate appropriate targets 
for sanctions pursuant to the Libya Sanctions regime, as well as other 
appropriate sanctions tools, in support of the arms embargo. And I will 
use the U.S. seat on the U.N. Security Council to call on all external 
parties to abide by the arms embargo.

    Question. Will you impose sanctions on companies and countries that 
violate the Libyan arms embargo?

    Answer. If confirmed, we will continue to evaluate appropriate 
targets for sanctions pursuant to the Libya Sanctions regime, as well 
as other appropriate sanctions tools.

    Question. What diplomatic action will you pursue with Russia, 
Turkey, and the UAE so that they halt all transfers of military 
equipment and personnel to Libya? And how will you hold them 
accountable for their involvement in civilian deaths?

    Answer. The United States fully supports the U.N.-facilitated 
Libyan ceasefire and its call for the withdrawal of all foreign forces 
and fighters, as conveyed publicly when Ambassador Mills criticized 
Russian, Turkish, and Emirati military interference in Libya during a 
recent briefing to the Security Council. If confirmed, I will continue 
to send that message in no uncertain terms, both publicly and 
privately, to those who undermine Libyan sovereignty and violate the 
U.N. arms embargo by supplying or financing material or armed forces, 
proxies, and mercenaries in Libya. We will be examining all tools to 
hold foreign actors, whether adversaries or partners, accountable for 
their actions in Libya, including for involvement in civilian deaths.

    Question. The World Health Organization reported last week that 
only one of the poorest 29 countries, Guinea, has begun vaccinating for 
COVID-19. Even then, only 55 people out of a population of 12 million, 
mostly government officials had been vaccinated with the Russian 
Sputnik V vaccine. Not only is this vaccine inequality shameful, but it 
is dangerous. We've seen that COVID-19 mutates, and if it is allowed to 
spread in countries that cannot procure the vaccine, more variants will 
emerge that could render our current vaccines ineffective. Are you 
concerned that vaccine inequality will prolong the pandemic?

    Answer. As COVID-19 has shown, infectious disease threats anywhere 
can pose significant risks to global health, security, and the economy. 
The United States is committed to the equitable distribution of COVID-
19 vaccine. The Biden administration rescinded the withdrawal to WHO 
and signaled commitment to support the COVAX facility in the first few 
days of the administration, to support the rapid distribution of 
vaccine around the world. The administration will also develop a 
framework for donating surplus vaccines, including through the COVAX 
facility. The United States will seek to advance broader global health 
security to save lives, promote economic recovery, and build better 
resilience against future biological threats.

    Question. What is your plan for addressing this vaccine inequality?

    Answer. The administration has committed to taking an active role 
in supporting equitable global vaccine distribution, including by 
joining the COVAX Facility. On December 22, 2020, Congress appropriated 
funds to contribute to Gavi, the Vaccine Alliance to support the 
procurement and distribution of safe and effective COVID-19 vaccines, 
including through the COVAX Advanced Market Commitment, which 
facilitates vaccine distribution to 92 low- and middle-income 
countries. If confirmed, I will support the administration's efforts to 
urgently develop a framework for donating surplus COVID-19 vaccines to 
countries in need, once there is sufficient supply in the United 
States.

    Question. Women across the globe have been disproportionately 
affected by the non-health effects of COVID-19 pandemic. Gender-based 
violence such as domestic violence, child marriage, and female genital 
mutilation has increased, and is expected to continue to increase, as a 
result of the COVID-19 crisis. Women also comprise 70 percent of health 
care workers globally, yet often are not prioritized for the receipt of 
personal protective equipment, disproportionately exposing them to 
contracting COVID-19. Women and girls also perform 3 times the amount 
of unpaid care work in homes and in their communities as men, a burden 
that has increased during the COVID-19 crisis as women and girls are 
disproportionately responsible for caring for sick and elderly family 
and community members and children who are out of school, limiting the 
ability of women and girls to perform income generating work, pursue 
education or skills building, or avoid exposure to COVID-19. How do you 
plan to ensure that U.S. engagement in the United Nations promotes 
action to address gender-based violence, and how will you work to halt 
and reverse the effects of non-health related impacts of COVID-19 on 
women and girls?

    Answer. Women and girls are disproportionately affected by the 
COVID-19 pandemic, both in terms of experiencing higher rates of 
various forms of gender-based violence (GBV), including intimate-
partner violence, and bearing a disproportionate economic burden. 
Preventing and responding to GBV globally is a cornerstone of the U.S. 
Government's commitment to advancing human rights and promoting gender 
equality. Human rights are central to this administration, and, if 
confirmed, I will examine all possible options and tools on how to 
address GBV, women as drivers of economic recovery, and gender equality 
in long-term COVID recovery plans. We will work with international 
partners, including relevant U.N. agencies, to advance these efforts.

    Question. Can you talk a little bit about the role you believe the 
U.N. should play when it comes to the current conflict in Tigray, 
Ethiopia? As you know, 4.5 million Ethiopians are in need emergency 
food, 2 million have been displaced, and 60,000 have fled to Sudan as 
refugees, which is struggling under its own food security concerns. 
There are reports of emaciated refugees and stunted children unable to 
access aid. There are also reports that the Ethiopian Government is 
allowing Eritrean forces to act with impunity inside Ethiopia. We have 
seen statements from various U.N. offices but what tangible steps 
should the U.N. Security Council play?

    Answer. I am deeply concerned by the situation in Ethiopia. 
Ethiopia's successful transition to a more democratic, inclusive, and 
prosperous society is critical to U.S. interests. It will be important 
that the U.N. Security Council remain engaged in Ethiopia. The U.N. 
plays a vital role in delivering humanitarian assistance and in 
protecting refugees in Ethiopia. As conflict in Ethiopia poses a threat 
to the broader region, if confirmed, I will work with the African 
members of the Security Council in New York and other member states to 
push for an end to fighting and press for constructive dialogue, 
immediate unimpeded humanitarian access, restoration of all 
communications to the region, and accountability for human rights 
abuses and violations committed by all parties.

    Question. If confirmed, will you call on President Abiy to ensure 
unrestricted humanitarian access and call on international actors such 
as Eritrea to halt any efforts that worsen the humanitarian suffering 
inside Ethiopia?

    Answer. If confirmed, I will work with the U.N. to engage Prime 
Minister Abiy and press to ensure humanitarian access and assistance 
into the Tigray region. Continued violence is a risk to Ethiopia's 
stability and regional peace and security.

    Question. If confirmed, would you support a U.N. investigation into 
reports of atrocities and war crimes?

    Answer. Independent investigation of reported atrocities is 
critical for justice and accountability and long-term stability and 
democracy in Ethiopia. If confirmed, I will work with U.N. agencies to 
engage on the Tigray crisis and work toward a political solution to 
bring an end to violence and provide immediate, unimpeded humanitarian 
access, constructive dialogue, and justice and accountability for human 
rights abuses and violations committed by all parties.

    Question. In December, the U.N. Security Council voted unanimously 
to end the U.N. peacekeeping mission in Darfur, and replace it with a 
new political mission in Khartoum to assist in the transition to a 
civilian government in Sudan. Hundreds have been killed or injured in 
the latest intercommunal clashes in Darfur and over 100,000 have been 
displaced. Sudan now bears the responsibility of protecting civilians, 
but doesn't appear to have the capacity to do so. Does the new mission 
have sufficient resources to play a real role in building peace in 
Sudan?

    Answer. The U.N. Integrated Transition Assistance Mission in Sudan 
(UNITAMS), authorized by the U.N. Security Council (UNSC) in June 2020, 
is mandated to support and assist Sudanese authorities with the 
political transition, protection and promotion of human rights, and 
sustainable peace. Due to disagreements in the UNSC over the leadership 
of UNITAMS and the COVID-19 pandemic, UNITAMS has faced challenges in 
delivering on its mandate. If confirmed, I will work diligently to help 
ensure that UNITAMS has the resources it needs to achieve its mandate 
and support the Sudanese people.

    Question. Do you see utility in maintaining the role of the U.N. 
Panel of Experts for Sudan, and in your view, should their mandate 
remain focused on Darfur or should it be broadened?

    Answer. While there has been progress in resolving conflict after 
the fall of the Bashir regime in Sudan, the security situation remains 
precarious. The U.N. Panel of Experts for Sudan provides independent 
reporting on violence, violations of international humanitarian law, 
human rights violations and abuses, and implementation of the Juba 
Peace Agreement. If confirmed, I will continue to evaluate the 
conditions in Darfur and the region to see what changes, if any, should 
be made to the role of the panel.

    Question. The Sudanese military said it could protect civilians. 
What should be done if it cannot?

    Answer. For decades, forces of the Bashir regime failed to live up 
to their commitment to stop human rights abuses and to protect the 
Sudanese people from insecurity. The United States is encouraged by 
recent commitments by the civilian leadership of the transitional 
government to implement reforms. But even with the signing of new peace 
agreements, violence persists in Darfur and the Two Areas. If 
confirmed, I will be tireless in helping the U.N. support Sudan in 
transitioning to democracy, building economic stability, and addressing 
issues in Darfur.

    Question. Russia has repeatedly used its veto at the Security 
Council to shield its wrongdoings and allies, such as the Assad regime 
from investigations into war crimes committed. And China blocks 
consensus on issues related to Burmese complicity in the violence 
against the Rohingya population. Because of this impasse at the U.N. 
Security Council, humanitarian crises have only increased and become 
more prolonged. The U.N. plays a vital role in responding to 
humanitarian crises, but faces real threats to its purpose and mission 
from Russia and China. What steps will you take, if confirmed, to 
respond to Russia at the U.N. Security Council, which frequently 
utilizes its role there to violate human rights and democratic norms?

    Answer. If confirmed, I will continue working with likeminded 
partners on the Security Council to push back on China and Russia as 
necessary to ensure that the Security Council delivers on its mandate 
of maintaining international peace and security. Through leadership and 
concerted diplomatic efforts, the United States will work to ensure 
that the U.N. Security Council can exercise its critical mediation, 
peacekeeping, and sanctions authorities in promoting respect for human 
rights and democratic norms, as well as bringing attention to 
humanitarian crises.

    Question. How will you work with other member states to call out 
Russian and Chinese obstruction at the Security Council?

    Answer. If confirmed, I will work in close concert with the UK, 
France, and the ``Elected 10'' (E10) of the U.N. Security Council to 
push back on obstruction by Russia and China, including by calling out 
obstruction, hosting high-profile meetings and discussions on issues of 
importance, and working with allies and likeminded countries.

    Question. China has faced international pressure over its mass 
detention of ethnic Uyghur (Wee-gur) Muslims in the north-western 
Xinjiang (Shin-Jang) region under the guise of ``re-education.'' And 
yet, 37 U.N. Ambassadors from African, Asian, and Latin American 
countries wrote a letter to the United Nations Human Rights Council, 
praising Beijing's ``remarkable achievements in the field of human 
rights'' and further stating that the internment of the Uyghurs (Wee-
gurs) contributed to peace and security in the region. The letter 
underscored China's efforts to translate its commercial activity and 
investments in those countries to increase diplomatic heft at the 
United Nations and other multilateral organizations. What will your 
approach be to China's actions to influence the votes of U.N. members 
and subvert the principles and purpose of the United Nations?

    Answer. If confirmed, pushing back against China's attempts to 
reshape the U.N. and international norms, rules, and values will be a 
top priority of mine, and I will use our re-engagement with the U.N. 
system to push back against the influence of China and others by 
working to strengthen the values-based international system on which 
the U.N. is founded. I will work on these efforts alongside our allies 
and partners. This will include rallying their support to push back 
against China and call out instances where it and others work to 
undercut U.S. and U.N. values, including on human rights, individual 
freedoms, transparency, and democratic values. If confirmed, I will 
also engage proactively with other countries to address these 
challenges.

    Question. Last week at now Secretary Blinken's confirmation 
hearing, I raised the issue of China, as did I think every other 
Senator. As we all saw, the Trump policy of withdrawal and withholding 
our dues to the U.N. allowed China's rise. When we forfeit our seat at 
the U.N., the chair we sat in doesn't magically disappear, someone else 
will occupy it-and we are increasingly seeing that the someone else is 
China. Certainly, the opposite of withdrawal and withhold is engage and 
invest and that's what needs to happen. It means investing in the State 
Department and the Bureau of International Organization Affairs, which 
has been hollowed out, thereby limiting our ability to push back 
against China's efforts or support our own preferred candidates for 
U.N. positions. It means international investment, where China pushes 
one-sided deals but we don't offer any other options. And it means 
paying our dues, paying back our arrears. China used U.S. funding 
shortfalls to paint our country as unreliable. This along with China's 
investments in other nation's economic development has weakened the 
U.S. ability to counter China and draw attention to human rights 
abuses. How will you ensure that China doesn't fill any leadership 
vacuum at the United Nations?

    Answer. China's efforts to assert its authoritarian agenda and 
values within the U.N. system depends on our withdrawal, which I will 
not allow on my watch. If confirmed, I will ensure that the United 
States reasserts its leadership in the U.N. system. This will include 
paying our dues to maximize our influence and exerting that influence 
to demand reforms and uphold our values. U.S. leadership is essential 
for the success of the U.N., but to succeed, we will need partners. If 
confirmed, I will work with allies and partners to prevent China and 
others from filling a leadership vacuum and subverting the norms and 
values that animate international institutions.

    Question. President Biden has stated a commitment to restoring U.S. 
credibility and leadership at the U.N. What do you foresee as the 
greatest obstacles in the way of this objective?

    Answer. As the United States re-engages at the U.N., we will have 
important work to do with our allies, partners, and even our 
adversaries to make clear the U.S. commitment to multilateralism is 
unwavering. Today, our leadership, credibility, and values are being 
tested around the world. Our relationships are strained. When we are 
absent at the U.N., others quickly fill the void. If confirmed, 
restoring U.S. principled leadership, promoting active engagement and 
valuing partnerships will be among my top priorities. I believe that 
multilateral engagement provides an invaluable platform to defend and 
advance U.S. interests and values.

                              __________

     Correspondence Supporting the Nomination of Hon. Linda Thomas-
  Greenfield to be United States Representative to the United Nations

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

         Ambassador Thomas-Greenfield's Past Comments on China

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

                                  [all]
</pre></body></html>
